<html>
<title> - EXAMINING OBAMACARE TRANSPARENCY FAILURES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








               EXAMINING OBAMACARE TRANSPARENCY FAILURES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2014

                               __________

                           Serial No. 113-164

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-316 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 9, 2014.................................     1

                               WITNESSES

The Hon. Marilyn Tavenner, Administrator, Centers for Medicare 
  and Medicaid Services, Department of Health and Human Services
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Jonathan Gruber, Ph.D., Professor, Massachusetts Institute of 
  Technology
    Oral Statement...............................................    18
    Written Statement............................................    20
Mr. Ari Goldmann, Independent Consultant
    Oral Statement...............................................    22
    Written Statement............................................    24

                                APPENDIX

QHP Privacy and Security Certification Agreement.................   102
2012-12-06 Elmendorf-CBO to DEI - Cost estimate HR 4872 HR 3590..   113
AAF Midnights and Medicare.......................................   114
2014-10-30 WP Affordable Care Act Opponents Cherry-Picking Their 
  History........................................................   116

 
               EXAMINING OBAMACARE TRANSPARENCY FAILURES

                              ----------                              


                       Tuesday, December 9, 2014

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:32 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, McHenry, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Gosar, Meehan, 
DesJarlais, Gowdy, Farenthold, Lummis, Woodall, Massie, 
Collins, Meadows, Bentivolio, DeSantis, Cummings, Maloney, 
Norton, Tierney, Clay, Lynch, Cooper, Connolly, Speier, 
Cartwright, Kelly, Welch, and Lujan Grisham.
    Also Present: Representative Rice.
    Staff Present: Melissa Beaumont, Assistant Clerk; Molly 
Boyl, Deputy General Counsel and Parliamentarian; Lawrence J. 
Brady, Staff Director; Ashley H. Callen, Deputy Chief Counsel 
for Investigations; Caitlin Carroll, Press Secretary; Sharon 
Casey, Senior Assistant Clerk; Steve Castor, General Counsel; 
John Cuaderes, Deputy Staff Director; Howard A. Denis, Senior 
Counsel; Adam P. Fromm, Director of Member Services and Member 
Operations; Linda Good, Chief Clerk; Elizabeth Gorman, 
Professional Staff Member; Meinan Goto, Professional Staff 
Member; Frederick Hill, Deputy Staff Director for 
Communications and Strategy; Christopher Hixon, Chief Counsel 
for Oversight; Emily Martin, Counsel; Laura L. Rush, Deputy 
Chief Clerk; Jessica Seale, Digital Director; Andrew Shult, 
Deputy Digital Director; Matthew Tallmer, Investigator; Rebecca 
Watkins, Communications Director; Tamara Alexander, Minority 
Counsel; Meghan Berroya, Minority Chief Investigative Counsel; 
Aryele Bradford, Minority Press Secretary; Jennifer Hoffman, 
Minority Communications Director; Una Lee, Minority Counsel; 
Juan McCullum, Minority Clerk; Dave Rapallo, Minority Staff 
Director; Cecelia Thomas, Minority Counsel; Michael Wilkins, 
Minority Staff Assistant.
    Chairman Issa. The committee will come to order.
    Without objection, the chair will be authorized to declare 
a recess at any time.
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent. And, second, 
Americans deserve an efficient, effective Government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold Government accountable to taxpayers because taxpayers have 
a right to know what they get from their Government.
    It is our job to work tirelessly in partnership with 
citizen watchdogs to deliver the facts to the American people 
and bring genuine reform to the Federal bureaucracy. This is 
and has been our mission for 4 years that I have been honored 
to serve.
    Ms. Tavenner, before I begin with my opening statement, I 
want to make you aware, in hopes that your people will deliver 
documents pursuant to a subpoena that expired--or didn't 
expire--that was due 8 days ago related to the documents behind 
your coming before this committee and giving false and 
misleading testimony related to the so-called 7.3 million 
enrollment figure.
    We asked for and we received only half of the documents, 
and the documents that were excluded were the ones that created 
the talking points and the people who caused you to use 
inarticulate language that carefully allowed you to say 7.3 
million without disclosing that that included at least 400,000 
dental plans. That was subpoenaed. It was clearly understood.
    Last night we received a huge data dump, and it was not in 
there. And it makes it very difficult for us to go forward with 
some aspects of today's hearing, as you can imagine. It is 
clear that this hearing in no small part was not because of 
what Obamacare is about, not about the health care. It is about 
honesty and transparency to the American people.
    Today's hearing is likely the last full committee hearing 
of this Congress. This committee has a primary obligation--and 
has lived up to that obligation--to look at Government to make 
Government more transparent and accountable.
    And, at times, Members on both sides of the dais have 
helped in trying to create that transparency, but no Government 
program needs increased transparency and accountability and 
honesty more than the Affordable Care Act, known as Obamacare. 
It has proven time and time again to, in fact, have made false 
claims.
    Every Member on both sides of the dais can agree that the 
Affordable Care Act, or Obamacare, is a large, expensive 
program reliant on a complex network of Government programs 
which significantly impact the lives of all Americans and, yet, 
the history of design passage and implementation with the law 
is fraught with half-truths and deceptions.
    Here are just a few of the false claims the administration 
has made regarding Obamacare: If you like your doctor, you will 
be able to keep your doctor, period. Nothing in Obamacare 
forces people out of their health plans. No change is required 
unless insurance companies change existing plans. Healthcare 
inflation has gone down every year since the law--Affordable 
Care Act--has been passed and that it now has the lowest 
increases in healthcare costs in 50 years. To that, we add we 
have got close to 7 million Americans who have access to health 
care for the first time because of Medicaid expansion. If you 
like your plan, you can keep your plan.
    When trying to pass Affordable Care, Obamacare, the 
administration repeatedly claimed that the law's individual 
mandate was not a tax. However, months after passage, in a 
brief defending the mandate's constitutionality, the Justice 
Department argued just the opposite, that it was a tax.
    One of our three witnesses this morning offered a simple 
answer to this change in position.
    [Video shown.]
    Chairman Issa. I wish it was right and we had made it all 
transparent.
    Professor Jonathan Gruber is considered by many as the 
architect of Obamacare. As a former Obama Administration 
official put it, ``Professor Gruber was the man on Obamacare, 
the guru of health care.'' The official went on to say, ``I 
remember that, when I was at the White House, he was certainly 
viewed as an important figure in helping to put Obamacare 
together.''
    No one can look at the amount of money he has--he was 
compensated for his work on Obamacare, totaling millions of 
dollars, and think that our witness was anything but a critical 
player in the Affordable Care Act.
    Current administration officials, however, have attempted 
to distance themselves from Professor Gruber ever since he 
stated and started telling the truth about the tactics used to 
pass this law. In fact, the Center for Medicare and Medicaid 
Services urged the committee not to seat him with the 
Administrator next to him.
    And, Dr. Gruber, we think you are right to be there. In 
fact, we believe that this is a perfect pairing, a pairing of 
individuals who are, in fact, responsible for what we know and 
don't know before, during and after the passage and 
implementation of the Affordable Care Act.
    September 18, 2014, the Administrator, Ms. Tavenner, came 
before us and testified that, in fact, there were 7.3 million 
people enrolled in the--and I quote this carefully--``health 
insurance marketplace coverage.''
    That tortured language had not previously been used and it 
followed a series of document requests after we were told, 
``Trust us. The numbers are good,'' in which we discovered 
that, in fact, 7.3 million would have to include a fairly large 
400,000 individuals in more or less $50-dental plans.
    Obviously, when you say you met a goal--and the difference 
between making a goal and not making a goal are plans that 
nobody would consider a key element of the Affordable Care Act. 
HHS initially failed to provide any documents to explain how 
the numbers had been interpreted.
    On October 1, 2014, the committee requested the enrollment 
data underlying Tavenner's 7.3 million enrollment announcement. 
Our requests were met with delays, runarounds that bordered on 
obstruction.
    After weeks of negotiation, CMS finally provided the 
enrollment data, printed on spreadsheets with--and for those 
who are at my age will appreciate this--6 point font, something 
that is not readable even with your reading glasses. When 
electronic copies were demanded and the data was finally 
delivered, Oversight investigators discovered that all of the 
hundreds of spreadsheets were, in fact, password-protected and 
locked.
    After further negotiation, we finally were able to receive 
the passwords and recognized that, all along, there had been an 
inherent deception. This was quickly discovered and would have 
been discovered by anybody simply by putting the spreadsheets 
in ascending order of dollars.
    On November 21, 2014, only after it was publicly noted, the 
committee discovered the administration was willing to 
acknowledge 393,000 dental plans in the figures released in 
September.
    Moreover, HHS included dental plans in its enrollment 
figures not just once, but twice. The Agency has included 
dental plans in its November enrollment figures and has now 
been forced to revise down to not greater than 6.7 million 
enrollees.
    The administration claims it made a mistake; however, there 
is great skepticism about that and, particularly, the term 
``mistake,'' when it appears as though, instead, HHS and CMS 
were too clever in an attempt to inflate the numbers and say 
they had met a goal.
    It is a small technical error in many ways whether you had 
7.3 million or 6.7 million if, in fact, it is simply a matter 
of whether you made a goal or didn't make a goal. But when you 
doctor the books, add additional numbers, and then use careful 
language so that you didn't lie, but you did deceive, that is 
exactly what we are concerned about here at this committee.
    The American people have a right to know the honest 
numbers. Management has an obligation to know it if they are, 
in fact, going to be accountable to the taxpayers for doing 
their job. And, in fact, the American people expect no less.
    Professor Gruber is often said in Washington to be the 
definition of a gaff. That is when somebody accidentally tells 
the truth. You made a series of troubling statements that were 
not only an insult to the American people, but revealed a 
pattern of intentional misleading the public about the true 
impact and nature of Obamacare, which is in many ways--in many 
ways you helped craft.
    Today we will have an opportunity to ask you to apologize 
for your low opinion of the American people and, hopefully, 
apologize for the false information on which the analysis of 
what the Affordable Care Act would do was built, leading to the 
disappointments we see here today.
    Chairman Issa. And, with that, I would recognize the 
ranking member for an opening statement. He is not here.
    All Members will have 7 days to submit opening statements 
for the record.
    We now go to our----
    Mr. Cartwright. Mr. Chairman.
    Chairman Issa. --panel of witnesses.
    Ms. Marilyn Tavenner is the Administrator of Centers for 
Medicare and Medicaid Services at the Department of Human 
Services.
    And Mr. Jonathan Gruber is a professor at MIT--Mr. Massie 
would probably normally introduce him--the Massachusetts 
Institute of Technology.
    Pursuant to the committee rules, all witnesses will be 
sworn in before they testify.
    Mr. Cartwright. Mr. Chairman.
    Chairman Issa. Would you please both raise your right hands 
to--stand and raise your----
    Mr. Cartwright. Mr. Chairman.
    Chairman Issa. --right hand to take the oath.
    Just a moment. I am going to go through where I am, please.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    Please be seated.
    Let the record reflect the witnesses have answered in the 
affirmative.
    Please be seated.
    For what purpose does the gentleman seek recognition?
    Mr. Cartwright. Thank you, Mr. Chairman.
    At this time, Mr. Chairman, in the absence of the ranking 
member, may I ask that--we have a minority witness, Mr. Ari 
Goldmann, for whom we thank your indulgence, and we would ask, 
for convenience sake, since we have a small panel here, that 
Mr. Goldmann be added to the panel and be sworn in and testify 
at the same time.
    Chairman Issa. You know, I appreciate your suggestion. He 
is not a Government witness and not an expert in the--any of 
the facts being discovered today. So we will leave him on the 
second panel. But I thank you for your suggestion.
    Ms. Tavenner, you are recognized for 5 minutes for your 
opening statement.

                       WITNESS STATEMENTS

             STATEMENT OF THE HON. MARILYN TAVENNER

    Ms. Tavenner. Thank you, Mr. Chairman, Members of the 
committee.
    I appreciate the opportunity to appear here today and 
answer your questions about CMS's continuing work to provide 
affordable, high-quality health care to the Americans we serve.
    In my previous----
    Chairman Issa. Ma'am. Ma'am. I appreciate it, but if you 
would just pull the mic a little closer. Thank you. Sorry.
    Ms. Tavenner. In my previous appearance before your 
committee, I reported a number of Americans that were enrolled 
in marketplace coverage and had paid their premiums that 
included both medical and dental coverage. Simply put, this was 
a mistake.
    Some individuals with both medical and dental coverage were 
counted twice in the individual affected enrollment numbers. 
Moving forward, only individuals with medical coverage will be 
included in our individual effected enrollment numbers.
    We are now providing weekly snapshots of the 2015 
marketplace data, including the number of consumers who have 
submitted an application, contacted the call center, or visited 
the Web site.
    We have also created a new data office and have named our 
first chief data officer. This new office will help CMS 
strengthen its processes and, more broadly, will help CMS 
better harness and use our vast data resources to drive better 
care at a lower cost.
    While this mistake was regrettable, it should not obscure 
the fact that the Affordable Care Act is working. We have 6.7 
million Americans enrolled in healthcare coverage and paying 
their premiums as of October 15th, and the number of uninsured 
adult Americans is down 26 percent.
    Since the beginning of the open enrollment period, about 
9.1 million additional individuals have enrolled either in 
Medicaid or CHIP. For the first year of a new program, this is 
a tremendous accomplishment.
    2015 open enrollment is off to a solid start. Because of 
new choices and more competition in the health insurance 
marketplace, many consumers are now able to shop and find even 
more affordable options in the second year of the program.
    We have seen a 25 percent growth in the number of issuers 
participating in the marketplace, which means that more than 90 
percent of consumers will be able to choose from at least three 
or more issuers and over 60 percent of the marketplace 
enrollees are able to renew coverage at their middle level for 
less than $100 a month after tax credits.
    Those already covered should come back to the marketplace 
to review their options for next year. People may find an 
option that is either more affordable or better suits their 
needs.
    We have improved the consumer experience as well. The 
shopping and enrollment process is simpler, faster, and more 
intuitive for consumers. With the new streamlined application, 
for many consumers, we have reduced the number of screens from 
76 down to 16, with fewer clicks to navigate through the 
questions for most consumers.
    Consumer interest is strong. Since open enrollment began 
last month, there have been over 765,000 plan selections, 48 
percent of which are new consumers. Over 1.5 million 
applications have been submitted, and there have been more than 
5 million Web site visits.
    But the Affordable Care Act is not just about coverage. In 
recent years, we have seen historically low growth in overall 
healthcare spending. Just last week, CMS's Office of the 
Actuary released their 2013 health expenditure report, which at 
3.6 percent is the lowest reported growth in health 
expenditures since this report's inception in 1960.
    While the recent slow cost growth has multiple causes, 
reforms to the Medicare and Medicaid programs are meaningful 
contributors to these gains and are improving quality as well. 
For example, preliminary estimates indicate that hospital-
acquired infections by 17 percent from 2010 to 2013, resulting 
in 50,000 fewer admissions and over $12 billion in cost 
savings.
    I am proud of our progress at CMS. I am proud of our team. 
They work hard every day to ensure better, safer, and more 
affordable health care.
    Thank you. And I look forward to your questions.
    [Prepared statement of Ms. Tavenner follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Issa. Thank you.
    Before we go on, I would recognize the ranking member for a 
unanimous consent request.
    Mr. Cummings. Mr. Chairman, one of our Members had 
requested that we have an additional witness to come on the 
panel, and I would ask unanimous consent that--ask the chairman 
to allow that to happen.
    Chairman Issa. Okay. Are there any objections?
    Mr. Meadows. I object. I object.
    Chairman Issa. Would you reserve for a moment?
    Mr. Meadows. Sure.
    Chairman Issa. Let me ask the witnesses.
    Ms. Tavenner, do you have any objections to having--I 
understand he is a waiter at a local restaurant who thoroughly 
loves Obamacare. He is actually an independent consultant. I 
apologize. They gave me a new title.
    Do you have an objection to Mr. Ari Goldmann, an 
independent consultant, being on the panel with you?
    Ms. Tavenner. I have no objection.
    Chairman Issa. That is good. He likes your stuff.
    Mr. Gruber, do you have a problem with an independent 
consultant being on the panel?
    Mr. Gruber. No, I do not.
    Chairman Issa. Then, I have no objections.
    Does the gentleman continue to reserve?
    Mr. Meadows. I withdraw my objection.
    Chairman Issa. Okay. Hearing no objections, while they seat 
Mr. Goldmann, I would ask the ranking member, since he was 
unavoidably detained, to do his opening statement.
    And then we will go to you, Mr. Gruber.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Before I begin, I know today is your last hearing as 
chairman of the Oversight Committee, and I want to thank you. 
As you said a few moments ago, we have taken this journey 
together, and it has been a great journey.
    I said during your hanging of your portrait right there----
    Chairman Issa. Thank you for saying that I was hung.
    Mr. Cummings. --that I believe that everybody who comes 
along your path comes along your path to make you better. And I 
will tell you, Mr. Chairman, you have made me a better person 
in so many, many ways.
    And I want to thank you. I want to thank you for your 
service. I want to thank you for your dedication. I want to 
thank you for taking the time to get to understand these issues 
in a very, very intricate way.
    And a lot of people have not been in the many meetings that 
we have sat in where you--I don't know how you do it, but you 
seem to be an expert on so many, many things. And I know it is 
because it is your passion. And so I want to--I thank you.
    In a way, I wish we had last week's hearing on the DATA Act 
today because it was such a positive note for bipartisanship 
and it showed what we can do when we work together.
    I also want to thank you for inviting our witness, Ari 
Goldmann, who is here to testify about his own personal 
experience obtaining health insurance after we passed the 
Affordable Care Act.
    I would like to welcome you, Mr. Goldmann.
    And so, Mr. Chairman, I know we may disagree today about 
the Affordable Care Act, but I hope we will do it in a 
respectful way based on substance and the evidence before the 
committee.
    In 2010, Democrats in Congress passed the landmark 
Affordable Care Act to give millions of people across the 
country health insurance. We banned insurance companies from 
discriminating against people with pre-existing conditions, we 
established significant new measures to hold down healthcare 
costs, and we provided extra assistance to those who needed it.
    Today, based on the evidence before us, the ACA is working. 
Millions of people are now covered through the exchanges and 
Medicaid expansion. And according to The New England Journal of 
Medicine, the rate of uninsured has dropped by over 4 
percentage points since last year. That is a 26 percent 
reduction in the ranks of the uninsured in just 1 year.
    The evidence also shows that the ACA is bending the cost 
curve. The growth of national healthcare spending decreased to 
3.6 percent last year. That is the lowest rate on record since 
the 1960s. In addition, reforms of healthcare delivery methods 
have saved $12 billion by reducing the number of hospital-
acquired conditions.
    Despite these clear benefits, Republicans have spent the 
last 4 years doing everything in their power to repeal the 
Affordable Care Act, dilute it, undermine it, and oppose it. 
This has become one of their chief political goals. They have 
taken 53 votes to repeal or weaken the law, and last year they 
shut down the Government for 16 days in a failed attempt to 
delay its implementation.
    In our committee today, we will hold our 29th hearing on 
the Affordable Care Act. That is a stunning number, more than 2 
dozen hearings. But not one, not one, has helped to implement 
the ACA more effectively or efficiently. It pains me to imagine 
the good we could have accomplished had we devoted that same 
amount of time and resources to more constructive efforts. And 
so I mourn what could have been.
    Unfortunately, this hearing is no different. As far as I 
can tell, we are here today to beat up on Jonathan Gruber for 
stupid, I mean, absolutely stupid, comments he made over the 
past few years and then drill and grill Administrator Tavenner 
about what appears to be an inadvertent mistake in reporting 
ACA enrollment numbers.
    This may be good political theater, but it will not help a 
single American get health insurance. It will not help a single 
person get well. It will not help a single person get the care 
that they need.
    Let me be clear. I am extremely frustrated with Dr. 
Gruber's statements. They were irresponsible, incredibly 
disrespectful, and did not reflect reality, and they were 
indeed insulting.
    I was in Congress when this law was debated. And Dr. Gruber 
does not speak for me or the chairman of the other committees 
who worked tirelessly on this bill.
    We debated this legislation for nearly a year before it was 
finally passed and signed by the President. We held 79 hearings 
and markups in the House of Representatives alone. Never once 
did I believe or did anyone suggest that we were somehow hiding 
our goals from the American people.
    But worst of all, Dr. Gruber's statements gave Republicans 
a public relations gift in their relentless political campaign 
to tear down the ACA and eliminate health care for millions of 
Americans.
    Many Republicans now allege some kind of Democratic 
conspiracy, citing the praise for Dr. Gruber's work from 
President Obama and other Democrats, but that, too, is 
completely wrong.
    Let me highlight some additional praise Dr. Gruber received 
for his work. Dr. Gruber received the following thanks for his 
contributions to healthcare legislation--and I quote: 
``Jonathan Gruber at MIT devoted hours and hours to an 
essential economic model.'' That statement was not from 
President Obama, but from the Republican nominee for President 
in 2012, Mitt Romney. He thanked Dr. Gruber personally at the 
signing ceremony for the Romneycare in Massachusetts in 2006.
    A day earlier Mitt Romney wrote an op-ed in The Wall Street 
Journal entitled ``Health Care for Everyone? We Found a Way.'' 
This is what he wrote--and I quote--``Jonathan Gruber of MIT 
built an economic metric model of the population and, with 
input from insurers, my in-house team crunched the numbers.''
    Governor Romney said this and said this, too, ``Because 
health insurance will now be affordable and subsidized, we 
insist that everyone purchase health insurance from one of our 
private insurance companies. And so all Massachusetts citizens 
would have health insurance. It is a goal Democrats and 
Republicans share, and it has been achieved by a bipartisan 
effort through market reforms.''
    And, as I close, this is exactly what the ACC was modeled 
on and was supposed to be, but Governor Romney was wrong about 
one thing: that goal was not shared by Republicans in 
Washington.
    For the last 4 years, House Republicans have been trying to 
repeal the ACA, but they never explain what they will replace 
it with, what they will replace it with. In a few weeks, 
Republicans will control both houses of Congress and they will 
be out of excuses.
    Governing responsibly does not mean eliminating essential 
healthcare protections for our constituents, all of our 
constituents, with no alternative. It means promoting the 
health and economic security of millions of Americans who 
desperately need help.
    And, with that, Mr. Chairman, I want to thank you for your 
courtesy. I want to thank you for your service to committee. 
And I yield back.
    Chairman Issa. I thank the gentleman.
    I would remind all Members that the committee's 
jurisdiction does not include any changes to the Affordable 
Care Act, other than those involving transparency and 
reporting, and that the committee's jurisdiction and its 29 
hearings have been related not to whether we like the 
Affordable Care Act or not, but, in fact, whether or not we are 
getting the transparency, the proper reporting required, for 
which this committee is known.
    With that, I would have to ask Mr. Goldmann to please rise 
to also take the oath. And raise your right hand, please.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth? Please be seated.
    Let the record reflect that our third witness has answered 
in the affirmative.
    Dr. Gruber, it is now your turn. Thank you.

              STATEMENT OF JONATHAN GRUBER, Ph.D.

    Mr. Gruber. Chairman Issa, Ranking Member Cummings, and 
distinguished Members of the committee, thank you for the 
opportunity to testify voluntarily today. I am pleased to be 
able to address some statements I have made regarding the 
Affordable Care Act and the reaction to and interpretations of 
those statements.
    I am a professor of economics at MIT. I am not a politician 
nor political advisor. Over the past decade, I have used an 
economic micro-simulation model to help a number of States and 
the Federal Government assess the impact of healthcare reform 
on healthcare systems, Government budgets, and overall 
economies.
    I have had the privilege of working for both Democratic and 
Republican administrations on healthcare reform efforts. I have 
worked extensively with Governor Romney's Administration and 
the Massachusetts legislature to model the impact of Governor 
Romney's landmark health reform legislation.
    I later served as a technical consultant to the U.S. 
Department of Health and Human Services and provided similar 
support to both the administration and to Congress through 
economic micro-simulation modeling of the Affordable Care Act.
    I did not draft Governor Romney's health plan, and I was 
not the architect of President Obama's healthcare plan.
    After the passage of the ACA, I made a series of speeches 
endeavoring to explain the law's implications for the U.S. 
healthcare system from the perspective of a trained economist.
    Over the past few weeks, a number of videos have emerged 
from these appearances. In excerpts of these videos, I am shown 
making a series of glib, thoughtless, and sometimes downright 
insulting comments.
    I apologized for the first of these videos earlier, but the 
ongoing attention paid to these videos has made me realize that 
a fuller accounting is necessary.
    I would like to begin by apologizing sincerely for the 
offending comments that I have made. In some cases, I made 
uninformed and glib comments about the political process behind 
healthcare reform. I am not an expert on politics, and my tone 
implied I was, which is wrong. In other cases, I simply made 
mean and insulting comments, which are uncalled for in any 
context.
    I sincerely apologize for conjecturing with a tone of 
expertise and for doing so in such a disparaging fashion. It is 
never appropriate to make oneself seem more important or 
smarter by demeaning others. I knew better. I know better. I am 
embarrassed. And I am sorry.
    In addition to apologizing for my unacceptable remarks, I 
would like to clarify some misconceptions about the content and 
context of my comments. Let me be very clear. I do not think 
that the Affordable Care Act was passed in a non-transparent 
fashion.
    The issues I raised in my comments, such as redistribution 
of risk through insurance market reform and the structure of 
the Cadillac tax, were roundly debated before the law was 
passed. Reasonable people can disagree about the merits of 
these policies, but it is completely clear that these issues 
were debated thoroughly during the drafting and passage of the 
ACA.
    I would also like to clarify some misperceptions about my 
January 2012 remarks concerning the availability of tax credits 
in States that did not set up their own health insurance 
exchanges. The portion of these remarks that has received so 
much attention lately omits a critical component of the context 
in which I was speaking.
    The point I believe I was making was about the possibility 
that the Federal Government, for whatever reason, might not 
create a Federal exchange. If that were to occur, and only in 
that context, then the only way that States could guarantee 
that their citizens would receive tax credits would be to set 
up their own exchange.
    I have a longstanding and well-documented belief that 
health reform legislation, in general, and the ACA, in 
particular, must include mechanisms for residents in all States 
to obtain tax credits.
    Indeed, my micro-simulation model for the ACA expressly 
modeled for the citizens of all States to be eligible for tax 
credits, whether served directly by a state exchange or by 
Federal exchange.
    I am not an elected official, nor am I a political advisor. 
I am an economist who ran a complex micro-simulation model to 
help Republican and Democratic politicians and their advisors 
understand the impact that their policies would have on 
healthcare systems.
    The recent response to my comments at academic and other 
conferences exceeds both their relevance and my role in 
healthcare reform. I behaved badly and I will have to live with 
that, but my own inexcusable arrogance is not a flaw in the 
Affordable Care Act.
    The ACA is a milestone accomplishment for our Nation that 
has already provided millions of Americans with health 
insurance. Our country's embarking on an exciting second open 
enrollment period that will provide new opportunities for these 
individuals and millions more to choose the insurance plan that 
works best for them.
    While I will continue to reflect on the causes of my own 
insensitivity, I hope that our country can move past the 
distraction of my misguided comments and focus on the enormous 
opportunities this law provides.
    Thank you.
    [Prepared statement of Mr. Gruber follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Issa. Thank you.
    Mr. Goldmann.

                   STATEMENT OF ARI GOLDMANN

    Mr. Goldmann. Thank you, Members, especially Chairman Issa 
and Ranking Member Cummings, for inviting me to share my story 
with you today.
    I am one of the millions of Americans who, thanks to the 
Affordable Care Act, have been able to pursue goals free from 
the financial and physical implications of staggeringly 
expensive health insurance or, in many cases, no coverage at 
all.
    These reforms have helped ensure that many Americans won't 
have to weigh the crippling debt or something as simple as 
nutritious food for their children against access to even the 
most basic health care.
    I hope that my words today serve as a reminder of why the 
ACA, though imperfect, has measurably improved the well-being 
of individuals and families across the country.
    I grew up outside of Boston and stayed in New England for 
college. My 20s were a decade of exploration and change. In 
that decade, I had the freedom to switch careers twice, 
experience love and heartbreak, and revel in excitement and 
opportunity. At the same time, I watched friends become 
burdened with unforeseen medical emergencies and forego access 
to preventive care.
    I am now 33 and have lived here in Washington, D.C., for 11 
years. I am healthy. I have low cholesterol. I get plenty of 
exercise. I am doing pretty well. When I turned 26, I decided 
to abandon a nascent career in non-profit fund-raising, and 
this decision was bolstered by the unbridled optimism of a 20-
something living in one of the most intellectually inspiring 
cities in the world.
    I didn't consider that, because I have two very common and 
very manageable pre-existing conditions, I would be forced to 
navigate an intimidating and unfriendly health insurance 
marketplace.
    As I formed a vision for my next career, I found great 
satisfaction in making a living working in the restaurant 
industry. Although I worked full-time then at a restaurant with 
more than 50 employees, I was not offered any benefits. 
Undeterred, I ventured out into the individual market and 
applied to several brand-name companies. And one after another, 
they turned me down.
    Ultimately, one company offered me a plan at about $450 a 
month, and, disheartened from the prior rejections, I enrolled, 
even though they refused to cover any prescriptions or office 
visits related to my pre-existing conditions. I conducted a 
basic cost-benefit analysis and decided that I would rather be 
underinsured than not insured at all.
    My 2 years with this insurer felt like an unending, morbid, 
exceedingly expensive joke. Claims were routinely rejected due 
to processing errors, usually with no explanation. Still, it 
was better than nothing. And then I received a notification 
that, as of January 2014, my plan would be discontinued.
    So I will admit that I wasn't looking forward to 
participating or to going forward in the process of enrolling 
through the D.C. healthcare exchange, as many other people can 
agree with, probably. But despite all the technical glitches 
and dead ends being reported by the media, I applied.
    I contacted a navigator at the Whitman-Walker clinic, who 
referred me to a broker, and he answered the many complex 
questions I had about each individual policy that I was 
considering.
    With his help and at no cost to me, it took just under an 
hour to sign up for a silver-level PPO plan. And in terms of 
premiums alone, this reduced my costs by 60 percent, which 
means I am saving over $200 each month, and I am able to keep 
all of the providers with whom I have built trusting 
relationships with over the years.
    All my pre-existing conditions are covered. And over the 
past year, I have had much lower day-to-day out-of-pocket costs 
to manage my conditions. I estimate that I have saved more than 
$5,000 in all, which, in addition to my part-time work as a 
waiter, has made my decision to pursue my career as an 
independent consultant more viable.
    And I believe--and isn't that really quintessentially 
American? I mean, thanks to the ACA, I am able to be 
entrepreneurial and take control over my own future instead of 
finding and staying at an undesirable job because I can't 
afford to sacrifice my employee-sponsored health insurance. I 
no longer feel marginalized. I no longer need to resort to 
exorbitantly expensive, yet woefully inadequate, coverage.
    And later this week--or--yeah--later this week, I have an 
appointment with a broker to look into my options for 2015, and 
I have the confidence that I will be able to shop for a plan 
without fear of rejection or exclusion for coverage. I can do 
the research to find a plan that will meet my needs.
    So, finally, when my old plan was canceled, I thought I was 
going to get similar coverage at the same cost and I didn't 
expect it to be as good as it was. The unexpected thrill, I 
felt, after I enrolled was not only because I am covered, but 
also because I am participating in a part of history.
    And at the end of day, I am an ordinary man with a pretty 
good education and from a healthy family. So if the 
Affordable--if the Affordable Care Act--excuse me--can help me, 
I believe it can help anyone.
    Thank you very much for your time.
    [Prepared statement of Mr. Goldmann follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Issa. Thank you.
    Mr. Goldmann, are you receiving a subsidy at all on that--
that silver plan you chose?
    Mr. Goldmann. No, I am not.
    Chairman Issa. Okay. Well--and I am glad you found part-
time work even though, in the past, you have found full-time 
work.
    Ms. Tavenner, you testified before the committee and you 
used the terminology ``enrolled in the healthcare insurance 
market coverage.''
    Is that the appropriate normal way you have always referred 
to enrollment numbers?
    Ms. Tavenner. I don't know that I have an appropriate. I 
have called it ``the marketplace.'' I have called it ``health 
insurance coverage.''
    Chairman Issa. Well, that language allowed you to claim 7.3 
million.
    Had you said ``enrolled in healthcare plans,'' you would 
have had to reduce that by at least 400,000. Isn't that true?
    Ms. Tavenner. I think, had I known that we had double-
counted the dental, I would have corrected that for the 
September hearing. As I said before, that was a mistake and----
    Chairman Issa. Well, no. I am not asking questions about 
the mistake.
    You gave what would be considered by anyone to be false and 
misleading testimony because you were given data that included 
400,000 dental plans.
    CMS had previously released separate numbers--actually, far 
greater numbers for dental at the time and health care, and, as 
those numbers went down, they got combined and the language got 
changed to ``enrolled in the health insurance marketplace 
coverage.''
    So the question is: Did you have anything to do with the 
use of that term? And were you aware--and it is a two-part 
question; each is a yes or no--were you aware that dental was 
included in your testimony?
    Ms. Tavenner. I was not aware that dental was included in 
my testimony.
    Chairman Issa. And were you in any way explained why the 
use of ``enrolled in the health insurance marketplace 
coverage'' was the term you read in your statement?
    Ms. Tavenner. No. But----
    Chairman Issa. Thank you.
    Mr. Gruber, I have been accused that I am going to berate 
you or something, and I hope that you won't feel that way when 
I get done.
    But the night before last I was at the Kennedy Center 
Honors, where they honored Tom Hanks, famously, Forrest Gump, 
the ultimate in successful stupid man.
    Are you stupid?
    Mr. Gruber. I don't think so. No.
    Chairman Issa. Does MIT employ stupid people?
    Mr. Gruber. Not to my knowledge.
    Chairman Issa. Okay. So you are a smart man who said some--
as the ranking member said, some really stupid things. And you 
said the same. Is that correct?
    Mr. Gruber. I--the comments I made were really inexcusable.
    Chairman Issa. Okay. And I will leave aside the political 
observations.
    But you did say in your--in the video we played--and 
everyone else has seen, I think, parts of it--you did say that, 
in fact, if people knew the whole truth, they wouldn't have 
voted for this, that, in fact, the direction you were going, 
the reality--and, specifically, I want to talk--because Mr. 
Goldmann's a poster child for this. He has a silver plan that 
is relatively inexpensive. If it was subsidized, it would be 
even cheaper.
    But the shifting of some people to pay more than they 
previously did--because, remember, health care went up in 
price. So for Mr. Goldmann to get a reduction, somebody else 
got not only an increase, but an increase to offset his 
decrease. That was what you were talking about.
    So isn't it true that, in fact, between the taxes and 
increases for some, that is part of the plan, to reduce for 
people like Mr. Goldmann?
    Mr. Gruber. The--first of all, I made a critical mistake in 
trying to conjecture with a tone of expertise----
    Chairman Issa. Yeah.
    But you are an expert on the analysis of the numbers and 
where the cost-shifting goes in your micro-economic analysis. 
And I am asking you as Dr. Gruber, a smart man, a smart man at 
a great institution that has collected over 400--or, actually, 
over $4 million in various fees and so on.
    Your analysis--isn't it true that, in order for Mr. 
Goldmann to get his reduction--and he is very happy about it--
that, in fact, it was cost-shifting, including those so-called 
Cadillac plans? Isn't that true?
    Mr. Gruber. The Affordable Care Act set up insurance 
exchanges which pooled risks for the healthy and the less 
healthy. On average, when you account for the tax credits 
individuals received, people are paying less for health 
insurance than they----
    Chairman Issa. I am a taxpayer, Mr. Gruber. Trust me, 
people are not paying less. People like me are paying more for 
those because taxes are, in fact, a cost that is paid.
    Total cost did not go down. Cost-shifting occurred in your 
model. Isn't that true?
    Mr. Gruber. The amount that individuals have to pay for 
health insurance, on average, fell in my model.
    Chairman Issa. Well, but it didn't fall in reality.
    Now, let me just ask one question. And this may be the 
tougher question for you. You said in these video comments 
that, essentially, you had to deceive in order to get this 
passed.
    Your models, the 4 million-plus dollars that you and MIT 
received, including hundreds of thousands of dollars 
personally, to develop and to provide those models, if 
deception was part of the process by your own statements, why 
should we believe your analysis? Why should we not demand to go 
into the micro-economic analysis and find out whether, in fact, 
the $4 million in services you delivered were accurate or 
whether the books were cooked?
    Mr. Gruber. First of all, the amount of money to which you 
refer has been greatly overstated. It refers to grants that 
were received by research institutions and others, which I 
received a small fraction.
    Second of all, no one has ever questioned the quality or 
integrity of the modeling. The fact I made----
    Chairman Issa. Mr. Gruber, I am questioning it in light of 
your statements, and that is why I am asking.
    Shouldn't we question or at least have independent analysis 
of the numbers you delivered before--actually, to 
Massachusetts, for that matter, too--but to the Federal 
Government based on your statements that, in fact, if people 
knew the truth, they wouldn't and that there was a deception in 
your own thing?
    And it is--all I want--I want to go to the ranking member.
    But is there any reason that you would not approve of the 
idea that there should be independent validation of the numbers 
you used in light of the statements that we have seen you made?
    Mr. Gruber. I think that the quality of my numbers should 
not be reflected by comments I made where I was conjecturing 
outside my area of expertise.
    At the same time, my modeling has always been very 
transparent. There's--I have posted information about my model, 
and I am happy for you to ask questions about the model-- 
answer questions about the model and how it works.
    Chairman Issa. Thank you.
    I hope that this committee and the next Congress will 
insist that there be an independent analysis of whether, in 
fact, that model would withstand the scrutiny of an audit.
    With that, I recognize the ranking member.
    Mr. Cummings. Well, thank you, Mr. Chairman.
    Dr. Gruber, as I mentioned in my opening statement, I was 
very frustrated when--with your statements, and I have got to 
tell you they were insulting. They were especially harmful 
because they gave the opponents of the ACA a PR gift. Man, you 
did--you did a great job. You wrapped it up with a bow.
    This has nothing to do with the substance of this issue. It 
is just something critics will link to the ACA in future 
debates.
    Now, I have to say I listened very carefully to your 
testimony because I wanted to hear exactly what you were going 
to say. A lot of times witnesses who come before the committee 
spin and avoid apologizing; so, you deserve some credit at 
least for taking this head on and taking responsibility for 
your actions.
    I know you believe in the ACA and you also worked with 
Governor Romney on his healthcare bill. Is that right?
    Mr. Gruber. Yes.
    Mr. Cummings. So my question is this: Sitting here today, 
what do you say to those people who are trying to eliminate the 
ACA and who are quoting your statements as a reason to repeal 
health care for millions of Americans and many of my 
constituents and people watching us right now on C-SPAN? Now, 
what do you say to them?
    Mr. Gruber. I would say that I made a series of inexcusable 
and offensive comments where I conjectured with a tone of 
expertise to try to make myself seem smarter by demeaning 
others and I apologize for that, but that my flaws as a private 
citizen, not a politician, not a political advisor--my flaws, 
as a private citizen, should not reflect on either the process 
by which the ACA was passed or the success of that law itself.
    Mr. Cummings. Now, Administrator Tavenner, you have been 
before our committee before. And I have complimented you on 
your efforts, and I do still believe that you are a great 
public servant.
    On November 20, HHS reported that it had overstated the 
numbers of enrollees by about 380,000. The chairman talked 
about that in his opening statement and he just asked you about 
it. This was because HHS included people with dental coverage, 
too, and essentially double-counted them.
    How could you--how could that happen? I mean, you knew 
everybody--they know everybody's got a microscope on the 
program. So I am just curious.
    Ms. Tavenner. So it is a great question.
    It was an inexcusable mistake. And I think, in looking at 
payments made instead of unique individuals, we counted 
individuals who had both medical and dental.
    I believe we have put processes in place to prevent that 
from happening again, but it should not have happened the first 
time.
    Mr. Cummings. But you understand that the mistake has the 
same effect as Dr. Gruber's statements. Same thing. It gives 
ACA opponents a PR gift that they can use on cable shows and 
elsewhere to attack the ACC, and it is an unforced political 
error.
    So now I have to ask you for the record--because 
everybody's going to ask you the same thing. You are under 
oath. And just tell me: Did you intend to deceive this 
committee or the American people when you provided those 
enrollment numbers? Was that your intention?
    Ms. Tavenner. I did not.
    Mr. Cummings. And do you have any reason to believe that 
anyone on your staff tried to deceive the American people or 
was this error inadvertent?
    Ms. Tavenner. I do not believe anyone tried to deceive the 
American people, and I believe the error was inadvertent.
    6.7 million is a very large number. We are pleased with 
that number. This was an inadvertent mistake, for which I 
apologize.
    Mr. Cummings. As a result of the--now, Mr. Goldmann, I want 
to thank you for being here today. And I am glad you are 
working, and I am glad you are pursuing your dreams. And that 
is a good thing.
    As a result of the ACA, it is a fact that insurance 
companies can no longer discriminate against people like you, 
deny you coverage or charge exorbitant rates because of your 
pre-existing conditions.
    How do you feel about that? And I think it is important for 
people to know what that means. You know, we hear a lot of 
times the negative stuff, particularly in this committee, but 
it is good to have somebody who has benefited from this. Can 
you tell us how that makes you feel.
    Mr. Goldmann. Right. I--this isn't something I had thought 
about before--all this, before I really left an employer that 
gave me benefits because it wasn't something I--I thought was 
an issue. And I think I took that for granted, and I think a 
lot of people take that for granted.
    The healthcare coverage I had growing up and as a young 
adult in my 20s was great. And then, when I decided to pursue 
something different, something of my own making, something very 
typically American, and I no longer had coverage, I--it came as 
a shock.
    So to suddenly have that inability to have my own little 
pre-existing conditions that many people have not be covered 
was--was a very strange and unusual feeling to me, and it was 
not a good one.
    So--so to be able to enroll through the ACA and to still 
pay my part, but to know that I am not being discriminated 
against based on something that millions of Americans have--it 
doesn't matter what they are particularly--it was a relief.
    And I didn't realize how much of a relief it would be until 
I actually got enrolled with a good healthcare provider as 
opposed to someone--or a provider that provided inadequate 
benefits.
    Mr. Cummings. This is the last question: What was wrong 
with your insurance before you got this insurance here? You had 
previous insurance. Is that right? Did you have----
    Mr. Goldmann. Yes. My preceding insurance.
    Mr. Cummings. Yes.
    Mr. Goldmann. Yes. Well, the premiums were almost twice as 
high, which in itself, it is a--you know, it is a supply-demand 
issue, I assume. I am not an economist, unfortunately, 
although, I can make guesses.
    But I will say that the coverage I had, despite--regardless 
of how much I was paying on a monthly premium, was insultingly 
inadequate and not just because of what it wouldn't cover, but 
because of how difficult it was to process claims and how 
difficult it was to get any sort of response from the company 
itself.
    So, yes, prescriptions and doc--office visits related to my 
pre-existing conditions were uncovered, and that required a lot 
of out-of-pocket benefits. But, also, even the stuff that was 
covered was very difficult to get reimbursed for.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    And with the ranking member's indulgence, Ms. Tavenner, I 
failed to only ask one thing. Can your staff provide any of the 
information related to those--the preparation of those talking 
points that was in the subpoena? That was part of what was 
asked for and not delivered.
    Ms. Tavenner. So we will--I know that we supplied some 
information to you late yesterday evening. I will go back and 
work with the staff to see what else we can get you. We are 
trying to work with you.
    Chairman Issa. Well, the discovery asked for information 
related to the false statement that was made by you, certainly 
inadvertently. You have called it a mistake.
    But we asked for the creation of it so we could see who 
created it, who put the numbers together. You know, it took a 
staffer 20 minutes to find the error once we got the passwords 
to unlock this. It wasn't hard to find.
    So the question is--and I will be brief--can you ask your 
people, to the extent that it has already been pulled--and we 
believe, if we issue a subpoena, it has already been pulled. 
Our people worked with your people. They knew this is what we 
wanted--could we have it?
    Because we have people on both sides of the dais who don't 
have those facts at what would be the last hearing of this 
year. So I appreciate that you want to get it to us in the 
future.
    But it is crippling to a great extent to have a hearing in 
which the main subject of the hearing, which is, how did we get 
misled and who was involved in the process of creating those 
talking points--we don't have it.
    So the question is: Can you instruct your people, to the 
extent that there has been any pulling of those documents, to 
get it over to us so that people down the dais can ask those 
questions? I know Mr. Gowdy likes working off of facts, not 
fiction.
    Ms. Tavenner. Yes, sir. We will work with you.
    Chairman Issa. Thank you.
    Mr. Cummings. Mr. Chairman.
    Chairman Issa. Yes. Mr. Cummings.
    Mr. Cummings. Just 30 seconds.
    Mr. Chairman, one thing I failed to say--I wanted to--when 
I was complimenting you earlier----
    Chairman Issa. You are not taking any of that back, are 
you?
    Mr. Cummings. Oh, no, no, no, no.
    I wanted to take a moment, Mr. Chairman, to express my deep 
appreciation and respect for your staff and for my staff.
    I know a lot of people will be moving on to new jobs, but 
these are folks that work night and day trying to present the 
very best that they can to this committee and to the American 
people, and I want to take a moment to thank them for all that 
they have done. This is a key time in American history. And I 
appreciate it. Thank you.
    Chairman Issa. Well, thank you.
    And because of your wise comments, I am going to pile on 
just in one sense, Mr. Cummings.
    We do have the best staffs on the Hill. They do countless 
thousands of hours of deposition and transcribed interviews. 
They pore over more documents than any other committee of the 
Congress, and they are able to qualitatively search for and 
find in IG reports, in Freedom of Information reports, and, 
obviously, in working with whistleblowers, things that no other 
committee can find.
    And I think that that is a genuine statement for both 
sides. There is no better set of committee staff than what we--
we are honored to have. And I thank you for bringing that up.
    We now go to the gentleman from Ohio, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Gruber, you have said that your statements were 
inexcusable and insulting. I certainly understand, when someone 
gets caught saying something as inflammatory as what you have 
said, how you might want to recant it.
    However, some of the things you said were substantive-
based, and although they may be inexcusable and insulting in 
that they were said, in the end, they may be true. And I want 
to walk you through some of the statements that you made that 
were substantive in nature rather than the statements that you 
made about the American voter.
    Now, you said that you did complex micro-simulation 
modeling. It sounds like a relatively basic model to me. You 
take from one and give to another. It is a basic equation of 
wealth redistribution, and that is called a tax. And you have 
made many statements about the Obamacare plan as being a tax, 
and I want to go through those.
    Now, I want to remind you this is not the casual 
conversation that you have had in the conferences where you 
have insulted the American voter. This is actually a hearing 
where you took an oath.
    You said, on March 16, 2011: The only way we could take it 
on was first by mislabeling it, calling it a tax on insurance 
plans rather than a tax on people, and we all know it is really 
a tax on people who hold those insurance plans. A tax.
    On January 18, you said: If you are a State and you don't 
set up an exchange, that means your citizens don't get the tax 
credits, but your citizens will pay the taxes that support the 
bill. A tax.
    October 30, 2012, you said: We just tax the insurance 
companies. They pass it on in higher prices that offset the tax 
breaks we get. It is very clear, you know. And that is when you 
went on and insulted the American voter as to the fact that 
they couldn't understand that basic equation.
    And then, on October 17, you said: This bill was written in 
a tortured way to make sure CBO did not score the mandate as 
taxes. If CBO scored the mandate as taxes, the bill dies.
    Now, I know, Mr. Gruber, that you believe that your 
statements were inexcusable and insulting, but they do appear 
to be true.
    You are not hear recanting today your statements with 
respect to the tax aspect of Obamacare, are you?
    Mr. Gruber. I am here to today to say that any conjectures 
I made about political processes----
    Mr. Turner. This is not a conjecture, Mr. Gruber. I mean, 
conjecture is, ``I believe it may have been,'' ``Someone may 
have been thinking,'' ``Perhaps they were,'' ``Perhaps it 
was.'' This is your straight-up statements. These are not 
conjecture.
    Is it your purpose today to recant Obamacare as a tax?
    Mr. Gruber. It is my purpose today to come forward and 
elaborate and straighten out the interpretation of a series of 
comments that I made and to apologize----
    Mr. Turner. Excellent. Let's do that, then. Let's clarify 
it.
    Mr. Gruber, you made these statements, did you not?
    Mr. Gruber. If--I don't recall exactly, but----
    Mr. Turner. You don't recall. Now, one of them we actually 
saw on video. Do you recall that one?
    Mr. Gruber. Yeah.
    Mr. Turner. Well, these statements--we'll enter them for 
the record--and I can't imagine how you don't recall your own 
statements, because the American voter has seen them over and 
over again as you've called them stupid. Do you deny making 
these statements, Mr. Gruber, even though you don't recall 
them? Do you deny calling Obamacare a tax?
    Mr. Gruber. If you're reading my actual quotes, then I 
don't deny it. I don't have----
    Mr. Turner. I am reading your actual quotes.
    Mr. Gruber. Then I don't deny it.
    Mr. Turner. Okay. So you're not here to recant it or to 
deny it.
    Mr. Gruber. I am here to explain that a number of those 
comments were made in a tone of expertise that I don't have 
when I was talking about political----
    Mr. Turner. Mr. Gruber, do you know what tax is? I mean, 
you do have, you now, expertise in economics. Do you know what 
a tax is?
    Mr. Gruber. Yes.
    Mr. Turner. Okay. So you would not deny today that in these 
statements that you made that Obamacare is a tax, would you?
    Mr. Gruber. Obamacare is a large piece of legislation with 
many parts.
    Mr. Turner. And one of those parts a tax, Mr. Gruber.
    Mr. Gruber. There are some taxes in Obamacare, yes.
    Mr. Turner. Well, the President, as you know, argued that 
Obamacare was not a tax until it went before the U.S. Supreme 
Court as to whether or not Obamacare was a tax. And then the 
administration argued that it is a tax in order to be able to 
save it from being declared unconstitutional.
    So I would assume that you agree with the U.S. Supreme 
Court that Obamacare provisions include taxes. Right?
    Mr. Gruber. The U.S. Supreme Court ruled on a particular 
provision of Obamacare----
    Mr. Turner. You do not disagree with them, do you?
    Mr. Gruber. I'm sorry?
    Mr. Turner. I said, you don't disagree with them that there 
are elements of Obamacare that constitute a tax.
    Mr. Gruber. I don't agree with their conclusion about the 
mandate.
    Mr. Turner. Excellent. Interesting. Different than what you 
said at these hearings.
    But now I have a question for you that I'd like you to 
think back. You said, I mean, this bill was written in a 
tortured way to make sure CBO did not score the individual 
mandate as taxes.
    Did you ever speak to anyone in the administration who 
acknowledged that to you or that explained that to you or who 
assigned a problem with you with a construct of that we have to 
draft this in a tortured way so that we make sure CBO did not 
score the individual mandate as taxes. And you are under oath, 
Mr. Gruber. Did anybody in the administration have that 
conversation with you?
    Mr. Gruber. That was an inexcusable term used by----
    Mr. Turner. I'm not asking you about how you believe that--
whether or not you should have said that or not. It's a factual 
statement you're making. Did anybody in the administration ever 
have that conversation with you?
    Mr. Gruber. I do not recall anyone using the word 
``tortured,'' no.
    Mr. Turner. Did they have the conversation with you that it 
had to be drafted in a way that the CBO did not score the 
individual mandate as taxes? Anyone in the administration 
acknowledge it, explain it, or assign aspects to you within 
that construct.
    Mr. Gruber. I don't know.
    Mr. Turner. You are under oath.
    Mr. Gruber. I honestly do not recall.
    Mr. Turner. Mr. Chairman, thank you.
    Chairman Issa. Thank you.
    We now go to the gentlelady from New York, Ms. Maloney.
    Mrs. Maloney. Thank you. Thank you. I want to remind my 
colleagues that passage of the Affordable Care Act was, in 
fact, an open and extremely transparent process. We had here in 
the House over 79 hearings, almost 100 hours of hearings.
    And, prior to the Affordable Care Act, we have to remember 
that there were roughly 48 million Americans, including 2.6 
million New Yorkers, who were uninsured. And there is even more 
good news coming out of New York where insurance rates for 
individuals are more than 50 percent lower than they were 
before the State's marketplace plan began.
    And I want to say that there have been many reports that 
have said that the ACC contributed to the slow growth rates in 
national health expenditures over the past few years. The 
recent report from the National Health Expenditure Report 
showed that spending grew by just 3.6 percent in 2013, and that 
was the lowest rate of growth since 1960.
    So that is all good news for the American people.
    Dr. Gruber, I'd like to ask you, do you support the 
Affordable Healthcare Plan? Do you believe that it is sound 
public policy that helps people?
    Mr. Gruber. Yes, I do.
    Mrs. Maloney. And, Administrator Tavenner, I represent a 
large number of hospitals. And I understand that, because of 
the Affordable Care Act, hospitals are projected to save $5.7 
billion in uncompensated care costs this year alone.
    How has the ACA helped to save hospitals money and 
incentivize effective patient care?
    Ms. Tavenner. I think the ACA has worked in a couple ways. 
Obviously, to increase the number of uninsured helps hospitals 
from the standpoint of their bad debt and other--particularly 
in rural America, where they are very reliant on the number of 
insured and small-volume markets, particularly. So I think 
that's the first area.
    The second area is we've made a point of tying payment to 
quality. So, as you know, we are paying related to whether it 
is hospital-acquired conditions, readmissions. We're actually 
having hospitals report their quality instead of paying purely 
for volume or for procedure.
    So I think those are two of the ways that it's helped. And 
I think hospitals in general are reporting, particularly on the 
for-profit side, better earnings as a result of some of these 
changes.
    Mrs. Maloney. Well, many people have commented on the fact 
that we have the lowest rate of growth in healthcare costs 
since 1960. Can you elaborate on how the ACA is slowing down 
these costs? How is that happening? What is contributing to it 
in the past few years?
    Ms. Tavenner. If you look at, going back to the hospital 
issue, we have certainly seen it in terms of number of 
admissions and readmissions to hospitals. The hospitals have--
growth rate has been flat almost to the point of being 
negative. On the outpatient side, we've seen it in some of the 
growth rates around physicians, physician visits. I think in 
almost every area, except pharmaceutical, we've seen a slowing 
in what has been the normal health expenditure rate.
    Mrs. Maloney. And could you comment on the Affordable Care 
Act's payment and delivery reforms and give an explanation? 
Many people attribute that as a factor in lowering costs.
    Ms. Tavenner. Yes. I think the biggest point that we have 
been able to do, starting first with hospitals and now we've 
expanded it to physician and other Part B settings, whether 
it's skilled nursing facilities or home health or otherwise, 
has been to move from a per-procedure or a volume-oriented 
payment to a payment that's tied to quality and outcome 
measures. I think that has been the biggest change.
    Mrs. Maloney. Are the Affordable Care Act reforms an 
important contributing factor in improvements that have been 
reported in adverse drug events, falls, other complications, as 
well as a fall of 8 percent in readmission rates for Medicare 
patients?
    Ms. Tavenner. Yes, it has been. Certainly, there is more 
work to do and we'll continue to do work through the Innovation 
Center and through the Medicare area and Medicaid as well.
    Mrs. Maloney. Do you believe that these reforms in Medicare 
to cut costs and improve quality are having a spill-over effect 
throughout the entire healthcare system? And, if so, how?
    Ms. Tavenner. Yes. In fact, we actually work closely with--
we try to align Medicare, Medicaid, and the private insurance 
market. And we work closely with issuers to make sure that 
physicians and hospitals are working from one set of quality 
criteria. So we are trying to work together.
    Mrs. Maloney. Well, I think this is all good news for the 
American consumer and for healthcare in our country.
    Ms. Tavenner. Thank you.
    Chairman Issa. With that, we go to the gentleman from 
Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. Thank you also for your 
service great job on this committee and it is a tough task.
    Ms. Tavenner, when we started all of this we had I 
thought--I heard between 44 and 45 million people that were 
uninsured. That was just a general figure I heard. Is that what 
you would estimate?
    Ms. Tavenner. I don't have that number in front of me.
    Mr. Mica. Well, okay. You should have the number, 
particularly in your position. But we'll just say 44. I'll take 
the lower number.
    Ms. Tavenner. All right.
    Mr. Mica. Now, you came and you gave us some statistics 
last May: 7.3 million signed up. And then that was revised. And 
you apologized today for the error that you--at least you claim 
it. That's 6.9 million people, approximately.
    There are somewhere between 4 and 5 million people who had 
insurance before we had Obamacare that lost their insurance 
coverage. That's the estimate I have heard. Would you agree 
with that?
    Ms. Tavenner. I don't know that number.
    Mr. Mica. Okay. Well, again, I think you should because 
this is important.
    The whole thing is, how many people are we covering? If we 
have 44 million and you had 4 or 5 million people that were 
insured--I'm one of the people. I--one reason you probably 
don't have more admissions is my deductible is three times as 
much. My premiums have gone up. The premiums I would say for 
most Americans listening or participating have gone up. Unless 
you're involved in some other healthcare system, your premiums 
have gone up. We've seen an exception. I have family who have 
had preexisting condition, and actually, I have seen what they 
are doing; they are gaming the system. They get the service, 
and then they drop the care.
    So that's--that's also gone down. Gone down as far as 
admissions. One reason for less admissions and less spending.
    Dr. Gruber, you're one of the architects of this plan.
    Mr. Gruber. I was an economic----
    Mr. Mica. Modeling? You did the modeling? You were a 
contractor?
    Mr. Gruber. Yes.
    Mr. Mica. One of, I understand, about 60 contractors. What 
did you--what was your payment for your contract work with the 
HHS?
    Mr. Gruber. I was paid somewhat less than $400,000.
    Mr. Mica. $400,000.
    And I heard that was are a sole-source contract, too. Nice 
way to go. Was that a sole source?
    Mr. Gruber. I don't exactly know.
    Mr. Mica. Well, did you compete, or did you have--you got a 
sole-source contract, I'm told. Okay. I'll leave it at that. 
You got a sole-source contract, according to the information I 
have. Nice way to go.
    The other thing is then you went out to about the eight 
States. Did you have contracts with a number of States 
afterwards?
    Mr. Gruber. Yes, I worked with a number of States 
afterward.
    Mr. Mica. And I heard you got between 200,000 and 400,000 a 
pop from them.
    My estimate that I have been told by staff is you took down 
about $2.5 million in this.
    Mr. Gruber. The number----
    Mr. Mica. All the money from healthcare from your 
involvement, again, about eight States. Am I right?
    Mr. Gruber. I don't recall the exact number of States.
    Mr. Mica. You can't recall. Well, again, I think it would 
be helpful if you could supply the committee the amount of 
money, and I'm told it's over $2.5 million.
    You're just one of the vendors. Some of them had contracts 
for more than a billion dollars.
    But the whole thing gets back to people that we have that 
are still uninsured. We have, according to the documents I got, 
41 million people still don't have health care. Would you agree 
with that number?
    Ms. Tavenner. I don't know which document you're referring 
to.
    Mr. Mica. The latest--the document that we had presented to 
us says 41 million Americans still don't have health care. So 
we've covered somewhere between 3 and 4 million at billions of 
dollars of costs, raise most people's premiums.
    Ms. Tavenner. I think if you look at it, outside sources, 
they would tell you that the uninsured rate for adults has got 
down 26 percent.
    Mr. Mica. We have over 40 million people without health 
insurance. This isn't a success in my estimation. I'd like to 
get and divide the billions of dollars we've spent on this 
program, the consultants who took advantage of it and enriched 
themselves, and we still have 40-some million people.
    And we can address preexisting conditions, Mr. Goldmann, 
and, Ms. Tavenner, Dr. Gruber. We can also increase the age to 
26 for coverage, some of the things that were done--and 
positive things that I think needed to be done.
    But do we need the bureaucracy? Do we need the people who 
have fed off the public trough in billions of dollars?
    One of the contractors that I looked at in a previous 
hearing had gotten a contract for over a billion dollars, and 
people supposedly came to work on verifying information and 
never--never worked. So people were paid not to work.
    People were paid to help design the system and then 
profited and took the money away. To me, that's not a very good 
story.
    Yield back the balance.
    Chairman Issa. I thank the gentleman.
    Mr. Gruber, when you signed your Truth In Testimony form, 
you used--used an Exhibit B and you didn't use our form we 
provided. As a result, we don't have that revenue, which is--
the State revenue is essentially Federal revenue. We provided 
grants.
    So would you agree to supplement your Exhibit B so that we 
would have on your Truth In Testimony, your State revenue that 
would have also--you would have also received since ultimately 
it's Affordable-Care-Act related.
    Mr. Gruber. I'm sure my counsel will be happy to take that 
up with you.
    Chairman Issa. Actually, I was asking would you agree to 
provide it?
    Mr. Gruber. As I said, I'm sure that's something you can 
discuss with my counsel.
    Chairman Issa. So you're not agreeing to provide it.
    Mr. Gruber. I'm not agreeing or disagreeing; I'm saying 
that's something that I'm not expert on----
    Chairman Issa. Would you confer with your counsel, please? 
It's a requirement before you testify. And as we reviewed your 
Exhibit B, because you didn't use our form and go down it, we 
don't have all of your income. Since that's become a factor 
here, would you please--we'll take a moment. We'll take just a 
short break. Provide with your counsel to see whether you can 
affirmatively answer that.
    Mr. Gruber. My counsel has informed me that my disclosure 
is in compliance with the House Committee Rules. And if there's 
any additional questions, he'd be happy to answer them.
    Chairman Issa. Okay. We'll----
    Mr. Mica. Mr. Chairman, could I request, then, that the 
witness provide the committee with the amount of money received 
from the Federal Government and any other healthcare payments 
that he received since the beginning----
    Chairman Issa. Apologize. This is a technical rule of the 
committee, folks. The gentleman asked a question.
    Mr. Mica. It is a simple request. Can he provide us that?
    Mr. Gruber. Once again, I--the committee is welcome to work 
with my counsel on that.
    Mr. Jordan. Mr. Chairman?
    Chairman Issa. Mr. Jordan.
    Mr. Jordan. Why doesn't he just tell us? How much money did 
you get from the State taxpayers and the Federal taxpayers? 
He's under oath. Why doesn't he tell us how much he got paid by 
the taxpayers?
    Ms. Norton. Does he have the time?
    Mr. Jordan. We don't have to wait for him to send something 
to us. He should just be able to tell us, how much did the 
taxpayers pay him?
    Mr. Mica. Again, we have a witness under oath.
    Chairman Issa. Okay. I'm going to go on to other 
questioning, and we will see what we can get as a further 
determination.
    But it is--it is at this point, I am being advised, that 
this--this is not an accurate and full disclosure. So we do 
disagree with your counsel's interpretation.
    Mr. Cummings. Mr. Chairman.
    Chairman Issa. Mr. Cummings. Of course.
    Mr. Cummings. Just one thing. Maybe, Mr. Chairman, during 
the course of this hearing, you can confer with counsel at some 
point.
    Chairman Issa. That's what I want to do. I want to go on 
with the hearing, and we'll try to do this behind the scenes. 
Because I don't want to delay the hearing for what has proven 
to be--and, Mr. Mica, I will seek additional time for you if we 
can get the information.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Ms. Norton is recognized for 5 minutes.
    Ms. Norton. I want to thank you, Mr. Chairman, again, for 
your friendship, for your service, and for the respect you have 
shown for the American citizens who live in the District of 
Columbia who demand to be treated as free and equal Americans, 
and you have always done that. Appreciate your work on this 
committee, very difficult committee, and I sympathize.
    Dr. Gruber, I accept your apology. I'm not going to 
question you further. Your statements invite acts of 
demagoguery. You will hear enough of those. I decline to 
participate.
    Ms. Tavenner, the $400,000 difference, $400,000 difference, 
is trumpeted as if it were words hiding those smaller amounts 
when the Affordable Healthcare Act greatly exceeded our 
expectations in the numbers that would sign up.
    So all I can say is if the administration was going to 
fudge it, I certainly hope they would not have been so 
amateurish. And I think the American people will understand how 
one could confuse people who signed up for dental care as 
you're just looking at people who signed up and people who 
signed up, period. Because those were not the distinctions we 
were looking for at the time.
    Mr. Goldmann, you are a constituent of mine. I appreciate 
that you stepped forward. I do want to say to you the chairman 
said something about cost-sharing in his preface to questioning 
you. But you had testified that you were not being subsidized.
    Mr. Goldmann. That's correct.
    Ms. Norton. If that is the case, you are like millions of 
other young people who got lower-cost insurance simply because 
you are young and not because any costs were shifted to you. 
That is the very nature of insurance.
    Now, I would like to ask, I note, Ms. Tavenner, that this 
hearing is taking place when we are early in the new enrollment 
system--enrollment period, I'm sorry-- and I thank you for 
coming at such a busy time.
    You had a deputy, the principal deputy administrator--I'm 
sorry--not your deputy, but the principal deputy administrator 
is quoted as saying, ``The vast majority of shoppers had a 
positive experience with healthcare.gov.''
    Is that your understanding? If so, that needs to be out 
here, given the faux pas of the first few months.
    Ms. Tavenner. Yes, ma'am. Our second enrollment period has 
been much smoother, obviously. But we have been able to talk 
with some consumers. We have also been able to meet weekly with 
issuers to ask them what they are seeing from a consumer 
perspective as well. And so far, the enrollment process has 
been easy, by folks' terms. I'm sure it's not perfect. We still 
have room for improvements.
    Ms. Norton. So you are doing the kinds of customer--that 
you can quantify, customer experience that you can quantify as 
to what the experience has been so you will be able to say that 
at the end of this period.
    Ms. Tavenner. We are. It's a little early, because, 
obviously, we are just 3 weeks in. But we are doing surveys, 
both through the call center and surveys through 
healthcare.gov----
    Ms. Norton. That will be very important because you had 
such a poor start.
    Ms. Tavenner. We will share that information.
    Ms. Norton. Now, I understand that you can now handle 
quarter of a million concurrent users. Is that the case?
    Ms. Tavenner. Yes. In our testing, we--that is what we 
aspire to, and we were able to do end-to-end testing to handle 
that type of volume, yes.
    Ms. Norton. I have some numbers here that open enrollment 
in 2014, more than 1.5 billion Americans submitted applications 
for coverage. And that 765,135 individuals selected a plan.
    How does that compare, if you have any figures, with the 
first few weeks of open enrollment in 2013?
    Ms. Tavenner. Well, as you might remember, in the first few 
weeks, we were dealing with a Web site that was far from ideal, 
so our numbers were very low.
    We are pleased with the numbers in the first 3 weeks. But I 
think we know by 1 year's experience, that individuals will 
wait until deadlines to sign up. So we are looking for----
    Ms. Norton. And what is that deadline, Ms. Tavenner?
    Ms. Tavenner. The first deadline is December 15. So this 
coming weekend we think we will be high volume. And then, 
again, February 15 when open enrollment closes for 2015.
    Ms. Norton. I would like, in light of how easy it is to 
make--to make errors, that you will then be called on, in 
September, you testified before this committee and you pledged 
to address at that time 22 technical recommendations that the 
GAO had made to improve of the security of the Web site, and 
that is always a concern.
    Were these 22 recommendations addressed before the 
beginning of open enrollment this year?
    Ms. Tavenner. Yes, they were. We completed our work on all 
22 of those recommendations. And then there were six other 
categories that we have completed the work in that area. 
Probably the only thing that is not totally complete is the 
operating agreement with the--with OPM and with the Peace 
Corps. We have a contractual agreement, but we were going 
through a full contracting process, and that's underway
    Chairman Issa. I think the gentlelady's time has expired. 
We now go to Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    The ranking member said that these are just mistakes; they 
are just unforced errors. I think the American people would say 
something completely different. I would say, no, these aren't 
mistakes, unforced errors. This is intentional deception, and 
it's nothing new. ``If you like your plan, you can keep your 
plan.'' ``If you like your doctor, you can keep your Doctor.'' 
``Premiums are going to go down.'' ``Premiums are going to go 
down $2,500 on average.'' ``The Web site will work.'' ``The Web 
site's secured.'' CMS, Ms. Tavenner, tells us they have 
7.3million enrollees; they forgot to count 400,000 dental plans 
in that number.
    And then we get to Mr. Gruber. Mr. Gruber testified before 
Congress about Obamacare and didn't disclose that he was being 
paid by the Obama administration. That's deception at its 
highest form. And then, of course, we have the videos, the now 
famous videos where Mr. Gruber used taxpayer dollars to deceive 
taxpayers. And then when Obamacare became law, he made fun of 
them and insulted them.
    By the way, Mr. Gruber, back to the question we had a 
little discussion on earlier: How much were you paid, you and 
your institution, by the Federal taxpayer and by the State 
taxpayer, regarding your lectures on Obamacare?
    Mr. Gruber. I have disclosed for the committee. As I 
understand, my counsel, I'm required Federal payments----
    Mr. Jordan. I'm not asking what you disclosed. I'm asking 
you a question. Give me a dollar amount. How much were you 
paid? The American taxpayer would like to know how much they 
paid you to deceive them and then got made fun of by the very 
dollars that they paid you to make fun of. They'd like to know 
that. So how much were you paid?
    Mr. Gruber. As I said, the committee can take that up with 
my counsel.
    Mr. Jordan. So you're not going to answer the question. 
You're under oath. We're asking you a simple question. You come 
to the committee; we ask a question; you're supposed to answer 
the question. How much were you paid by the Federal taxpayer 
and the State taxpayer?
    Mr. Gruber. As I said, the committee can take that up with 
my counsel. Would be happy to provide whatever----
    Mr. Jordan. All right. I've got one other question.
    Chairman Issa. Would the gentleman suspend for a moment?
    Mr. Jordan. If you keep my time on.
    Chairman Issa. Yes. I want to advise everyone that counsel 
had said that they are not available to clear up the errors and 
omissions in the gentleman's truth filing. It does require--our 
form does require grants, contracts. In other words, we cover 
all revenue. We only received about $100,000, which is far less 
than the gentleman's testimony, in disclosures, which were 
three grants. As a result, the gentleman's disclosure is not 
complete.
    So I would admonish the--Dr. Gruber, your choice really is 
answer questions fully here and then supplement, or we will 
seek to bring you back with the full disclosure in order to get 
all the other numbers. It's really your choice. Your counsel 
can advise you, but we find your--by your own testimony, we 
find your submission deficient.
    And your counsel is ill advised to say that it is 
sufficient because it only includes grants and you have 
contracts. You have admitted under oath that you have 
contracts.
    So those are not listed. And you are deficient. Again, I 
want to--this is our last hearing if I don't have to recess and 
come back again. I would like to not have to recess and come 
back again. So, please, do not make this drag on longer. If you 
can give answers to your best recollection and we will accept 
an amendment, if that is the case, an addendum at a later date.
    But the gentleman is entitled to have all questions, to the 
best of your knowledge, answered. You took an oath saying you 
would tell the truth, the whole truth, not the truth and only 
what your counsel says is going to be discussed. It is all 
questions, all answers.
    And if Mr. Cummings were sitting in this chair or anyone 
else, we could expect no less.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I think his counsel is talking 
to him. Why don't we give him a second?
    Mr. Lynch. Mr. Chairman, just on that question, I have a 
PolitiFact document here, and they have a fact-checker thing 
that has, you know, all kinds of numbers. They went into this 
in depth as to what the gentleman was paid. And I was wondering 
if we just enter this in as part of the record.
    Chairman Issa. We will certainly be happy to enter in, 
without objection.
    Mr. Lynch. I thank you.
    Chairman Issa. The gentleman from Ohio may continue. I ask 
unanimous consent he have additional 30 seconds.
    Without objection.
    Mr. Jordan. I think I have a question on the table to Mr. 
Gruber; I'm waiting for his answer.
    Mr. Gruber. I was informed that I should report all Federal 
moneys received through grants or contracts for this fiscal 
year and the previous 2 fiscal year years. I did that. I was 
received no Federal contracts----
    Mr. Jordan. I don't care what you were informed, Mr. 
Gruber, I care about what I'm asking you. And what I'm asking 
you is, how much money did the taxpayers, State or Federal, pay 
you to have you then lie to them? That's what I want to know.
    Mr. Gruber. Over this fiscal year and the previous fiscal 
year----
    Mr. Jordan. No, no, no, no, no. Total. I mean, look, look, 
this has been a 5-year ordeal with this law. We want know to 
know how much you got from the taxpayer and then made fun of 
them after you got money and lied to them.
    Mr. Gruber. I don't recall the total.
    Mr. Jordan. We want that information as quick as we can.
    Let me switch gears.
    Mr. Gruber, in a strange way, I kind of appreciate what you 
said in the videos because it seems to me for the first time 
someone came clean and told the truth. You told people you were 
actually deceiving us. So here's my one question I want to get 
to.
    Politico reported that Steve Ratner called you ``the man'' 
when it came to Obamacare. The Washington Post said you were 
the key architect of Obamacare. The New York Times said the 
White House lent you to Capitol Hill to help Congress draft 
Obamacare.
    They say, Go on up there and help those poor folks on 
Capitol Hill get it right. You're the expert. Go up and help 
those Congressmen who don't know what they are doing.
    President said he had, ``stolen ideas from you to draft 
Obamacare.'' You visited the White House 21 times. You met with 
the President--your own words--you met with the President in 
the Oval Office.
    So I have one question. A few weeks ago, when the video 
surfaced, what was your reaction when the President of the 
United States said you were just some adviser? Remember, you're 
the man. You're the architect. Been to the White House 21 
times. You go to Capitol Hill to help those poor saps get it 
right. President stole from your ideas. You're the key guy. And 
yet when the videos surface, the President of the United States 
throws you under the bus and says you're just some random 
adviser. What was your reaction to that, Mr. Gruber?
    Mr. Gruber. My reaction was that my job was to be an 
adviser. And that's what I was.
    Mr. Jordan. Ms. Tavenner, you're currently enrolling people 
in the Federal exchanges. How many people have you enrolled 
thus far in this enrollment period?
    Ms. Tavenner. I don't have that number before me. But I can 
get you that number.
    Mr. Jordan. You don't have that number. Well, even if you 
did, we might believe it, based on past experience.
    So let me ask you this. Are you familiar with the lawsuit 
that--the court case King v. Burwell?
    Ms. Tavenner. I am familiar with the case.
    Mr. Jordan. Okay. If the ruling goes against and says what 
Mr. Gruber said in some of those videos, that, in fact, those 
States have not set up a State exchange can't give subsidies to 
their enrollees, have you been explaining to people signing up 
for Obamacare that, look, this all may change in a matter of 
months? Have you been letting them know that they might have to 
pay a lot more on their premiums, in fact have a tax liability 
they don't know that they have today?
    Ms. Tavenner. Congressman Jordan, nothing has changed for 
consumers. They can still come in, they should come in----
    Mr. Jordan. No. Are you telling people things may change? 
We've got a court case, pretty big case. Fundamental question: 
Are you telling them there might be a change?
    Ms. Tavenner. This is not a closed case. Pretty much plain 
language----
    Mr. Jordan. I didn't say that. I say it might be. Are you 
giving them a heads up that, in fact, things may change in a 
big way in a few months?
    Ms. Tavenner. I'm not going to speculate about the case.
    Mr. Jordan. I'm not asking you to speculate. I'm asking, 
are you telling enrollees that things may change in a few 
months?
    Ms. Tavenner. Nothing has changed for consumers, and I'm 
telling them to come in and enroll----
    Mr. Jordan. So they could get a shock and you're not 
preparing them for the fourfold increase in premiums and the 
tax liability they may have?
    Ms. Tavenner. I have told you, employers--consumers should 
come in, they should sign up, they should enroll----
    Mr. Jordan. Mr. Chairman, if I could.
    Ms. Tavenner, one last question.
    Chairman Issa. Quickly.
    Mr. Jordan. Do you think it's responsible to not tell the 
millions of enrollees who are in States that have not set up a 
State exchange, do you think it's at all responsible not to 
tell them that things may change dramatically and they'd have a 
tax liability and their premiums could increase as much as 
fourfold?
    Chairman Issa. The gentleman's time has expired. The 
gentlelady may answer.
    Ms. Tavenner. I'm sorry?
    Chairman Issa. You may answer. Time has expired; you may 
answer.
    Ms. Tavenner. Thank you.
    And I have told you this is not a closed case. And I am not 
going to speculate. The law is pretty clear.
    Chairman Issa. I will take that as a ``no,'' you are not 
telling them, because of the statements you just made relative 
to your opinion of the case. Is that right?
    Ms. Tavenner. I have said nothing has changed for 
consumers. They should sign up, come in and enroll.
    Ms. Norton. Mr. Chairman, you know, if you're going to get 
into the court case, no one can say that that would be 
retroactive.
    Chairman Issa. No, Eleanor. I'm not trying to get into it. 
The gentleman was entitled to a ``no, we're not telling 
people.'' And I wanted to make it clear that when she said why 
she wasn't telling them that she wasn't telling them. And I 
think she made that clear, as to why she decided not to inform 
them.
    Ms. Norton. I think that was a responsible thing to do. We 
don't know--in fact, I doubt that it would be retroactive.
    Chairman Issa. I thank the gentlelady.
    The time belongs to the gentleman from Massachusetts, Mr. 
Lynch.
    Mr. Lynch. Thank you.
    Chairman Issa. I'm sorry. Wait a second. I apologize.
    The gentlelady from Washington, D.C., has already gone. 
So--thank you. Mr. Lynch.
    Mr. Lynch. Is it Mr. Clay or Mr. Lynch?
    Chairman Issa. Mr. Clay was not noted. But if you'd like 
him to go first, I certainly would take him.
    Mr. Lynch. That's okay.
    Chairman Issa. He's a delightful gentleman who has been 
waiting to go first for a long time. He looks needy.
    Mr. Lynch. He's going to wait.
    Chairman Issa. Okay. The gentleman is recognized.
    Mr. Lynch. I appreciate that. Thank you.
    I want to thank the witnesses for attending.
    In my former life, I actually negotiated healthcare plans 
through collective bargaining. I was president of the 
ironworkers union, Mr. Gruber. And we're having a lot of 
problems in Massachusetts, in our home State, with some 
provisions of the Affordable Care Act, especially the so-called 
Cadillac tax.
    Now, you and I know that for a very long time, health 
care--until the Affordable Care Act, health care was not taxed. 
So when I sat down with good employers, good employers who 
cared about their employees, oftentimes they were more willing 
to give their employees an increase in their health benefits 
instead of putting it in their wages because wages were taxed 
to the payroll tax and health care was not.
    So, now, as a result of negotiating for 75 years on that 
basis, you've got a lot of the unions across this country that 
have built up multi-employer health benefit plans for health 
care for their employees.
    And because these employees have, instead of taking money 
in their wages, they've taken money in their benefit plans, 
we've got most of the healthcare plans these multi-employer 
union healthcare plans are subject to this Cadillac tax today, 
even though it doesn't come into effect until 2018.
    So now what I'm seeing is that employers are running away 
from their healthcare obligations because now they're going to 
be taxed a 40-percent tax on everything over and above the 
limits that have been established under the ACA.
    So I've got formerly good employers who now are saying, 
wait a minute, I'm going to get killed by this Cadillac tax. 
Number one, they are abandoning their responsibilities to these 
plans; they are trying to get out. They are trying to buy their 
way out. They are just reorganizing. They are--in some cases, 
they are cutting their companies in half so they can try to get 
below 50 employees so that they are not covered. And new 
companies are not coming into these multi-employer plans.
    So now I've got the unions, a lot of them who were in favor 
of this bill, now asking me to repeal it. Vote to repeal it. 
They are coming to me. And I am a union member. I am a former 
union president. And I've got these unions saying, repeal this 
thing.
    Fortunately for me, I voted against it, to begin with. I 
voted against the Affordable Care Act because, unlike some 
people, I actually sat down and read it. And it was--it was one 
of the most complex bills that I have ever read, and I had a 
full staff helping me with questions on that.
    So I think that this has presented a lot of problems for 
people who thought they were going to benefit from this plan. 
And how do I--how do I fix this?
    How do I fix this so that previously good employers who are 
trying to do the right thing by their employees will continue 
to do that?
    Because these construction workers, they don't work 52 
weeks a year. They get laid off in between jobs. They have bad 
weather, they get--they have broken time. So they needed this 
format to provide for their families to get health insurance. 
And now these good employers are running away from their 
healthcare obligations because they see this tax coming down 
the road in 2018, and a lot of them are refusing to re-up on 
their collective bargaining agreements. They are walking away.
    And how do we help these employees? Because now they are 
being told, go to the exchange. We don't do that anymore. We're 
out of the healthcare business.
    How do we help those folks?
    Mr. Gruber. Well, Congressman Lynch, I'm not an expert on 
collective bargaining agreements. And I can't----
    Mr. Lynch. I guess.
    Mr. Gruber. --comment further on that.
    What I can say is that the way the Cadillac tax was 
designed, there's no reason that these employers can't provide 
affordable and comprehensive insurance under the provisions of 
the Cadillac tax.
    Mr. Lynch. It's 40--for every dollar over the limit, they 
are paying $1.40.
    Mr. Gruber. Once again, given where the limit's set, 
there's no reason they can't provide affordable and 
comprehensive insurance to their employees under the Cadillac 
tax.
    Mr. Lynch. But wait a minute. They are competing with other 
employers on a bid. Just so you know how this works, if we are 
bidding on a construction project, and you have 49 employees 
and I have 150, my bid includes $13 an hour for health care. 
Your bill--your bid is zero. How do I win the bid if I am 
putting, for every man hour on that job, I'm putting $13 an 
hour on my bid and you are putting zero on yours, how do I win? 
I'm out of business.
    Mr. Gruber. There's been a longstanding problem----
    Mr. Lynch. You say I can afford it? How do I win that bid? 
If my bid, for every man-hour on that job, I have to put $13 an 
hour on my bid, and you can put zero and send your people to 
the exchange or you're not--you're not obligated to account for 
healthcare.
    Mr. Walberg. [Presiding.] The gentleman's time has expired.
    Mr. Gruber can answer.
    Mr. Gruber. There's been a longstanding problem of 
competition between employers that do and don't offer health 
insurance. The Affordable Care Act actually tries to address 
that through a free rider assessment on large employers that 
don't provide insurance and tries to level the playing field in 
that way.
    Mr. Lynch. Well, it doesn't do it. Thank you.
    Mr. Walberg. Thank the gentleman.
    Now I recognize gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank the chairman.
    Mr. Gruber, you also did some work for the Congressional 
Budget Office. Correct? The CBO?
    Mr. Gruber. I was on a CBO advisory council.
    Mr. Chaffetz. When did that start?
    Mr. Gruber. I don't exactly remember. It was probably----
    Mr. Chaffetz. 2007. Correct?
    Mr. Gruber. Mid 2000s, yes.
    Mr. Chaffetz. And when did you stop working for the CBO?
    Mr. Gruber. I did not--I was on the advisory council until, 
I think, through 2008. I'm not entirely sure.
    Mr. Chaffetz. You mean 2011? Is that correct?
    Mr. Gruber. No. I did not go to meetings of the CBO 
advisory council----
    Mr. Chaffetz. Were you on the advisory council until 2011?
    Mr. Gruber. I honestly don't know when they took me off it, 
but I did not attend any meetings of that advisory council----
    Mr. Chaffetz. Were you on the CBO panel in 2010?
    Mr. Gruber. I did not attend any meetings of the CBO panel 
in 2010.
    Mr. Chaffetz. But you were part of that organization.
    Did you have any communications with the CBO?
    Mr. Gruber. Yes.
    Mr. Chaffetz. So you didn't attend any meetings, but you 
did have communication.
    How many times did you attend the--how many times since 
President Obama took office did you go to the White House?
    Mr. Gruber. I don't recall exactly.
    Mr. Chaffetz. Was it more than 20?
    Mr. Gruber. No. It was not.
    Mr. Chaffetz. I believe it was more than 20.
    How many times do you think it was?
    Going to the White House is a significant event. You 
probably remember it.
    Mr. Gruber. I made a number of visits to the White House, 
primarily to the Executive Office Building to meet with members 
of President Obama's staff.
    Mr. Chaffetz. Did you ever meet with the President?
    Mr. Gruber. I met with President Obama once during 
discussion of the Affordable Care Act.
    Mr. Chaffetz. How long was that meeting?
    Mr. Gruber. Is was a meeting that lasted maybe an hour and 
a half with about 20 people. I spoke for about 5 minutes.
    Mr. Chaffetz. Was Mr. Elmendorf there?
    Mr. Gruber. Yes, he was.
    Mr. Chaffetz. What was your capacity in that meeting?
    Mr. Gruber. It was a meeting of about six economic experts 
to talk to the President and his staff about options for 
healthcare cost control.
    Mr. Jordan. Were you there as a CBO member or were you 
there as an administration member?
    Mr. Gruber. I was there as neither; I was there as an 
economic expert.
    Mr. Jordan. Well, somebody invited you there. You weren't--
somebody was paying you. Correct?
    Mr. Gruber. No one paid me to be at that meeting. I was 
invited to be at that meeting by the White House.
    Mr. Jordan. We'll explore that a little bit more.
    Mr. Gruber, will you provide copies of all the work product 
you provided to the Federal Government related to the 
Affordable Care Act, healthcare.gov, or any other healthcare 
reform proposals?
    Mr. Gruber. I--if that's a request of the committee, they 
can take that up with my counsel.
    Mr. Chaffetz. No, no, we're asking you, not your counsel. 
Counsel works for you. So we're asking you, under oath, will 
you provide this information to this committee?
    Mr. Gruber. Once again, if the committee can take it up 
with my counsel----
    Mr. Chaffetz. No, no, no, no, no, Mr. Gruber. We're asking 
you. You've been paid by the American taxpayers. Will you or 
will you not provide that information to this committee?
    Mr. Gruber. Once again, the committee can take it up with 
my counsel.
    Mr. Chaffetz. Mr. Chairman, this is something we have got 
to get to the bottom of. I think Members on both sides of this 
aisle should demand that those documents, paid for by the 
American taxpayers, be part of the public record.
    What are you hiding? Why won't you give those to us? Why 
are we not entitled to those?
    Mr. Gruber. I'm not an expert on the rules of what's 
disclosable and what's not. But my counsel is, and he'd be 
happy to talk to the committee about it.
    Mr. Chaffetz. Why will you not give us those documents?
    Mr. Gruber. I have not concluded one way or another on the 
documents----
    Mr. Chaffetz. Who owns those documents? Who paid for them?
    Mr. Gruber. I'm not sure.
    Mr. Chaffetz. You don't know who paid for those documents? 
Were you paid by the American taxpayer?
    Mr. Gruber. I had a contract, a technical contract with HHS 
to do micro-simulation modeling.
    Mr. Chaffetz. Was there any work product of that? Did you 
actually come up with documents, have discussions?
    Mr. Gruber. Yes. I had a large number of discussions.
    Mr. Chaffetz. Will you provide copies of all the work 
product you provided to the State governments related to the 
Affordable Care Act State-based exchanges or any other 
healthcare reform proposals?
    Mr. Gruber. Once again, the committee can take that up with 
my counsel.
    Mr. Chaffetz. Will you provide copies of your 
communication, including emails, memoranda, presentations, or 
any other discussions or conversations you had with Federal or 
State officials or employees related to the Affordable Care Act 
exchanges or other healthcare reform proposals?
    Mr. Gruber. Once again, that committee can take that with 
up counsel----
    Mr. Chaffetz. I need a ``yes'' or ``no.'' I'm not 
interesting in talking to your counsel, I'm interested in 
talking to you right now, under oath, having been paid by the 
American taxpayer.
    Will you or will you not provide that information?
    Mr. Gruber. You can take that up with my counsel.
    Mr. Chaffetz. Why do you believe you're entitled to not 
give it to us?
    Mr. Gruber. I don't know the rules of how you produce 
documents, things like that. I'm not a lawyer, I'm just----
    Mr. Chaffetz. Do you have documents?
    Mr. Gruber. Do I own documents?
    Mr. Chaffetz. Do you have documents?
    Mr. Gruber. Yeah, I have documents.
    Mr. Chaffetz. And you're not willing to give them to us.
    Mr. Gruber. I have all sorts of documents. I have a piece 
of paper in front of me. I don't understand----
    Mr. Chaffetz. Documents that relate to the questions that I 
just asked you, Mr. Gruber.
    Mr. Gruber. I have----
    Mr. Chaffetz. Do you not understand the question?
    Mr. Gruber. I have--I performed grant work for the Federal 
Government. There was work product from that work. I do not 
understand the rules under which that work product is supposed 
to be provided or not because I'm not a lawyer, and you can 
take that up with my counsel.
    Mr. Chaffetz. This is terribly frustrating, Mr. Chairman. 
We will, I hope, get some cooperation on both sides of the 
aisle.
    Yield back.
    Mr. Walberg. I thank the gentleman.
    And, Mr. Gruber, it does appear that you have progressed in 
your ability to be political. You answer questions better than 
any politician sitting at this dais today. And it is 
frustrating, and I would contend that your attorney is not 
giving you adequate representation at this time.
    This committee has the right to have information that has 
been requested. And you have progressed from not talking simply 
off the cuff and making stupid statements to now being entirely 
political, to the point that you are hindering us in carrying 
out our responsibility.
    Mr. Meadows. Mr. Chairman?
    Mr. Walberg. I now recognize the gentleman from----
    Mr. Meadows. Mr. Chairman?
    I would ask the chairman if this committee should consider 
a subpoena to compel the witness to provide this kind of 
information if he's not going to do it on a voluntary basis.
    Mr. Walberg. I would recommend the gentleman take that up 
with the committee chair whose portrait hangs behind us.
    I certainly would concur with you. But I'm not going to 
step in the place of the full committee chair at this point.
    I thank the gentleman.
    I now recognize the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Dr. Gruber, maybe this is a good object lesson for all 
academics in the consequences of sort of mouthing off and 
showing one's superior knowledge, especially with respect to 
this committee.
    I have long felt, watching this committee in operation the 
last 4 years, that we ought to post over the mantle on the 
entrance in here, you know, ``Enter into this portal as a 
witness at your own peril.''
    All of a sudden, now we're talking about subpoenas and 
lawyers and documents, and how often did you go to the White 
House? It has a familiar refrain in terms of how, 
unfortunately, witnesses have been handled, unless of course 
they are friendly witnesses who don't like the Affordable Care 
Act or believe the IRS has planted, you know, electrodes in 
their brain.
    And so you are getting the special treatment. And you 
opened the door, unfortunately, because of remarks, which you 
have apologized for in your testimony. Is that not correct?
    Mr. Gruber. I apologize for the really inexcusable remarks 
that I made in those videos.
    Mr. Connolly. Thank you.
    The incoming chairman of this committee asked you how often 
you've been to the White House.
    How often do you go to the Romney administration offices of 
any kind when you were advising the Romney administration on 
the--on what became really the model for Obamacare?
    Mr. Gruber. I don't recall exactly. Dozens of times.
    Mr. Connolly. Dozens of times. Did you ever meet with 
Governor Romney?
    Mr. Gruber. I had one meeting with Governor Romney.
    Mr. Connolly. Just like you had one with Obama.
    Mr. Gruber. Yes.
    Mr. Connolly. So did that make you an intimate of the 
Romney administration and the architect of Romneycare in 
Massachusetts?
    Mr. Gruber. I was an economic adviser to Governor Romney, 
just as I was to President Obama.
    Mr. Connolly. Thank you. And do you have documents from 
those years that we might want to subpoena----
    Let me withdraw the last part.
    Do you have documents from the Romney period?
    Mr. Gruber. Probably.
    Mr. Connolly. Well, I would hope, Mr. Chairman, that if 
we're going to have a broad subpoena, suggested by my friend 
from North Carolina, that it be indeed brought and that we 
encompass all of the Romney documents Dr. Gruber was involved 
in. Because I certainly want to see whether this is a pattern. 
Shouldn't be limited just to President Obama. Because, after 
all, there is an antecedent; not just an antecedent, Romneycare 
was the model for Obamacare.
    Is that not true, Dr. Gruber?
    Mr. Gruber. I believe it's true.
    Mr. Connolly. I mean, for example, the tax consequences, is 
it not true that right now in Massachusetts, you know, you can 
be fined if you don't comply with Romneycare, and it's all run 
through the tax administration in the Commonwealth of 
Massachusetts?
    Mr. Gruber. It is true that if you don't have health 
insurance and don't meet certain exemptions in Massachusetts, 
you have to pay a tax penalty.
    Mr. Connolly. Right. And, by the way, what happened to the 
uninsured percentage in Massachusetts? Did it go up? Did a lot 
of people lose their healthcare, as predicted by the critics?
    Mr. Gruber. The rate of insured fell by about two-thirds to 
3 percent.
    Mr. Connolly. Three percent. How many other States have a 
3-percent uninsured rate?
    Mr. Gruber. Massachusetts is by far the lowest in the 
Nation.
    Mr. Connolly. Lowest in the Nation.
    Now, there were also predictions that the fines were so 
relatively modest that employers would be tripping over each 
other to divest themselves of employee-provided insurance plans 
and just go on to the State exchange. Did that happen in 
Massachusetts?
    Mr. Gruber. No, it did not. Employer-sponsored insurance 
actually rose by 10 percent in Massachusetts after we passed 
Romneycare.
    Mr. Connolly. Can you explain the interpretation of your 
statement--and I'm going to read your statement: In the law, it 
says that the States don't provide them, the Federal back stop 
will. The Federal Government has been sort of slow in putting 
out its backstop, I think partly because they want to sort of 
squeeze the States to do it. I think what's important to 
remember politically is if you are a State and you don't set up 
an exchange, that means your citizens don't get their tax 
credits.
    Opponents of the Affordable Care Act are using these 
remarks to further the argument that the law does not authorize 
tax credits for States that did not step up their own 
exchanges.
    Is that a correct interpretation of the law and of your 
statement?
    Mr. Gruber. I don't believe it's a correct interpretation 
of either the law or of my statement. As I said my opening 
remarks, my statement, while poorly worded and much too glib, 
but I believe the point I was making was that at the time I 
gave that statement, which was 2012, it was not clear how 
effective the Federal exchange would be. It was not even clear 
who would be in the White House to implement said Federal 
exchange.
    As a result, States might be concerned the Federal exchange 
would not be implemented, and they would have to set up their 
own exchange.
    Mr. Connolly. Do you agree, Dr. Gruber, that, as written, 
the law makes tax credits available in every State, regardless 
of whether the State or the Federal Government runs the 
exchange?
    Mr. Gruber. In every--in every opportunity I've had to 
model or interpret the law, I've always made that assumption.
    Mr. Connolly. Yes.
    Mr. Chairman, my time is up. I'd like unanimous consent to 
enter into the record a letter from Doug Elmendorf, the head of 
CBO, to Chairman Issa, dated December 6; and an article by Tom 
Harkin, Ron Wyden, Sandy Levin, George Miller, and Henry 
Waxman, on the Affordable Care Act and what opponents are 
cherry-picking in terms of facts.
    Mr. Walberg. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Walberg. I thank the gentleman.
    Recognize myself for 5 minutes of questioning.
    It is--at least to me, it's apparent today in what we have 
heard, what's gone on here, that Americans now know that 
government transparency under this administration simply means 
what you see is not what you get. And that's concerning to me.
    Ms. Tavenner, do you believe Obamacare was crafted in a way 
that was transparent to the American taxpayer?
    Ms. Tavenner. I certainly believe that the work that I've 
been part of for the last 5 years has been transparent.
    Mr. Walberg. Was Obamacare crafted in a way to be 
transparent?
    Ms. Tavenner. I was not here during the crafting of 
Obamacare.
    Mr. Walberg. Ms. Tavenner, would you say the administration 
was transparent in its implementation of Obamacare, then? 
You've been here for that.
    Ms. Tavenner. Sir, I think we have tried to be transparent. 
We have tried to provide documents, including the documents 
that we sent yesterday. To date, we have already provided 
135,000 pages of documents and provided more than a dozen 
transcribed interviews. So I think we have tried to be 
transparent.
    Mr. Walberg. But not completely.
    Ms. Tavenner. Wherever we can, we have tried to be----
    Mr. Walberg. Wherever we can. Okay.
    Another term that could be used in this hearing, ``whenever 
we can,'' ``I don't recall,'' ``probably.'' Those are 
reoccurring terms.
    Mr. Gruber, the Obama administration promised the American 
people 37 times that if you like your plan, you can keep your 
plan.
    When you were working on the law, did you believe, Mr. 
Gruber, did you believe that no one would lose a plan they 
liked due to Obamacare?
    Mr. Gruber. I believed that the law would not affect the 
vast majority of Americans.
    Mr. Walberg. The vast majority. But did you believe that no 
one, as the President said, would lose a plan they liked?
    Mr. Gruber. As I said, I believed it would not affect the 
vast majority of Americans. But it is true that some people 
might have to upgrade their plans because their plans were not 
comprehensive as defined under the law.
    Mr. Walberg. So they couldn't keep their plan even if they 
liked it.
    Mr. Gruber. What the law says is there's minimum standards 
to be met.
    Mr. Walberg. Why did the President make this representation 
if his experts, including you, knew it was not true that some, 
as you've said, would not be able to keep their plan, they 
would have to upgrade or they'd have to change it?
    Mr. Gruber. I'm not a political adviser, and I have no 
answer to that question.
    Mr. Walberg. You acknowledged in a 2013 article in the New 
Yorker that not everyone who liked their plans could keep their 
plans, Mr. Gruber. When you knew that the administration's 
representations to the American people were false, such as in 
this instance, did you ever voice any concern? Why or why not?
    Mr. Gruber. I interpreted the administration's comments as 
saying that for the vast majority of Americans, this law would 
not affect the productive health insurance relationships they 
have. And so I did not see a problem with the administration's 
statement.
    Mr. Walberg. But you're an economist with a model that 
you've described as entirely accurate. You're a learned 
professor. And we don't take that away from you at all. And yet 
the President 37 times said, If you like your plan you can keep 
your plan.
    I'm here today to say that in my constituency of almost 
800,000 people, Julie Boonstra, leukemia patient who had a plan 
she liked couldn't keep that plan. And she's not stupid. She 
couldn't keep that plan.
    Mark and Kate, a young pastor and wife at a local church, 
now expecting, as of yesterday cannot keep the plan they had 
and can't find a plan that's adequate for them to replace it.
    Dustin, a hardworking young man in my district, spent 
almost the entire weekend trying to opt on to Obamacare from a 
plan that he lost, he couldn't keep. And, as of yesterday 
morning, I watched him try to get a plan through to the Web 
site, through talking with people connected with the Web site. 
He still couldn't get it. He had a plan he liked. He's not 
stupid. He couldn't keep it.
    Numerous constituents have contacted me saying that while 
they may have found a plan under Obamacare, not necessarily a 
plan that they liked or they could keep, but found a plan, like 
Mr. Goldmann, that was reasonable in cost, yet when they got to 
the point of having to pay their deductibles, their copays, 
their out-of-pocket expenses or the prescription drug costs, 
they couldn't afford it.
    And I would suggest that again transparency here is not 
what you see is what you get.
    My time has expired.
    I now recognize Mr. Cartwright for his 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And I thank the witnesses for appearing today in yet 
another instance of the gnashing of teeth over the Affordable 
Care Act.
    Administrator Tavenner, you were not there at CMS for the 
crafting of Obamacare. I was not in the Congress, and many of 
my colleagues here on the dais were not in the Congress for the 
voting on the ACA.
    But I believe what the American public wants of us is to 
make the best of things, to take this law, to improve it, to 
make it work for everybody in the United States, and that's why 
it pains me to have to sit through these hearings while we 
criticize those who may have said something that understated or 
overstated the facts.
    To be sure, there are people who are traveling through this 
world and through their lives unburdened by excessive concern 
for the truth.
    And maybe, Mr. Gruber, at times in your life, you've been 
one of them. But there is--you know, there is--there's a chance 
for repentance and renewal in life, and I hope you will take 
that chance, Mr. Gruber.
    But, Ms. Tavenner, I want to pick up on something that Mr. 
Lynch was talking about. And he really didn't give you much 
time to respond because we only get 5 minutes and it took him 
the balance of his 5 minutes to explain a concern, and that was 
about the Cadillac tax. And I'm hearing about that at home as 
well. And I simply--this is a yes or no question, Ms. Tavenner.
    Will you undertake to review the Cadillac tax and perhaps 
rethink it and engage those with whom you work to rethink it 
and maybe even go back to the drawing board about the Cadillac 
tax in an effort, as I said, to take this law and improve it 
and make it work for all Americans?
    Ms. Tavenner. I think the President has been clear and that 
he would be willing to work with Congress to make improvements 
to the law.
    Mr. Cartwright. Well, I thank you for that.
    I also want to talk about costs a little bit. In an 
unguarded moment, the chairman of this committee listed a 
number of statements that he considered to be untrue or 
falsehoods. Some of them I agree with.
    But among them he listed the idea that healthcare spending 
in this Nation has had the lowest increase in 50 years. I was 
surprised to hear him list that among statements he considered 
to be falsehoods.
    Would you comment on that, Ms. Tavenner.
    Ms. Tavenner. I would say that, based on the healthcare 
expenditure report last week that our Office of Actuary did, 
that that statement was not true. It is the lowest trend in 
healthcare spending that we've seen. It continues a trend that 
we've seen for the last several years.
    This year was one of the lowest for 2013 and the lowest 
that the healthcare expenditure report has on record since 
1960. So I think healthcare expenditure is at an all-time low. 
There's still an increase year over year, but expenditure and 
the slope of that growth has greatly slowed.
    Mr. Cartwright. Now, there's not a whole lot refreshing to 
talk about when we talk about the ACA and recriminations over 
it, but that--that's one of them, isn't it?
    Ms. Tavenner. That's one of them. I think 6.7 million 
Americans signed up in the marketplace is another. Over 9 
million new to Medicaid and CHIP. These are all good things.
    Mr. Cartwright. Now, in conjunction with that, you know, 
I've been an employer through the 1990s and the 2000 decade. We 
saw--and we provided health care for our employees.
    And we saw increases that were in the double digits, 10, 
15, even 20, percent, even higher in some years, for the 
premiums we were paying to cover our employees. It was awful. I 
was dismayed by those numbers, and it was something that hurt 
every year to do.
    What's the--what's the average increase we're looking at 
this year in premiums under the ACA, Ms. Tavenner?
    Ms. Tavenner. Under the ACA, while it certainly can vary by 
region, we are looking at single-digit--in the low single 
digits for increases.
    In the employer-sponsored insurance, separate and apart 
from the marketplace, 3 percent this year, which is--again, 
follows an overall extremely low trend.
    Certainly there have been changes in co-pays and 
deductibles along with that, but it still is a much lower 
growth than we've seen in years past.
    Mr. Cartwright. Again----
    Ms. Tavenner. And I share your concern for the last few 
years.
    Mr. Cartwright. --more refreshing news from you.
    Thank you for appearing today, Ms. Tavenner, and all the 
witnesses.
    I yield back, Mr. Chairman.
    Chairman Issa. [Presiding.] Thank you. The gentleman yields 
back.
    I now ask unanimous consent that our colleague from South 
Carolina, Mr. Rice, be allowed to participate in today's 
hearing.
    Without objection, so ordered.
    We now go to the gentleman from North Carolina, Mr. 
McHenry.
    Mr. McHenry. Well, Dr. Gruber, you know, as everyone knows 
and as the American people know, when the President said, ``If 
you like your plan, you can keep it,'' turns out it was the lie 
of the year. Right?
    I mean, this is a very significant thing. And my 
constituents in North Carolina and--actually, North 
Carolinians--according to the North Carolina Department of 
Insurance, 473,000 North Carolinians lost their health 
insurance because of Obamacare.
    So this is perplexing. Right? You had a moment of clarity 
and honesty where you said, you know, it was a lack of 
transparency that helped pass Obamacare. And I concur, and I 
appreciate your honesty.
    I think it's horrific, though, that you participated in 
some level on obscuring the truth from the American people in 
order to pass this bill. Now, you apologized for that, and I 
thank you for that.
    And the American people hear you loud and clear. And as a--
sort of as a matter of morality, for you to apologize is 
really--I know it's a tough thing to do publicly, but I thank 
you for doing that.
    So, you know, when I think about my constituents, though, 
did you think that there will be such a large number of folks 
that would lose their health insurance?
    Mr. Gruber. I don't know the exact number in North 
Carolina, but I----
    Mr. McHenry. Well, it's 473,000, according to the 
Department of Insurance and the Raleigh News & Observer.
    Mr. Gruber. What I was focused on was the net increase in 
newly insured we've had under--have under the law, which has 
been quite substantial.
    Mr. McHenry. Okay. So it's not relevant to your calculation 
that there will be people that would lose their health 
insurance?
    Mr. Gruber. That was part of the calculation.
    Mr. McHenry. It was?
    So there--there is churn, would you say?
    Mr. Gruber. There's always been churn in this market.
    Mr. McHenry. Sure.
    Did you think it would be such a large number that would 
lose their plans, though?
    Mr. Gruber. I don't recall the exact numbers I modeled, but 
we did model some individuals would lose their existing plans 
and move to new forms of coverage.
    Mr. McHenry. Well, you--I think you anticipated it. And 
you're obviously very well prepared. I think you anticipated 
this question.
    Is it similar or dissimilar to the number that you 
calculated?
    Mr. Gruber. I don't know of a national estimate of how many 
people have lost health insurance. So I don't know how it 
compares to what I projected.
    Mr. McHenry. So was there a discussion at senior levels in 
the White House and HHS about this potential loss of people's 
health insurance plans?
    Mr. Gruber. I don't recall whether they were when I was--
when I was there. I can't speak what happened when I wasn't.
    Mr. McHenry. So was there--but there was no moment of moral 
clarity, of honesty, that you came to publicly that we now know 
about and most Americans know about? There was no discussion at 
the time that maybe we should put the brakes on this, that 
we're going to have a lot of people lose their health insurance 
plan--their preferred health insurance plan?
    Mr. Gruber. There were--I was present for discussion--as I 
said, I provided numbers and I was present for discussion of 
those numbers and interpretation of what they meant in terms of 
how the law would affect individuals.
    Mr. McHenry. Did anyone say, ``Well, pause for a moment. 
The President's been out saying, 'If you like your health 
insurance plan, you can keep it.' Gosh, maybe we should tell 
him that that's not, in fact, the case. Maybe he should change 
his wording a little bit''?
    Mr. Gruber. I was not in any discussion of presidential 
communication or messaging.
    Mr. McHenry. Okay. But in the meetings where you went 
through these numbers and you said to the administration--and, 
look, you've got plenty of experience on this--you said to this 
administration--because you're in the employ of this 
administration--you said there will be people that lose their 
plans. Right?
    Now, you said there are also going to be people that get 
other plans. Right? But you said there will be people that will 
lose their plans. Did they--did you--was this not registered? 
Did--did this fall on deaf ears?
    Mr. Gruber. All I know is what my modeling showed and what 
I conveyed.
    Mr. McHenry. And you conveyed that there would be, in fact, 
people that lose their preferred health insurance plan?
    Mr. Gruber. I conveyed that there would be churn in the 
market and some people would move to different insurance plans, 
yes.
    Mr. McHenry. So, as I said before, my interpretation of 
``churn'' is that some lose and some gain.
    So when you have the President going out saying clearly, 
``If you like your plan, you can keep it,'' it was, in fact, a 
lie, based off your numbers, based on the data you provided 
this administration. Is that correct?
    Mr. Gruber. I interpreted the President's statement as 
referring to the fact that the vast majority of Americans would 
be able to maintain their health insurance arrangements under 
the Affordable Care Act.
    Mr. McHenry. Okay. So you also said that, you know, the 
only way to pass this type of health insurance is to actually 
pay lip service to fundamental cost control, right, that you 
actually need to talk about cost control in order to pass this 
type of health insurance change? So was it, in fact, just lip 
service?
    Mr. Gruber. Fundamental cost control is very, very hard in 
health care. The Affordable Care Act does not solve the problem 
of high and rising healthcare costs----
    Mr. McHenry. But it did----
    Mr. Gruber. --in America.
    Mr. McHenry. It did pay lip service, though?
    Mr. Gruber. No. It did more than lip service. The 
Affordable Care Act is, by far, the most ambitious piece of 
legislation in our Nation's history in terms of moving forward 
on cost control.
    Mr. McHenry. Okay. Okay. And so has it outperformed your 
model or underperformed your model?
    Mr. Gruber. My model, as with the Congressional Budget 
Office model, over the budget period did not----
    Mr. McHenry. No. I'm saying so far.
    Mr. Gruber. So far, the law, in terms of health insurance 
coverage and other things, is matched fairly well with what the 
model predicted.
    Mr. McHenry. Okay. So that lip service was important, in 
fact, to pass it?
    Mr. Gruber. I don't understand the question.
    Mr. McHenry. Okay. Well, you said, in order to pass it, you 
have to pay lip service to fundamental cost control.
    Mr. Gruber. The--as I've said, fundamental cost control is 
very difficult----
    Mr. McHenry. It is.
    Mr. Gruber. --but the Affordable Care Act takes all the 
first steps that are necessary to try to move us down that 
path.
    Mr. McHenry. Okay. My time has expired. Thank you.
    Chairman Issa. I thank the gentleman.
    I ask unanimous consent to have the actual numbers as 
they've been revised placed in the record relative to the 
Affordable Care Act. Without objection, so ordered.
    Chairman Issa. The gentleman from Vermont, we are pleased 
to have you join us.
    Mr. Welch. Thank you.
    Chairman Issa. And you're recognized for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman.
    A couple of things.
    Number one, Mr. Gruber, you've apologized for the 
intemperate, you said, insulting remarks. It's unfortunate. 
This whole debate about health care is so fundamentally 
important to this country. It's been divisive in Congress.
    We had a partisan vote and strongly different points of 
view about it. And, unfortunately, the remarks you made 
provided clear ammunition for opponents to use that to indict 
the entire bill.
    But when you start commenting about what you expect might 
be a legal outcome, do you have any training as a lawyer?
    Mr. Gruber. No, I do not.
    Mr. Welch. When you comment on the quality of mind of the 
American people, which I think all of us here have a great deal 
of respect for the people we represent, you would, I take it, 
apologize for any insulting remarks you made.
    Mr. Gruber. It was inexcusable that I tried to appear 
smarter by insulting others.
    Mr. Welch. All right. And the other thing.
    I listen to my colleagues here, and they talk about folks 
who had a bad experience with the healthcare bill. And some 
people in--some people have had good experience. Some people 
have had bad experience. But it really is profoundly important 
to the American people that they have security about health 
care.
    And is it your view--I'm now going back to your area of 
expertise--that, broadly speaking, the American healthcare 
system has been improved as a result of the passage of the 
Affordable Care Act?
    Mr. Gruber. Yes.
    Mr. Welch. Just be specific as to a number of items that 
are better now than before the Affordable Care Act was passed.
    Mr. Gruber. The Affordable Care Act has lowered the rate of 
uninsurance. About 10 million people have gained health 
insurance, according to the latest estimates.
    The Affordable Care Act has ended the fact that individuals 
face pre-existing conditions and the inability and the 
financial insecurity that comes from having to buy insurance on 
their own.
    And the Affordable Care Act has contributed to historically 
slow rate of healthcare cost growth.
    Mr. Welch. And is it also your opinion that the Affordable 
Care Act shares many things in common with what was called 
Romneycare in Massachusetts?
    Mr. Gruber. Yes, it is.
    Mr. Welch. And you worked on the--you worked on the 
Massachusetts version with the Romney Administration. Is that 
correct?
    Mr. Gruber. Yes, it is.
    Mr. Welch. And I think I heard you say that the uninsured 
rate in Massachusetts is about 3 to 4 percent.
    Mr. Gruber. It's fallen to--before the Affordable Care Act, 
it fell to about 3 percent. It may be lower today.
    Mr. Welch. And my understanding in the passage of the 
Massachusetts bill is that there actually was a bipartisan vote 
that supported that legislation. Is that correct?
    Mr. Gruber. Yes.
    Mr. Welch. Which we did not--that eluded us here, 
unfortunately, in this Congress.
    Now, my view is that there's a lot of things we still have 
to fix in our healthcare system. I've never had the view that 
any single bill is going to be the magic fix, that it has to be 
an ongoing process.
    And I'd ask you--and the cost issue on health care is the 
one that I think needs even more attention. But, first, I'd ask 
you and Ms. Tavenner: What has happened to the growth of 
healthcare spending since the passage of the Affordable Care 
Act?
    Ms. Tavenner?
    Ms. Tavenner. I think, as we've discussed earlier, it's at 
historic lows. It's 3.7 percent, I believe, for 2013, which is 
the lowest on record since 1960.
    Mr. Welch. And does that apply across the board, whether a 
person is in the healthcare--in the Obamacare or on their own 
private or employer-sponsored healthcare?
    Chairman Issa. Ms. Tavenner, would you please put the 
microphone closer to you.
    Ms. Tavenner. I'm sorry.
    It is across the board.
    Mr. Welch. All right. And, Mr. Gruber--or Dr. Gruber, what 
would you cite as important elements in the Affordable Care Act 
that has helped slow the rate of growth in overall healthcare 
spending?
    Mr. Gruber. The Affordable Care Act took a number of steps 
in a wide variety of directions to try to slow spending, most 
notably, I think, as Administrator Tavenner mentioned, change 
in the way that healthcare providers are reimbursed, penalties 
on readmissions for hospitals--we've seen an enormous 
reduction, which has lowered costs--and really just led to some 
very innovative thinking on how we can fix our broken fee-for-
service medical system.
    Mr. Welch. And my observation is that, in Vermont, where 
we've had an ongoing discussion about health care and still are 
in the midst of that, we've got healthcare providers--our 
hospitals and our doctors--that are really focused on trying to 
figure out better ways to treat, to curb infections, to change 
the billing process, but they're on the front lines.
    And what are some of the things that we can do to help them 
be successful in providing better health care at lower cost?
    Mr. Gruber. I think the most important thing is to continue 
to learn from the ongoing experiments that are going on in our 
Nation's healthcare system to try to understand what's working 
to deliver this low rate of healthcare cost spending.
    Mr. Welch. Ms. Tavenner?
    Ms. Tavenner. I would agree with that.
    I would also say--and we have tried to do this through the 
Innovation Center--some upfront help in how to work with 
electronic health records and how to build an infrastructure 
that goes from fee-for-service to actually assuming risk and 
looking at it on a----
    Mr. Welch. And accountable care organizations are a part of 
that?
    Ms. Tavenner. Yes.
    Mr. Welch. All right. Thank you.
    I see my time is up. Thank you. I yield.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Good morning, y'all.
    So I want to go through several transparency issues.
    Ms. Tavenner, what was the plan for States that are not 
self-sufficient in their oversight and their running of their 
exchanges by January the 1st? The law states, by January 1, 
2015, they have to be self-sufficient.
    Ms. Tavenner. I think currently--I assume you're talking 
about the smaller States than----
    Mr. Lankford. Yes.
    Ms. Tavenner. Currently, they are sufficient--self-
sufficient and are obviously carrying through for 2015. We are 
in ongoing discussions with them.
    Mr. Lankford. How are you defining ``self-sufficient''?
    Ms. Tavenner. So, as you are aware, the funding ends--the 
1311 funding will end at the end of this year. Most of them are 
dependent on their user fee and some other sources of revenue, 
and that will carry them through 2015. But we will be having 
ongoing discussions with some of the smaller States.
    Mr. Lankford. The State of Vermont has had some 
conversations about the cost overruns that they're experiencing 
this year on the exchange, and they're pursuing Federal grants 
to help make that gap for this year.
    Rhode Island had--even this week there was an editorial 
that came out in the Providence Journal suggesting to the 
Governor to punt this and to go back to the Federal oversight 
because of the cost overruns there.
    So there is some buzz and some conversation about States 
and what they're going to do in 2015.
    My question is--the law requires that they be self-
sufficient by that point. And so my--a two-fold question on it.
    One is, for the States that come back to you and say, ``We 
need a grant. We need additional dollars. We need some 
additional help in 2015,'' will they get Federal dollars, 
contrary to the law saying they must be self-sufficient?
    Ms. Tavenner. There will not be Federal dollars. Any 
Federal dollars awarded have to be awarded by the end of 2014. 
So there is not additional----
    Mr. Lankford. Could they get a larger portion given to them 
at the end of 2014 with the implication, ``This is to help your 
shortfall this year and to help you for next year''?
    Ms. Tavenner. It's very specific what the grants can be 
used for. So I'll be glad to get you that information.
    Mr. Lankford. Would it be used for 2015 spending?
    Ms. Tavenner. So that is very specific. So I'll have to get 
you that information. I can't answer that right now.
    Mr. Lankford. Well, I'm just saying the law says they have 
to be self-sufficient by January the 1st----
    Ms. Tavenner. Right.
    Mr. Lankford. --2015.
    Ms. Tavenner. And there----
    Mr. Lankford. If the grant is given to them and those 
dollars can be used after January the 1st, 2015----
    Ms. Tavenner. I'm happy to----
    Mr. Lankford. --that's contrary to the law.
    Ms. Tavenner. I'm happy to get you that information.
    Mr. Lankford. I'm just--I'm just asking--I'm just asking--
I'm not trying to be contrary now.
    Ms. Tavenner. Yeah.
    Mr. Lankford. I'm just asking a question.
    Is there any money being given to them that they will use 
after January the 1st, 2015?
    Ms. Tavenner. I'm not trying to be contrary either. I just 
have to get you specific information about each State. So I 
can't answer that in a general question. So I'll get you that 
information.
    Mr. Lankford. Okay. Well, just a blanket response on it 
would be, ``We're definitely going to follow the law on it. 
We're not going to--we're not going to give them extra funds 
this year that they'll really use next year, contrary to the 
statute.''
    Ms. Tavenner. I am happy to get you specific information.
    Mr. Lankford. Okay. Well, I--we'll look forward that that 
and we'll definitely--we'll assume that we're going to follow 
the law on that as it has been written out.
    The question that goes along with that as well, again, 
going back to the transparency part of this--we have the 
numbers for this month, the 6.7 million that have the 
enrollment.
    Will we get monthly effectuated enrollments from here on 
out? This is--we're a year into it. Will there be consistent 
snapshots a month at a time?
    Ms. Tavenner. So there--and I think this is what led to our 
mistake. So if you will indulge me for a minute, let me try to 
explain.
    Effectuated enrollment are actually those individuals who 
have paid.
    Mr. Lankford. That's right.
    Ms. Tavenner. Okay? So what we gave, the information, the 
6.7, that was current. We will be able to run another 
effectuated enrollment toward the end of the year, which will 
cover 2014. So, yes, we can get you that information.
    Mr. Lankford. Will we just get monthly snapshots from here 
on out----
    Ms. Tavenner. Well, there's really only 1 more month left.
    Mr. Lankford. Right. But I meant just after that.
    But the open enrollment period goes all the way through 
into early next year as well.
    Ms. Tavenner. So that's 2014. So let me close 2014. And 
last night we sent Chairman Issa a large data dump.
    Mr. Lankford. A lot, including questions that you and I had 
talked about in September of last year that I got the answer 
for at 6:30 last night.
    Ms. Tavenner. Yeah.
    Mr. Lankford. I appreciate that.
    Ms. Tavenner. We try. We may be slow, but we try.
    The second thing has to do with 2015. And so the first time 
we would be able to actually look at effectuated enrollment in 
2015 would probably be mid-February or late February.
    Because, remember, payments are not made until sometime in 
January. Those payments have to be trued up. We have to check 
them for accuracy, not double-count dental again. So you will 
probably be looking at that in the spring.
    Mr. Lankford. So you're getting numbers on that 
consistently as well. We would just like to be able to get 
actual numbers on that.
    So is that every month we'll get those after that? Will it 
be every 2 months? When will we get snapshot totals?
    Ms. Tavenner. So I----
    Mr. Lankford. Because we've got to get into a rhythm. Just 
plan selections--I went on the Web site, put it in the shopping 
cart. It's not enough.
    Ms. Tavenner. Right. And this is where I think we will do 
regular intervals. We should be able to provide it to you 
monthly.
    Mr. Lankford. And what was the estimate that we hoped to 
have by this point in the original rollout of the Affordable 
Care Act for effectuated enrollments for this month?
    Ms. Tavenner. You know, that's interesting. I don't know 
that we ever had a publicly stated goal for enrollment for 
2014.
    Mr. Lankford. CBO did, obviously.
    Ms. Tavenner. CBO had 7 million originally, and then they 
revised that downward to 6 million sometime in the spring of 
2014. But I don't think we ever had a public goal. We're 
delighted with 6.7.
    Mr. Lankford. The CBO number, I think, originally for the 
end of this year was 13 million. Is that correct?
    Ms. Tavenner. No. I don't think that's correct.
    Mr. Lankford. Well----
    Ms. Tavenner. I'd have to look at that.
    Mr. Lankford. 10? 12? What's the guesstimate?
    Ms. Tavenner. So--you mean for the end of 2015.
    Mr. Lankford. 2014 or 2015.
    Ms. Tavenner. Yes.
    Mr. Lankford. What's the enrollment?
    Ms. Tavenner. The end of 2014, I believe, was the 7 million 
that was revised down to 6 million, if I remember correctly. 
For the end of 2015, by this time next year, I think it was 13 
million.
    Mr. Lankford. Okay. Then--if the chairman will indulge me 
one last question line.
    Just another transparency number, and that is the Medicaid 
numbers. I'm trying to get accurate numbers based on the 
expansion that occurred.
    The new expanded definition of Medicaid in States that took 
that expansion, will we be able to get a listing of the 
difference between people that enrolled in Medicaid, just 
enrolling in Medicaid, and those who became eligible based on 
the expansion?
    Ms. Tavenner. Yes. We're actually working on that report 
even as we speak.
    Mr. Lankford. Okay. When do you think we would get that 
number?
    Ms. Tavenner. Soon.
    Mr. Lankford. Can you define ``soon.'' I asked you 
questions in September, and I got them last night at 6:30. So 
help me define ``soon.''
    Chairman Issa. I might note that Congress will be going 
sine die soon.
    Mr. Lankford. Yeah.
    Ms. Tavenner. Right. I don't think we'll meet that 
definition of ``soon.''
    Chairman Issa. So the Senator will be getting a report next 
year.
    Ms. Tavenner. Yes.
    Mr. Lankford. So help me understand ``soon'' just so I can 
get a ballpark on----
    Ms. Tavenner. So I--really, it's in the process. So----
    Mr. Lankford. In geological terms of ``soon'' or in more of 
a----
    Ms. Tavenner. In geological terms of ``soon.''
    I think it would be early 2015.
    Mr. Lankford. How about a month?
    Ms. Tavenner. How about a month. We'll try----
    Mr. Lankford. That would be great.
    Ms. Tavenner. --for a month.
    Mr. Lankford. Thank you.
    I yield back.
    Chairman Issa. I thank the gentleman.
    And early on in my chairmanship I probably should have 
gotten into the difference between geological, Biblical, 
calendar ``soons,'' and I could have--I could have done so much 
to speed things up.
    We now go to the gentlelady from New Mexico.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And I also want to thank you for tackling a very difficult 
challenge often in this committee.
    And while I--I have concerns about rollout from--that are--
I think have been extended, actually, or not addressed as 
effectively as it could be from last year. I think we're all in 
a better place, given that this is a much smoother rollout.
    But I want to hit, if I can, three things.
    One, the Affordable Care Act deals with cost not just by 
making some transformations to a fee-for-service environment, 
but just by having more people covered and lowering uninsured 
and uncompensated care costs. You know, we have that shift, 
which is great, but it didn't do enough, in my opinion, to deal 
with quality or cost.
    So we're going to have to continue to get people insured, 
and we're going to have to continue to deal with real cost 
issues and real structure issues in the way in which we 
reimburse providers and incentivize patients.
    Given that, our State, New Mexico, had one of the lowest--
or highest uninsured populations in the country pre-Affordable 
Care Act. And we are doing better, but we could do much, much 
better.
    And, in fact, given our large Hispanic population, which 
continues to be a real challenge across the country, can--Ms. 
Tavenner, can you talk to me a little bit about what you're 
doing better about outreach and transparency and communication, 
education.
    Because that--the Hispanic demographic, as I understand it, 
was the lowest. We didn't penetrate that population in terms of 
increasing coverage. So what are you doing to specifically 
address that?
    Ms. Tavenner. Right. I think, for starters, this is 
something--you're correct. We identified at the end of the open 
enrollment period last year that this was an area we had not 
penetrated as deeply as we wanted.
    So we created a work group, and we've gone about it several 
ways. We've created advocacy groups. We've worked with 
navigators and assisters to make sure that they are trained not 
only----
    Ms. Lujan Grisham. Be specific about that advocacy work. 
Talk to me about specifically how that would translate to 
somebody in New Mexico having a better chance for being 
enrolled.
    Ms. Tavenner. So let me start with the navigators and 
assisters in New Mexico. We have done more to ensure that--as 
we made the awards this year, that we were dealing with 
bilingual staff in all areas because that's something--and not 
just a presence, but a significant presence.
    We have been working through--and I can--I can get you 
information specific to your State, but we have been working 
with advocacy groups inside the State to work--many times----
    Ms. Lujan Grisham. I would really encourage you to do that. 
And I appreciate that you're trying to answer. And I want to 
make sure that, with my limited time, I get as much out as 
possible. I have a suggestion for you.
    Ms. Tavenner. Okay.
    Ms. Lujan Grisham. I attended many of the enrollment 
efforts last year, and you're touching an individual consumer 
six times in New Mexico. You lost them after the--if you have 
them in the room, get them enrolled. And that's a huge problem.
    And you're minimizing, I think, the experience that our 
consumer here today presented--I really appreciate your 
presence here--that it can and does work. Now we need to make 
sure that people have that opportunity.
    The second thing is I really wanted--as you're getting more 
people covered, I want us to start exploring--and I'm asking 
for the administration to work more closely with members of 
Congress.
    Because while--we are seeing access and the exclusion of 
pre-existing conditions--having that be a barrier to providing 
coverage and premiums that are lower, lower in my State, 
certainly, but out-of-pocket costs and deductibles are higher, 
which means that you still don't get folks that are accessing 
the healthcare system even if they have coverage.
    And while I think most folks still are not understanding 
that the Affordable Care Act really minimally does anything to 
insurance companies when we set the floor about who they have 
to cover, but they make decisions about their provider networks 
and they make decisions about what they're going to pay docs 
and they make decisions about what hospitals are going to be in 
their network and they create that environment and--we're going 
to have to do more to get them to lower total costs and to 
create much more expansive provider networks. And I'm 
encouraging you to be very assertive in that role and work with 
members of Congress to get that done.
    And with the limited seconds left, on the--the last part 
is, like my colleague, Senator Lankford, since August and 
September, we've been waiting for you to respond to New Mexico 
about behavior health access. While that's not particularly 
related just to this hearing in the ACA, it is a transparency 
issue. And we are looking for numbers.
    And my understanding is that now another provider has 
dropped all behavior health coverage in the southern part of 
the State. And I'm--I'm really encouraging you that, while you 
wait for 3 months to respond, that's 3 months where New 
Mexicans don't get healthcare coverage in Medicaid. And I'm 
encouraging you to take a stronger, more productive role to 
stop the damage in New Mexico.
    Ms. Tavenner. Thank you. We'll do.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Arizona, Dr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    Dr. Gruber, in your testimony, you stated, ``I'm not a 
political advisor nor a politician.'' I like that statement. 
I'm a dentist by trade impersonating a politician. So I want to 
commend you on that.
    But there's something very similar about you and me, as 
you're very astute to detail, like me. Right?
    Mr. Gruber. I like to think I pay attention to detail. Yes.
    Mr. Gosar. Yeah.
    Because the beauty is in the detail. Right?
    Mr. Gruber. Often that is the case.
    Mr. Gosar. Yeah.
    So did you lie about any of your comments when you publicly 
were--some of the aspects that we saw on television? Were those 
outright lies or were they just not politically pleasant?
    Mr. Gruber. They were not lies.
    Mr. Gosar. They were not lies.
    So they were truthful in regards to a stalwart evaluation 
of a process. Right?
    Mr. Gruber. They were, once again, my inexcusably trying to 
conjecture about a process about which----
    Mr. Gosar. No. But I want to go back to this.
    Mr. Gruber. --I have no expertise to----
    Mr. Gosar. You weren't lying. You were very truthful about 
the process.
    Mr. Gruber. I was, once again, trying to conjecture on----
    Mr. Gosar. It may--it may not be politically savvy or, you 
know, like, as we say, red meat, but what you were doing is you 
were very honest in regards to the process.
    Mr. Gruber. Once again, I was making statements about which 
I really didn't have the expertise to make--to make. I was just 
speaking out of turn.
    Mr. Gosar. Oh. I don't know about expertise. Let's go down 
that.
    We just talked about the beauty is in the detail. You're 
very astute about the economic aspects. You had your 
inclinations and models with Romneycare. You actually had these 
models with Obamacare. So you're very astute in regards to 
this.
    I mean, being from MIT, I mean, that's one of the most 
prestigious acclaimed environments in the world. Right?
    Mr. Gruber. I believe so. Yes.
    Mr. Gosar. And when you're proud of a product, you really 
are vested in that product. So you're going to be very watchful 
as it takes place, as it changes, as it morphs, and maybe as it 
has contradictions. Right?
    Mr. Gruber. I was very proud and invested in the modeling 
and the numbers I produced. Yes.
    Mr. Gosar. Yes. So I'm going to go back to it.
    So you were very honest in your evaluation of what 
transpired. We saw the real Jonathan Gruber in there. I mean, I 
watched you last night for almost 4 hours on all the different 
aspects. I read body language extremely well. So you were in 
your element when you were talking about the critiques of this 
healthcare law.
    So let me ask you something. So who helped you with your 
testimony today? And who signed off on your testimony today?
    Mr. Gruber. No one signed off on my testimony. It's my own 
testimony. I did receive assistance from my counsel.
    Mr. Gosar. Did you also have assistance from HHS? The 
administration? The minority staff committee?
    Mr. Gruber. No, I did not.
    Mr. Gosar. Okay. Now, were you coached in any way what to 
say?
    Mr. Gruber. I--the words that are written I said are my 
own. As I said, I did work with my counsel in preparing them.
    Mr. Gosar. Okay. So when we had numbers of my colleagues 
asking you in regards to numbers, you're pretty astute with 
numbers. Right? You know those numbers?
    Mr. Gruber. Once again, the numbers that I produced in 
terms of my micro-simulation modeling I'm very confident in.
    Mr. Gosar. Ms. Tavenner, you're also pretty good with 
numbers, aren't you?
    I mean, I've been watching the bantering back and forth. 
And when the other side asks you a question, you're very 
prepared with numbers, but when we ask you a question, you're 
very inappropriately responsible to numbers.
    But you're very good with numbers because you hear them all 
day long; do you not?
    Ms. Tavenner. I do hear numbers.
    Mr. Gosar. You do. I agree. I agree.
    So, you know, this preponderance of looking at the falling 
rate of dollars being spent on health care--I want to go back 
to the microcosm called dentistry.
    Did anybody even think about this? I mean, what kind of 
access--and the gentlelady from New Mexico talked about access. 
Did that ever come into your aspect, that the deductibles are 
so high in the dental aspect that no one's using them? Did that 
ever occur to you?
    Ms. Tavenner. You know, if you look at what we did around 
the dental proposed in final rule last year, we actually tried 
to make some accommodation there to handle the deductible, to 
improve it, if you will.
    Mr. Gosar. Well, that's nice, I mean, you know, changing 
around some of those aspects. But, you know, from my 
standpoint, when people don't actually get care, you're 
actually creating a bigger problem.
    You know, the gentleman from Maryland is aware of the 
Deamonte Driver aspect. When people can't pay for it, it 
reduces access. Children go walking around without getting 
health care, and all of a sudden we have that child that dies.
    You're aware of that situation?
    Ms. Tavenner. Yes. I'm aware of the situation that 
occurred.
    Mr. Gosar. So, once again, it becomes that fluff part, you 
know, because I heard people on the other side over here saying 
this was the most transparent process. Really? It didn't 
involve anybody on this side.
    And I'm very well aware of having, you know, a bipartisan 
type of application to health care. Because health care's a 
personal sport. The patient has to be involved. And it's not a 
Republican or Democratic issue, but it became a very Democratic 
issue.
    They used reconciliation and a lot of gimmicks to pass it. 
We were deceitful in everything that we've done, I mean, 
everything. Instead of acknowledging the problems and being 
truthful on it, we heard tortured language, you know, from the 
gentleman to your left.
    This was outright the wrong way to go. So from that 
standpoint, it sickens me to actually hear what I heard today 
from both you and from Mr. Gruber. It's sad, you know, that 
we're playing with people's health care when they deserve 
something better.
    And, frankly, not having the facts is disdainful. Congress 
has a right to those facts. We've seen this perpetually with 
this administration from Fast and Furious to Benghazi, to here, 
to the IRS. It's disdainful. Equal branches of Government 
should have that opportunity, and the American people deserve 
better from both of you.
    Thank you.
    Chairman Issa. Thank you.
    Was there an answer? Okay.
    We now go to the gentleman from Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Mr. Chairman, I want to express my appreciation to you and 
the ranking member for your leadership of this committee over 
the course of the years.
    I want to thank the folks for being here today.
    I mean, I know there's a lot of characterizations of 
testimony and what things have gone on. We go back and forth on 
this committee. I mean, I know in the end--and I think you 
would agree--in the end, our--the people we represent, the 
American consumers, aren't--I find to be actually quite 
intelligent with their efforts to try to become good consumers 
of healthcare information.
    And these aren't ``gotcha'' questions, but we don't get a 
chance to have you before us much, Ms. Tavenner. And what I'm 
seeing out there right now is patients who are--they are the 
holders of their electronic health records, but they're 
bouncing around from system to system.
    I mean, they are frustrated. Their costs are rising. They 
aren't getting the access to the doctors they had before. 
They're paying more out of cost, which I think is one of the 
factors that's driving some of the containment of health care. 
But at the same time, what's happening is I think people aren't 
getting health care. They're going to be paying more for it 
down the road.
    But my problem is: How are we working on assuring that 
these systems of electronic health records can communicate 
through the larger structure? It seems if you're in a health 
system, you can do okay. They'll send records down to your doc 
and, you know, pre--with this whole idea of the medical home, 
but if you have a surgeon outside of another network, it 
doesn't seem the systems are communicating with each other. 
Everybody's saying, ``Use my system.''
    What are we doing? How are you working to try to break 
through those adhesions so we can get to a point where we can 
allow consumers to be much better in helping them guide their 
health care and negotiate through the systems, whomever the 
health care provider is?
    Ms. Tavenner. I think what you're talking about with the 
issue of interoperability is one of our remaining challenges.
    You're right. We have strong systems within a system. 
Physicians and hospitals tend to work together well, but when 
we are moving across systems, that's still a challenge.
    And that's part of--as we look at Stage 3 of meaningful 
use, one of the big pieces that we are going to stress is this 
whole issue of interoperability.
    We have some pilots now. We have some examples. But the 
question is: How do we get that to the mainstream----
    Mr. Meehan. Do you have--I mean, can you give me some sense 
right now? Because that does appear to be and I think it's 
going to continue to be if we don't find a way.
    Because, look, people move. They're here today. My elderly 
will be down--they may go away for 2 or 3 months in the 
wintertime now to different physicians.
    Ms. Tavenner. So I see it happening in two ways. One 
obviously is with payment strategy because that tends to work. 
The second is with our certification requirements.
    So we'll be working with the Department, with HHS and CMS--
because this is kind of a two-group effort--to make sure that 
we put in our certifications and other requirements, those 
measures that will push interoperability. Because I agree with 
you. It's critical.
    Mr. Meehan. And from the perspective of the patients, then, 
are we doing more to be able--or how are you helping us to be 
able to understand what they're going to face in premiums or 
out-of-pocket costs or provider quality, in particular? How are 
you moving to be allowing the patient to become a better 
consumer?
    Ms. Tavenner. So that is--again, we spent a lot of 2014 
just helping people sign up, and now the second part is how do 
you educate those individuals who've signed up.
    So we have started work that we're doing. It started within 
CMS. We're now putting it more broadly out to the consumer.
    It's called From Coverage to Care, so helping people 
understand what deductibles are, what co-payments are, how 
they--one thing that's greatly misunderstood is that 
individuals don't pay co-pays and deductibles for preventive 
care and for other types of procedures that are preventive in 
nature.
    Mr. Meehan. Well, certain kinds. But, I mean, there's a lot 
of care----
    Ms. Tavenner. Yes.
    Mr. Meehan. --that they----
    Ms. Tavenner. Yes, there is.
    Ms. Meehan. --do. And, unfortunately, that's often when 
they're----
    Ms. Tavenner. Right.
    Mr. Meehan. --going to see the physician.
    Ms. Tavenner. So that's how we'll start. And we'll work 
with issuers, we'll work with advocates, to get the education 
out there to help people understand it. It's pretty 
complicated.
    Mr. Meehan. Well, it is complicated, and particularly for 
the consumers themselves. There's a lot more. I don't agree 
with the way the system's set up, but that is really 
fundamentally for working where we've got to make significant, 
significant improvements. And I hope you continue to focus on 
that----
    Ms. Tavenner. We are focusing----
    Mr. Meehan. --as a prospective direction.
    Ms. Tavenner. --on consumers. I agree with you.
    Mr. Meehan. Thank you.
    Chairman Issa. Would the gentleman yield?
    Mr. Meehan. Yes.
    Chairman Issa. I'm going to ask unanimous consent that the 
publication, ``Data-Mined: Numbers You Can Use,'' be placed in 
the record. Without objection, so ordered.
    Chairman Issa. Ms. Tavenner, I just want to make sure I get 
this right.
    According to this article, healthcare costs are up, as you 
said, about 3--you know, a little under 4 percent. But in order 
to get that figure, utilization is down.
    So the total amount of services dropped off and the costs 
per services went up, meaning if you need services, they went 
up a lot more than 3 percent.
    The cost of service, of total expenditure, didn't go up as 
much because people are essentially not buying as much. Isn't 
that true?
    Ms. Tavenner. I don't believe that's true.
    Chairman Issa. Do you know that it's not true or are you 
just saying that you just don't want to believe that? Maybe 
your staff can tell you that, in fact, this is pretty well 
authenticated.
    Ms. Tavenner. Well, I'd have to see the article. I haven't 
seen the article.
    Chairman Issa. So you don't know if, in fact, healthcare 
costs are up and utilization of services are down, particularly 
because people have higher out-of-pocket expenditures?
    Ms. Tavenner. Well, I----
    Chairman Issa. You don't know that, do you?
    Ms. Tavenner. If you'd let me finish my sentence, what 
we're seeing on the in-patient side is that in-patient 
admissions are down, which may mean more appropriate use of 
services, not necessarily that it's bad.
    Chairman Issa. Okay. So you know that services are--
quantity of services are down, and your conjecture is that it 
might be a good thing?
    Ms. Tavenner. I think it can be a good thing. Yes.
    Chairman Issa. Thank you. I'll accept that that's your 
conjecture.
    We now go to Mr. Gowdy for his 5 minutes.
    Mr. Gowdy. Thank you, Mr.----
    Chairman Issa. Oh. I'm sorry.
    Is the gentleman-- he yielded to me.
    Okay. Mr. Gowdy. Oh. Mr. Amash has returned.
    I apologize, Mr. Gowdy.
    Mr. Amash is recognized for 5 minutes.
    Mr. Amash. Thank you, Mr. Chairman.
    Thank you, Mr. Gowdy.
    I have a question for Dr. Gruber concerning tax credits.
    Dr. Gruber, at a conference in 2012, you said, ``If you're 
a state and you don't set up an exchange, that means your 
citizens don't get their tax credits.''
    That statement was consistent with other public statements 
you made, all of which expressed your belief that, if a State 
refused to set up an Obamacare exchange, the citizens of that 
State could not qualify for Obamacare tax credits, yet the 
administration has ordered the distribution of billions of 
dollars to persons who live in States that don't have state-run 
Obamacare exchanges.
    This executive action seems to conflict with your numerous 
past statements about how Obamacare works. There's a lawsuit 
before the Supreme Court on this issue.
    In your testimony this morning, you claimed that you 
misspoke repeatedly in your prior public statements. You say 
that, ``The point I believe I was making was about the 
possibility that the Federal Government, for whatever reason, 
might not create a Federal exchange.''
    You further explained this morning, in response to Mr. 
Connolly's question, that you think the administration can 
choose whether or not to create Federal exchanges in States 
that refuse to set up those exchanges. So if a State refuses to 
set up an Obamacare exchange and the Federal Government refuses 
to set up an Obamacare exchange, then citizens of that State 
can't receive Obamacare tax credits.
    Dr. Gruber, your new explanation of your previous public 
statements makes little sense.
    The law requires the Federal Government to create Obamacare 
exchanges in States that refuse to create the exchanges for 
themselves. Therefore, every State must have an Obamacare 
exchange either set up by the State or the Federal Government. 
If that's the case, then every State must have an Obamacare 
exchange.
    What did you mean when you repeatedly said that the 
citizens of some States may not qualify for Obamacare tax 
credits? Isn't it the case, as you said previously, that people 
who live in States without a state-run exchange consist receive 
Obamacare tax credits?
    Mr. Gruber. Once again, when I made those comments, I 
believe what I was saying was reflecting uncertainty about the 
implementation of a Federal exchange by January 1st, 2014.
    Mr. Amash. Are you suggesting that the law doesn't require 
the Federal Government to set up an exchange in States that 
don't have exchanges?
    Mr. Gruber. I don't recall exactly what the law says. What 
I'm saying is there were certainly----
    Mr. Amash. I'm sorry.
    You ran the economic model on Obamacare and you don't know 
what the law says?
    Mr. Gruber. In every single economic model I ran, I always 
assumed that exchanges--credits would be available regardless 
of whether the exchange is run by a State or the Federal 
Government.
    My comments in January of 2012 were reflecting the 
uncertainty about whether those Federal exchanges might be 
ready by January 2014.
    Mr. Amash. So you were paid hundreds of thousands of 
dollars to run an economic model on Obamacare and, yet, you 
were making statements that didn't reflect the actual language 
of Obamacare?
    Mr. Gruber. I made a series of statements which were really 
just inexcusable.
    Mr. Amash. All right. Thank you.
    Chairman Issa. Would the gentleman yield?
    Mr. Amash. I yield back.
    Chairman Issa. Would the gentleman yield?
    Mr. Amash. Yes.
    Chairman Issa. I just want to make sure I understand.
    We famously heard that you have to pass it to find out 
what's in it. So following up on Mr. Amash, at the time of its 
passage, were you aware that the language would have allowed 
your model not to actually be executed, in other words, that 
States were not going--if they chose not to--if even one State 
chose not to provide, the language explicitly was preventing 
that reimbursement and, thus, you'd have a different result? 
Were you ever given that information so you could run a revised 
model?
    Mr. Gruber. I was always modeling the availability of tax 
credits under the assumption they'd be available in all States.
    Chairman Issa. Okay. So you always modeled something that 
was different than the law and--but let me just go and do one 
quick thing while I've got the time.
    You're an author, and I've purchased one of your books. In 
that book, it's, ``Dr. Jonathan Gruber is a Professor of 
Economics at the Massachusetts Institute of Technology and 
Director of the Healthcare Program at the National Bureau of 
Economic Research. He was a key architect of Massachusetts' 
ambitious healthcare reform effort and consulted extensively 
with Obama Administration and Congress during the development 
of the Affordable Care Act. The Washington Post called him 
possibly the Democratic (party's) most influential healthcare 
expert.''
    Do you recognize that as being in your book?
    Mr. Gruber. Yes, I do.
    Chairman Issa. Okay. And then it--so if you--if you're an 
author, you put it in your book and you recognize it, do you 
stand by it?
    Mr. Gruber. Absolutely.
    Chairman Issa. So you are, in fact, a key architect of the 
act in Massachusetts under Governor Romney and that you did--
you did contribute extensively to the administration and to 
Congress?
    Mr. Gruber. I contributed an enormous amount of modeling 
and economic support to the administration and Congress. Yes.
    Chairman Issa. You can--it says ``and consulted extensively 
with the Obama Administration and Congress during the 
development of the Affordable Care Act.'' That's----
    Mr. Gruber. That's provided----
    Chairman Issa. And you quoted The Washington Post.
    And you stand by all of that.
    Mr. Gruber. I--I cannot stand by the Washington Post's 
opinion of my role in the Democratic party, but I can certainly 
stand by the fact that I provided an enormous numbers of hours 
in----
    Chairman Issa. Well, you put it in your book. Right?
    Mr. Gruber. I was quoting--it was a flattering quote to me 
and I put it in my book, but it's their definition, not mine.
    Chairman Issa. So you want to stand by something you put in 
a book, including the ``consulted extensively with the Obama 
Administration and Congress,'' but now you want to distance 
yourself from The Washington Post?
    Mr. Gruber. I'm just saying it wasn't my words. I put them 
in quotes because they're Washington Post's words.
    Mr. Smith. Oh. Oh, okay. So we'll--we'll let The Washington 
Post's credibility speak for itself. I thank you.
    We now go to Mr. Gowdy.
    Mr. Gowdy. Professor Gruber, what did you mean when you 
said, ``They proposed it and that passed because the American 
people are too stupid to understand the difference''?
    Mr. Gruber. When I said that, I was at an academic 
conference, being glib and, quite frankly, trying to make 
myself seem smart by insulting others.
    Mr. Gowdy. Are you offering the venue as a defense for--for 
saying it or for meaning it?
    Mr. Gruber. I'm offering it as a defense for using 
inappropriate and hurtful, inexcusable language to----
    Mr. Gowdy. Well, what did you mean by ``too stupid to 
understand the difference''?
    Mr. Gruber. Congressman, I didn't mean anything about it--
by it.
    Mr. Gowdy. Well, you said it. You had to have meant it.
    Mr. Gruber. I was, once again, being glib and trying to 
make myself seem smarter by reflecting----
    Mr. Gowdy. Well, what did you mean when you said it was ``a 
very basic exploitation of the lack of economic understanding 
of the American voter''? What did you mean by that?
    Mr. Gruber. Once again, it's another example of my 
inexcusable arrogance in trying to insult others to make myself 
seem smarter.
    Mr. Gowdy. Well, what did you mean when you said, ``The 
American people don't care about the uninsured''?
    Mr. Gruber. Once again, that was an overstatement of trying 
to conjecture on political topics on which I'm not an expert.
    Mr. Gowdy. Well, you know what, Professor Gruber? I have 
listened to you all morning talk about your lack of political 
acumen and that you're not a politician; so, therefore, you 
don't know not to call people stupid. Most of the people 
watching this morning aren't politicians and they don't call 
people stupid.
    And I can't help but note, Professor Gruber, in another one 
of your quotes, which I'll read to you, ``That was politically 
infeasible''--do you remember saying that?
    Mr. Gruber. Yes.
    Mr. Gowdy. So you do like to factor in the politics from 
time to time, don't you? And I also happen to note, Professor 
Gruber, that, usually, you insult the American voter, not the 
American public. So you do factor in politics, don't you?
    Mr. Gruber. I have tried--a number of occasions pretended 
that I know more about politics than I did.
    Mr. Gowdy. Do you think not being a politician is a 
defense? Is that your defense this morning?
    I mean, I know initially you said that you offered these 
comments at a conference--I think you meant conferences, 
plural, but you said conference--when you went on a very 
obscure television show and initially apologized for what you 
said were inappropriate comments.
    And now today your defense is that you're not a politician. 
Is that the best you can come up with?
    Mr. Gruber. The best I can come up with is to really just 
apologize for an inexcusable and----
    Mr. Gowdy. Well, but I want to know--I mean, the 
pervasiveness of your quotes is so much that it has to be more 
than that. It has to be more than just an episodic mistake that 
you made.
    Well, here. Let me keep going. See if this helps you any.
    What did you mean when you said you wished that you had 
been able to be transparent, but you'd rather have the law than 
not?
    Mr. Gruber. Once again, it was my trying to conjecture 
about a political process in which I'm not an expert.
    Mr. Gowdy. Well, what did you mean when you said it was 
written in a tortured way to make sure the CBO didn't score the 
mandate as a tax?
    Mr. Gruber. Once again, it was using inappropriate language 
to try to sound impressive about something to my colleagues.
    Mr. Gowdy. Do you see a trend developing here, Professor 
Gruber?
    Mr. Gruber. I don't understand the question.
    Mr. Gowdy. It's a lot of stupid quotes you've made. That's 
the trend.
    Mr. Gruber. A lot of----
    Mr. Gowdy. Do you see them?
    Mr. Gruber. --inexcusable quotes. Yes.
    Mr. Gowdy. Right.
    And, again, your defense is that you're not a politician. 
The lack of transparency is a huge political advantage.
    Well, what is a non-politician doing talking about 
political advantages?
    Mr. Gruber. A non-politician is talking about political 
advantages to try to make himself seem smarter by conjecturing 
about something he doesn't really know about.
    Mr. Gowdy. So you're a professor at MIT and you're worried 
about not looking smart enough?
    Mr. Gruber. Yes.
    Mr. Gowdy. Okay. Well, you succeeded, if that was your 
goal.
    Now, I want to ask you: Are you sorry--when did you realize 
that these comments were inappropriate? Because it took you 
about a year to apologize.
    So I'm trying to figure out if you realized sooner that 
they were inappropriate or--or was it just the morning before 
you went on MSNBC that you realized that it was inappropriate. 
When did you realize that these comments are indefensible and 
inappropriate?
    Mr. Gruber. I honestly didn't remember making them.
    Mr. Gowdy. You didn't remember calling your fellow citizens 
stupid and you didn't remember saying that you're the only 
person who cares about the uninsured and that the rest of your 
fellow citizen don't give a damn about the uninsured? You don't 
remember saying that?
    Mr. Gruber. I don't. Because they were really glib and 
thoughtless comments that I made.
    Mr. Gowdy. Well, Professor Gruber, let me just tell you 
what it looks like from this vantage point, is that you thought 
that they were really pithy and really funny until the video 
showed up. And then--even then it took you a little while to 
apologize.
    And what I'm struggling with is whether your apology is 
because you said it or because you meant it. Which are you 
apologizing for, because you said it or because you meant it?
    Mr. Gruber. I didn't mean it. I'm apologizing----
    Mr. Gowdy. All of these quotes that I just read to you, you 
didn't mean a single one of them, not a one?
    Mr. Gruber. What I've--what I said, Congressman, is that I 
was using glib, thoughtless, and really inexcusable language to 
try to----
    Mr. Gowdy. Well, you used them a lot. You used them a lot, 
Professor Gruber, which tends to undercut the notion that you 
were sorry for an episodic misstatement. I just read to you 
about ten.
    Do you see why people might possibly think the apology is a 
little disingenuous, maybe?
    I yield back, Mr. Chairman.
    Chairman Issa. Will the gentleman yield me just 10 seconds?
    Following up----
    Mr. Gowdy. Certainly.
    Chairman Issa. --on Mr. Gowdy, when you made these repeated 
comments, these glib, inappropriate comments, in an 
intellectual community with lots of other like-minded people, 
did anybody come up to you and tell you that what you were 
saying was inappropriate?
    Mr. Gruber. Not that I can recall. No.
    Chairman Issa. I guess what you said was popular in that 
community.
    We now go to the gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you very much.
    Dr. Gruber, you have the dubious distinction of having 
generated more buzz in the district that I represent than 
anybody but Eric Holder when coming up before this committee.
    And so I apologize if some of my questions are disjointed. 
Several of them come from Twitter, from folks who wanted me to 
ask you a question.
    One I got was, ``Why won't he answer the question?'' But 
I'm going to translate that more into--put my lawyer hat on and 
reask that.
    With respect to questions about the money that you made 
consulting on Obamacare from the both Federal and state 
government, you've constantly lawyered up or not answered the 
questions or not recalled. I want to be perfectly clear. This 
committee has government-wide jurisdiction. We are the taxpayer 
watchdogs.
    I am asking you right now flat out to provide a detailed 
list of every penny of taxpayer money that you have made from 
the Government consulting on Obamacare, be it from the Federal 
Government, be it from the State on a federally funded grant, 
or from a State.
    I am asking you to provide that within 30 days, and I would 
look forward to you providing it to the committee. And we'll 
work with Mr. Chaffetz, the incoming chairman, to subpoena that 
if it's not supplied voluntarily.
    So let me go on to some--a couple of questions.
    Do feel bad about taking all this money from Obamacare from 
people you call stupid?
    Mr. Gruber. The money that I received for my economic 
consulting work was compensation for the quality work I did in 
economics and modeling. And so I think it was appropriate.
    Mr. Farenthold. Okay. Do you--you worked--you had 21 
meetings at the White House. You met once in the President's 
office. You talked to him.
    Based on what--the information you provided, things you 
heard in this meeting, your--these meetings, and your general 
understanding, do you believe that the administration was 
truthful and transparent in the things they said working up to 
the passage of Obamacare, like, if you like your healthcare, 
you could keep it?
    Mr. Gruber. I believe that the discussion of the Affordable 
Care Act was fully transparent, and there was enormous 
discussion of many--of all of the aspects of the law.
    Mr. Farenthold. Do you feel like--well, now, you testified 
earlier that you knew there was going to be some churn.
    Do you feel like you were complacent in presenting the 
Affordable Care Act in a dishonest or untruthful manner? And is 
that something you would like to apologize for as well?
    Mr. Gruber. The numbers that I presented as part of my 
economic modeling to the administration and Congress were all 
to the--my best of economic--my economic modeling ability.
    Mr. Farenthold. But you knew some of the things that the 
administration were saying, some of the things in the debate, 
were not true.
    Why didn't you raise a red flag? Wouldn't that make you 
complacent?
    Mr. Gruber. I'm--I'm not a political advisor. It's not my 
job to discuss what the President's saying or not saying.
    Mr. Farenthold. Let me--just another question from Twitter.
    Did your insurance get more expensive? Are you paying more 
for it? Is your--did your deductible go up?
    Mr. Gruber. Health insurance costs in America have gone up 
every year for the past 50 years.
    Mr. Farenthold. Did yours go up substantially more when you 
fell under the Affordable Care Act than it had in past years?
    Mr. Gruber. No, it did not.
    Mr. Farenthold. Mine sure did.
    Let me see. Where else do I want to go?
    When you were talking to Mr. McHenry, you said that the 
Affordable Care Act did not solve the problem of rising health 
insurance costs. You went on to say that it was a first step. 
What are the next steps?
    Mr. Gruber. The next step really, in my view, is to learn 
from the first steps that are implemented by the Affordable 
Care Act, to learn what's working, what's not, and to try to 
build on that towards stronger cost controls in the long run.
    Mr. Farenthold. So if you were to sit down and write a 
new--Affordable Care Act 2.0, what would be the top two or 
three things you would want to include in it?
    Mr. Gruber. Right now the number one thing I would say is 
that we need some time to see what is happening with what we 
did in Affordable Care Act 1.0, to learn from that, and then to 
not be in a rush, but, rather, to sit down, having learned from 
that, and take the next necessary steps.
    Mr. Farenthold. Would you consider the ultimate solution to 
rising healthcare costs to be a single payer or government-run 
system--a completely government-run system?
    Mr. Gruber. I don't think there is a single ultimate system 
to rising healthcare costs.
    Mr. Farenthold. All right. And you've also been thrown 
under the bus by the President as just another--another 
advisor. I think I would be insulted by that, based on the--
certainly by the Washington Post article that, you know, said 
how--how key you were to that.
    Mr. Farenthold. You want to come clean and just tell us if 
you told them any of things that they were saying were untrue 
and who you told stop them? Kind of loops back into my--my 
complacency question. Could you have stopped some of those 
untruthful statements? And why didn't you? And would you like 
to apologize for not doing that?
    Mr. Gruber. I am not a political adviser.
    Mr. Farenthold. All right. Well, I'll yield back. Thank 
you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from the Massachusetts Institute 
of Technology, Mr. Massie--and Kentucky for that matter, too.
    Mr. Massie. Yes, Kentucky. It's been a bad few couple of 
months to be from MIT, thanks to one our witnesses.
    I've reviewed your extensive and impressive curriculum 
vitae. It's 17 pages long. And would it be accurate to say that 
you chose economics, particularly the field of economic models, 
to inform public policy as a--as part of your career?
    Mr. Gruber. Certainly one of the things I find appealing 
about economics is how it can make informed public policy.
    Mr. Massie. So you're in an a position of trust. You've 
been to the White House many times. You've met with the 
President. Could you tell us again what you met with the 
President about?
    Mr. Gruber. I had one meeting with the President. There 
were six experts and about 15 other members of the 
administration.
    Mr. Massie. And you were an expert on the--how to control 
the costs.
    Mr. Gruber. Yes. The actual costs and also to discuss 
healthcare reform in Massachusetts and how it worked.
    Mr. Massie. Was an Independent Payment Advisory Board part 
of the that discussion or is that something that you would be 
an expert on?
    Mr. Gruber. I don't believe the Independent Payment 
Advisory Board existed at that meeting.
    Mr. Massie. Okay. But you're very well aware of it and 
advise politicians on that.
    Mr. Gruber. I'm aware of the Independent Payment Advisory 
Board, yes.
    Mr. Massie. So given this position of trust and the fact 
that you take taxpayer money, I have a question for you.
    Have you had any ethics training at MIT or Harvard?
    Mr. Gruber. As a condition for receiving Federal grants, we 
have to take a human subjects test on ethical issues.
    Mr. Massie. And MIT has an ethics policy; correct?
    Mr. Gruber. Yes.
    Mr. Massie. So this is a little bit philosophical, what I'm 
going to ask you now. But you're a doctorate of philosophy, so 
to speak.
    Under what circumstances is it ethical to deceive someone 
for their own benefit?
    Mr. Gruber. I'm not aware of circumstances in which that's 
true.
    Mr. Massie. Could you imagine maybe an adult could withhold 
information from children for their own benefit?
    Mr. Gruber. Yes.
    Mr. Massie. Would there be ethical--now, so if you 
understand that, you understand why my constituents are so 
offended by your proposition that it's okay to deceive or 
obfuscate for somebody's benefit. Compounding the insult that 
you delivered to them is the fact that they pay your salary.
    So do you understand fully why it was so insulting? You 
patronized them. You were condescending.
    Mr. Gruber. I was, I agree.
    Mr. Massie. And my colleagues on the Democrat side of the 
aisle are upset with you simply because you committed candor. 
You said what you thought. You said what they were all thinking 
when they wrote Obamacare, that they knew what was best for my 
constituents.
    I submit to you my constituents are not your children they 
have the right of self-determination.
    So this gets me to another instance where you committed 
candor.
    In 1997, you coauthored a paper entitled ``Abortion 
Legalization and Child Living Circumstances: Who is the 
Marginal Child?''
    On page 20, you conclude that abortion legalization appears 
to be associated with an improvement in the average living 
circumstances and birth outcomes among a birth cohort.
    And on page 26, you state that your research indicates that 
the legalization of abortion saved the government $14 billion 
in welfare payments through 1994.
    Is providing more access to abortion, is that a worthy 
social outcome to achieve cost savings for the government?
    Mr. Gruber. That is not what my paper was about. It wasn't 
a philosophical paper. It was about empirical facts.
    Mr. Massie. Tell me what you meant by this sentence: By 
1992, all cohorts under the age 18 were born under legalized 
abortion, and we estimate steady State savings of $1.6 billion 
per year from positive selection.
    What did you mean by ``positive selection''? Because in 
this paper, you're talking about providing more access to 
abortions to a socioeconomic strata of our constituents.
    Mr. Gruber. What the paper did was look at----
    Mr. Massie. What did you mean by ``positive selection'' in 
abortions?
    Mr. Gruber. In that paper, we were studying the 
characteristics of children who were born before and after 
abortion was legalized. By comparing those characteristics, you 
can infer the characteristics of the kids who were not born.
    Mr. Massie. So what you inferred I find chilling. What you 
inferred is that if we reduce the number of people or children 
born, life will be better for the rest of us still living. 
Specifically, you seem to suggest that if we eliminate or 
reduce the number of poor people that are born, this will make 
life better for all Americans.
    And this gets me to my final point, which is, the 
Independent Payment Advisory Board. My constituents fear that 
this is, in fact, a method by which Obamacare will ration 
healthcare for the elderly and, therefore, implement cost 
savings for Medicare.
    So my question to you is, does your philosophy on abortion, 
that it can save money and improve outcomes, have any 
implications in the realm of end-of-life care?
    You argue that abortions of poor children raise the average 
living circumstances in your paper for the rest of us and save 
the government money.
    So, Dr. Gruber, if there are fewer elderly people, 
particularly poor elderly people, wouldn't that save a ton of 
money, too? As an economist, wouldn't you think that would save 
them money, too? And do you understand the dangerous 
implications of going down this path?
    Mr. Gruber. I have no philosophy of abortion. I have no 
philosophy of end-of-life care. My job as an economist is to 
deliver the empirical facts so that you all can make the 
necessary----
    Mr. Massie. What would your facts be on the elderly?
    Mr. Gruber. I don't understand the question.
    Mr. Massie. The end-of-life care. Do you advocate that the 
Federal Government should ration that?
    Mr. Gruber. No, I do not.
    Mr. Massie. As an economist, would it save money?
    Mr. Gruber. I do not advocate the Federal Government should 
ration end-of-life care.
    Mr. Massie. Thank you. I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the very patient Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. And it has been a 
privilege to serve under your leadership, truly an honor.
    Dr. Gruber, I'm going to come to you because you have made 
over 20 statements this morning that you are not political. And 
yet I think the American people that are viewing this this 
morning, they would see your testimony is political. It is 
contrived. It is orchestrated and, honestly, not transparent.
    You have prepared for this testimony this morning with your 
counsel. Is that correct?
    Mr. Gruber. Yes.
    Mr. Meadows. How many hours does it take to be transparent 
and honest of preparation? How many hours of preparation does 
it take to be honest and transparent with the American people?
    Mr. Gruber. I don't understand the question.
    Mr. Meadows. Why would you have to practice your testimony 
in order to give an honest, transparent answer to the questions 
posed to you today?
    Why would you have to practice? Because you have practiced 
because you said the exact same thing, ``glib,'' those words, 
you know, they are not heartfelt. You've practiced that, 
haven't you?
    Mr. Gruber. I have practiced, but I disagree that they are 
not heartfelt.
    Mr. Meadows. Okay. So let me ask you about your economic 
model. Because you said it was accurate. So how many in your 
economic model, how many Americans would lose their health 
care, could not keep their plan, as the President promised, 
under your economic model?
    Mr. Gruber. I don't recall the exact number.
    Mr. Meadows. So you can recall all these other figures, but 
you can't recall that one?
    Mr. Gruber. No, I can't----
    Mr. Meadows. Okay. Can you get that to us?
    Mr. Gruber. Once again----
    Mr. Meadows. Oh, you don't want to get that to us.
    Mr. Gruber. Once again, that depends on----
    Mr. Meadows. Can you get us the number in your economic 
model of those that were not going to be able to keep their 
health care? Simple yes or no.
    Mr. Gruber. I don't know.
    Mr. Meadows. So you don't have it in your model.
    Mr. Gruber. I don't know whether I can or not. You'll have 
to take that up with my counsel.
    Mr. Meadows. Mr. Chairman, I see this witness as being very 
reluctant to give honest answers. And it is very troubling, not 
just to me but to the American people.
    Ms. Tavenner, I'm going to go to you, because the 
administration didn't want you to sit beside Mr. Gruber because 
they were afraid that his lack of transparency would be 
contagious, I guess, or you would be viewed in a different 
model.
    I'm troubled because I asked you some questions at the last 
time you appeared before this committee. And I asked you at 
that particular time about a rollout. And we went back and 
forth, and why did you not delay it?
    And your response to me, it says from Ms.--Well, I didn't 
think it was possible the way the FFM was configured to do 
that, nor did I think it was necessary.
    Do you stand by that today?
    Ms. Tavenner. I stand by the fact that I felt we were in 
good position to roll out last October.
    Mr. Meadows. Okay. I'm in--and I'd ask if you could put up 
the slide, if the staff could put up the slide.
    I'm in possession of an email stream from your second in 
command and Mr. Todd Parks that goes back and forth. This email 
stream was less than 48 hours before rollout. It was on 
September the 29th. And in that, it says, Just so we're clear, 
Ms. Tavenner decided in January that we were go going to go no 
matter what. It goes on even further to say, Hence the really 
cruel, uncaring march that has occurred since January when she 
threatened me with demotion or forced retirement if I didn't 
take it on.
    Are you familiar with this email?
    Ms. Tavenner. I was not copied on that email. I have since 
seen that email.
    Mr. Meadows. All right. So your number two person--because 
in the email stream, if you've read all the stream, it was 
indicating that you weren't ready and yet it didn't really 
matter.
    Ms. Tavenner. I don't happen to agree with that.
    Mr. Meadows. So it does matter.
    So, in that same email stream, We were putting together 
hardware--we were installing hardware less than 48 hours before 
a rollout, so we wouldn't have a crash on the rollout day.
    Did you not see that as troubling, that we were installing, 
with less than 48 hours to go, we were installing hardware that 
wouldn't be tested?
    Ms. Tavenner. We were installing hardware to increase 
capacity.
    Mr. Meadows. Right. I got the numbers.
    And so but you don't see that that's troubling when you're 
rolling something out that you wouldn't be ready when you're 
going to put in a piece of hardware just less than 48 hours.
    Ms. Tavenner. We had tested and we were increasing our 
capacity to handle more volume.
    Mr. Meadows. And so this Ms. Snyder, is she with you today, 
or she was forced to retire?
    Ms. Tavenner. She was not forced to retire. In fact, I--
during the time----
    Mr. Meadows. Did she retire?
    Ms. Tavenner. She has retired. Her choice.
    Mr. Meadows. She just was not forced to retire.
    Ms. Tavenner. She wasn't forced to retire.
    Mr. Meadows. Let me close by this. I sent your staff the 
information with regards to almost 4 million people that if 
they do not re-enroll will get hit with the tax bill, some 10 
to 12 months from now if they do not--because their benchmark 
plan has changed.
    Are you notifying those almost 4 million people that they 
may get a tax bill if they do not re-enroll? Individually.
    Ms. Tavenner. We are individually notifying folks about----
    Mr. Meadows. That is funny. Because I have 17 counties I 
represent and not a single one of them have gotten individually 
notified that they are going to get a tax bill.
    Ms. Tavenner. So they are individually notified--I did not 
get a chance to finish my sentence.
    Mr. Meadows. I'm sorry.
    Ms. Tavenner. They have been individually notified that 
they need to come back in to return to the marketplace to 
update their information and make sure that, A, their 
information is current, and, B, that they're selecting the 
plan.
    Mr. Meadows. That is a general marketing thing. You already 
responded to that.
    Ms. Tavenner. No, it's not a general marketing. It's an 
individual letter and phone calls to folks.
    Mr. Meadows. But, individually, you know who is not--who is 
going to get a tax bill--you know that today--if they do not 
re-enroll. So why do we not notify them that if they 
automatically renew, they will get a tax bill?
    Ms. Tavenner. Well, first of all, I don't know that that's 
necessarily true.
    Mr. Meadows. Well, talk to Dr. Gruber. Because it is a part 
of the plan that your premium, the rebate you get, whether your 
income changes or not, is based on selecting the benchmark 
silver plan. If the benchmark plan changes--and I would think 
that you would know that you're over this--if the benchmark 
changes, then indeed what the amount of money that you get back 
will be incorrect.
    Ms. Tavenner. So the benchmark is just one thing that 
changes, right? There's lots of other things that could change 
that would change your tax liability or your tax surplus.
    Mr. Meadows. I understand that. But what I am saying is 
someone who makes the same amount of money, stays on the same 
plan, got a rebate this last 11 or 12 months, they will get a 
tax bill unbeknownst to them by doing nothing.
    Ms. Tavenner. I think that you're assuming--I assume you're 
talking about 2016, not 2015.
    Mr. Meadows. So this open enrollment period right now.
    Ms. Tavenner. That's not true.
    Mr. Meadows. Why is it? Because I'm all ears. I want to 
tell the folks.
    Ms. Tavenner. First of all, the individuals who signed up 
in 2014, if they have a tax liability or tax credit, that will 
be in April of 2015.
    Mr. Meadows. I understand that.
    Ms. Tavenner. Individuals that you're talking about now who 
are signing up for 2015, if they were to have a tax liability 
at all, it would be in April of 2016.
    Mr. Meadows. That's correct. That's what I'm saying. 
They're going to get a tax bill if they do automatically renew, 
by February, if they don't----
    Ms. Tavenner. Not necessarily. It depends on what's going 
on with the individual.
    Mr. Meadows. So they could change their plan after 
February.
    Ms. Tavenner. They cannot change their plan after February. 
But whether or not they have a tax liability is going to depend 
on each individual. Which is why what you are trying to say is 
a part of what we are stressing to individuals: Come back, 
update your information, look at a plan, shop, select.
    But every--when they did their original plan, they also 
understood that they are to update income, changes in family 
circumstances. There's lots of things that can affect.
    Mr. Meadows. I understand that.
    Ms. Tavenner. That's all I'm saying.
    Mr. Meadows. But what I am saying is the benchmark plan in 
the counties I represent will change because it's a different 
carrier. If they do not go in and select the new plan, their--
--
    Ms. Tavenner. First of all, if they don't select a new 
plan, we don't move them to a new carrier.
    Mr. Meadows. Right. They will be automatically renewed.
    I appreciate the patience of the chair.
    Chairman Issa. I appreciate the gentleman from North 
Carolina. I think the gentleman made the point that every 
American has to, independent--because he's not--he or she is 
not getting this information from CMS--they have to 
independently ask whether or not they are getting into a tax 
booby trap, into a tax land mine by just automatically 
renewing. And I think the gentleman's point is good.
    I'm afraid Ms. Tavenner doesn't want to admit that some 
people are simply not going to know. And she said, rightfully 
so, well, it's their responsibility.
    Well, it was never somebody's responsibility to know that 
they might be getting into a tax consequence before the 
Affordable Care Act. They now need to know that.
    We now go to the gentleman from Michigan, Mr. Bentivolio.
    Ms. Tavenner. Could I answer that? Because I think----
    Chairman Issa. No, ma'am, you may not. There was no 
question there. Honest. I was simply talking.
    Ms. Tavenner. There's a piece of it missing.
    Chairman Issa. I was talking to the gentleman--we'll give 
you plenty of time. We're not going to end this thing until 
you've had all your say, ma'am.
    The gentleman from Michigan.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Mr. Gruber, Ph.D. from MIT. Correct?
    Mr. Gruber. No. My Ph.D. is from Harvard University.
    Mr. Bentivolio. Harvard. Another prestigious school as 
well. And you teach at MIT?
    Mr. Gruber. Yes, I do.
    Mr. Bentivolio. Very prestigious school.
    Myself, I graduated from a small college. My dad was a 
factory worker. I had to work my way through college. But I 
understand, very prestigious and congratulations.
    But I want to go back. Earlier, there were some people on 
the--you as well as Members of Congress stating that this was a 
very transparent, this bill. And yet from the very beginning, 
if I remember correctly, a lady got out up in front of the 
floor of the Congress, and she said you got to pass it before 
you can see what's in it. Do you remember who that was.
    Mr. Gruber. I believe that's a quote attributed to Nancy 
Pelosi.
    Mr. Bentivolio. Correct. Thank you.
    And yet it was 2,700 pages, original act. And if you read 
that 2,700 pages, you're going to see a lot that says ``to be 
determined'' in that bill. So the bill wasn't really complete.
    So how can you have a bill, pass a bill before you can see 
what's in it, and call that transparent? Because I didn't get 
to see it--well, I wasn't here, but other Members of Congress 
really couldn't see that.
    And then we find out now that, while we were told that you 
can keep your insurance and you like it, and we know that's a 
lie. You can keep your doctor, and we know that's a lie. And 
you can keep your hospital, and that's a lie. Lies on top of 
lies.
    And it is not really about health care either. It's a tax. 
Premiums will be lower. And yet they are higher. Another lie.
    So let's backtrack. You apologized today for some comments 
you made in the video. Correct?
    Mr. Gruber. Yes.
    Mr. Bentivolio. And several times here you said you 
apologize for insulting others to make yourself look smarter or 
better than others. That's paraphrasing, but that's pretty much 
what you said. Is that correct?
    Mr. Gruber. Yes.
    Mr. Bentivolio. You want to repeat what you actually said? 
Go ahead.
    Mr. Gruber. No. What you said is a good paraphrase.
    Mr. Bentivolio. Pretty good. So let's be clear. You did not 
apologize for helping the administration deceive the American 
people on this healthcare act or for telling America the truth 
in your video comments about how it was a fraud upon the 
American people. Is that correct, sir?
    Mr. Gruber. I think the Affordable Care Act was passed in a 
highly transparent fashion with hundreds of hours of debate.
    Mr. Bentivolio. But every single thing they promised was a 
lie. How can you call that transparent? You didn't say, Well, 
what we're about to do for you is not going to really do you 
any good, you're not going to be--you're not going to keep your 
doctor, you're not going to keep your hospital, your premiums 
are going to go up. Why didn't you say that? You were the 
architect, one of the architects. You created the model. Is 
that model flawed?
    Mr. Gruber. I did economic microsimulation modeling that I 
believe----
    Mr. Bentivolio. Simulation. So you actually created the 
model to justify their conclusions.
    Seems about what you did--I mean, you're a lot smarter than 
I did.
    Now here's an opportunity for you to come clean. Lies on 
top of lies. This is what you have done. You have been a 
coconspirator in defrauding the American people, and you 
admitted it in two videos and comments that I saw on TV. And I 
saw some here today.
    In helping this administration deceive our citizens you 
received grants and contracts from the government, for either 
the Federal Government or the States. Was it closer to $2.5 
million or $2.8 million you received over the course of 
implementing this Obamacare?
    Mr. Gruber. I don't recall the exact figures.
    Mr. Bentivolio. You're an economist. You know the quotes. 
You said in the book you wrote, you know how to balance a 
checkbook, you know how to read a balance sheet. Was it $2.5 or 
$2.8 million or more? Plus or minus $100,000.
    Mr. Gruber. Once again, I don't recall the exact amount.
    Mr. Bentivolio. You know what? It's about, lies, half 
truths, and distortions.
    Why are you continuing to help this administration deceive 
the American public?
    With that, Mr. Chairman, I yield back.
    Chairman Issa. If I could have the time for just these 40 
seconds. And I thank the gentleman.
    You keep saying you don't recall. Do you not recall any 
numbers at all? I haven't seen a number you can recall since 
you gave us that approximately $400,000 in your opening 
statement.
    You're an economist. You work with numbers. Why is it that 
every question that comes from this side of the dais we get a 
``don't recall,'' Mr. Gruber?
    Mr. Gruber. The $400,000 is the number I recall very well 
because it's been may very public. The other contracts and 
other things I received from States and the Federal Government 
are numbers I don't have at my fingertips but numbers that, you 
know, the committee can discuss with my counsel about what's 
appropriate to reveal.
    Chairman Issa. You know, you're making it very obvious that 
we're not only goingto have to discuss with your counsel, we're 
going to have to serve a subpoena. We're going to have to 
demand these numbers. Because you're not even giving us a fair 
estimate of the approximately $4 million that you said--you 
said in your earlier statement, well, this is excess and it 
didn't all come to me.
    But you haven't answered one question about grants and 
contracts. I never knew anyone in business who got even a small 
amount of something that didn't know about the grant or the 
contract gross value and then what they got from it. And it's 
amazing that you haven't given us one number since that chosen 
amount. And that is a little disturbing.
    And I will caution you one last time as these individuals 
ask their questions that the goal was to get completed here 
today with sworn statements about numbers, to the best of your 
recollection--approximate was good enough. But, you know, the 
fact that every answer is, Well, discuss with my lawyer, puts 
this committee in a position where it is very clear we're going 
to have to do more discovery. And likely you're going to be 
back here again under the new chairmanship.
    So, Mr. Bentivolio, did you have one last question?
    Mr. Bentivolio. Thank you very much, Mr. Chairman. Just one 
last question.
    I understand, according to Supreme Court, this is a tax. 
Correct? It's a tax.
    Mr. Gruber. As I said earlier, I don't believe the 
individual mandate is a tax.
    Mr. Bentivolio. Okay. But it's a tax for failing to engage 
in commerce. Because if I don't engage in Obamacare, go on the 
Web site, I'm going to be taxed or fined. Correct?
    Mr. Gruber. The individual mandate assesses a penalty on 
you if you don't provide health insurance unless you meet 
certain exemption criteria.
    Mr. Bentivolio. I'd like to find some other examples of 
somebody being taxed for failing to engage in commerce. It's 
kind of like me going into my local grocery store, walking 
around and not buying anything, and a Federal agent is outside 
the grocery store saying, Hey, we're going to tax you because 
you didn't buy anything in that store.
    Thank you very much, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Florida, Mr. DeSantis.
    Mr. DeSantis. Professor Gruber, would you deny--it's been 
reported that you have received $3, $4 even $5 million with 
your contracts from the various State governments. Many of them 
$400,000, $500,000 a pop.
    Are you saying you have no recollection of that? And do you 
deny those reports?
    Mr. Gruber. What I'm stating is the amounts that been 
reported are greatly in excess of what I received in particular 
through Federal grants. But I don't know the exact----
    Mr. DeSantis. Is it in the millions, though?
    Mr. Gruber. Once again, I don't know the exact amounts.
    Mr. DeSantis. Look, you really further undermine your 
credibility. I would think you would be able to give us a 
ballpark. I mean, it's going to be subpoenaed. We'll go through 
the exercise. The American people will eventually get the 
truth.
    This idea of you denying that you're the architect of 
Obamacare. I'm just wondering, you know, you've been lauded in 
the press in the past as the architect. There's an article in 
the New York Times 2012 dubs you ``Mr. Mandate.'' There's a 
quote from it that said, ``After Mr. Gruber helped the 
administration put together the basic principles of the 
proposal, the White House lent him to Capitol Hill to help 
congressional staff members draft the specifics of the 
legislation.''
    So that's more than just providing some numbers.
    And so the question is if what you're saying is true today, 
that you're not really the architect of the law in any real 
sense, did you tell any of those reporters that they were 
inflating your role back in 2009, 2010, 2011, and 2012?
    Mr. Gruber. Yes, I did tell the reporters they were.
    Mr. DeSantis. And were there any corrections ever made to 
the record?
    Mr. Gruber. I don't know.
    Mr. DeSantis. Okay. Because this is pretty consistent media 
treatment.
    Now, you testified that the comments about eligibility for 
tax credits if the State didn't create an exchange, that you 
made that comment because you weren't sure the Federal 
Government would actually set up an exchange. And that was in 
Falls Church, Virginia, January 2012.
    And that's your explanation for that. Correct?
    Mr. Gruber. As I said at the time, I don't recall exactly 
what I meant when I made that statement. Looking back at the 
video and thinking about how I could have made that statement, 
I believe that's what I had in mind.
    Mr. DeSantis. Because, it's interesting, if you go further 
on in your comments, you say, ``The Federal Government has been 
sort of slow in putting out its backstop. I think''--meaning 
you think--``partly because they want to sort of squeeze the 
States to do it.''
    So that was the comment that you made. And so even under 
that construction, you're saying that the Federal Government is 
deliberately slowing the creation of the exchange so that more 
States will do it, ergo, there must be a consequence for the 
States if they do not do that.
    So I don't think your explanation here today really 
resolves that. I think you still have made comments from your 
perspective in terms of what you want to do politically are 
still problematic.
    With some of the other comments you were making with this 
lack of transparency, I just want to be clear. What you were 
trying to say, I think, is that the bill is convoluted. You 
agree it's a very confusing statute. Correct?
    Mr. Gruber. It's a very complicated piece of legislation.
    Mr. DeSantis. And the reason why it had to be written that 
way is, if you were straightforward about imposing costs on one 
American and then giving benefits to other Americans, that 
would have run into political difficulty.
    And so the costs are still being shifted to other 
Americans, but they're being shifted under Obamacare indirectly 
in a way that essentially masks what's happening.
    Is that--is that basically the deal?
    Mr. Gruber. That is a very broad statement. I generally 
don't agree with what you just said.
    Mr. DeSantis. So you don't believe that Obamacare's 
convoluted nature serves to mask the true costs to individual 
policyholders?
    Mr. Gruber. No, I do not.
    Mr. DeSantis. So when people are paying more for their 
premiums--and you did a report to Wisconsin in 2011, and you 
estimated, even though you had said in 2009 that premiums would 
go down across the board under Obamacare, your report to 
Wisconsin in 2011 said actually individual market premiums will 
go up on average 30 percent relative to what they would have 
been had Obamacare not been passed.
    Mr. Gruber. The report I did for Congress was interpreting 
CBO numbers, not my own, which discussed the fact that premiums 
would rise----
    Mr. DeSantis. But the report to the State of Wisconsin said 
that they were going to rise. Correct?
    Mr. Gruber. After tax credits, they fell on average. That's 
what my report showed in Wisconsin.
    Mr. DeSantis. You said the average premium. Most Americans 
don't get tax credits, though. So the average premium increased 
in Wisconsin. Correct?
    Mr. Gruber. That was referring to individual market in 
which most--most Wisconsinites will get tax credits.
    Mr. DeSantis. But many of them won't.
    So thank you. I yield back.
    Chairman Issa. Thank you.
    We now go to Mr. Collins for his round of questioning.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate the time 
and the opportunity to be here.
    Mr. Gruber, words cannot express today basically I, 
frankly, didn't think it could get worse. Congratulations. You 
got worse. Coming in here with the attitude that you've had and 
I talk to my attorney about money I've earned.
    Did you actually file a tax return last year? Did you 
actually have to qualify your income?
    Frankly, I and the American people--I am good to know one 
thing that--and my implication of voters who did not like the 
Obamacare plan, did not vote for it, were probably not the 
stupid ones. And so my district, which voted against the 
President almost 80 percent, is full of what you would consider 
nonstupid people. I'm done with you.
    Ms. Tavenner, got a couple of questions. And I'm going to 
go fairly quickly here. Let's run through these.
    How much money was paid to insurers under the Affordable 
Care Act program known as to the cost-sharing reduction program 
in fiscal year 2014?
    Ms. Tavenner. I don't have that information----
    Mr. Collins. Were you not briefed?
    Ms. Tavenner. On the cost-sharing payment?
    Mr. Collins. How much money was paid in 2014?
    Ms. Tavenner. I have not been briefed on that, no.
    Mr. Collins. You do not have reports that could get you 
that information?
    Ms. Tavenner. I can get you that information.
    Mr. Collins. Are you in charge of this program?
    Ms. Tavenner. I am in charge of this program.
    Mr. Collins. And you do not know how much is paid out?
    Ms. Tavenner. I do not have that with me today.
    Mr. Collins. Do you have someone that can find that 
information while they are handing you notes from behind?
    It is amazing to me you run a program that is this large 
that you can't answer questions. You and Mr. Gruber don't need 
to sit beside each other because it is wearing off.
    Number two, how much money is paid to insurers under the 
cost sharing program reduction--Cost Sharing Reduction Program 
in fiscal year 2015 to date?
    Ms. Tavenner. I don't have that information.
    Mr. Collins. Are you not briefed with this? Did you not get 
a spreadsheet, a monthly spreadsheet?
    Ms. Tavenner. I will be glad to get you that information.
    Mr. Collins. Not my question. Answer my question. Do you 
get a briefing on this?
    Ms. Tavenner. Do I get a briefing----
    Mr. Collins. Do you get a briefing that resembles something 
of this effect where they are actually asking for it on a 
regular basis?
    Ms. Tavenner. I do get briefed.
    Mr. Collins. Okay. Do you listen during those briefings?
    Ms. Tavenner. I try to listen. I have a lot of information 
to listen to----
    Mr. Collins. So do I. So do I. But when you're also 
subpoenaed--brought here to a hearing----
    Ms. Tavenner. I was not subpoenaed.
    Mr. Collins. You came in voluntarily. Thank you for that.
    Ms. Tavenner. Thank you.
    Mr. Collins. But the problem we have here is there seems to 
be when we get here, we only want to answer the questions we 
want to answer; -not questions that are part of your regular 
job.
    Let's continue on. The Wall Street Journal recently 
reported that insurers participating in the 2015 ACA exchanges 
insisted that their contracts contain a clause permitting 
termination of contracts if the cost-sharing payments or 
refundable tax credit payments cease.
    Number one, is this report accurate?
    Ms. Tavenner. There is information in the contract, and 
I'll be glad to get you that.
    Mr. Collins. So that would be yes?
    Ms. Tavenner. I believe I said, yes.
    Mr. Collins. No, you didn't.
    Who negotiated these contracts with the insurers?
    Ms. Tavenner. It's done by staff and attorneys within CMS.
    Mr. Collins. I didn't hear your mic on.
    Ms. Tavenner. It is done by staff and attorneys within CMS.
    Mr. Collins. Do you approve those?
    Ms. Tavenner. I do not approve individual contracts, no.
    Mr. Collins. Will you provide for this committee the names 
of those who negotiated these contracts with the attorneys?
    Ms. Tavenner. I would be glad to get you information.
    Mr. Collins. And I'm--and I'm going to just ask the 
question not to honestly be funny here, but I do, given the 
glacier pace of response on other things, and also the fact 
that you when testify before Energy and Commerce, they are 
still waiting for numbers from you, do we need to go ahead and 
subpoena this information now?
    Ms. Tavenner. I believe I've gotten you information as 
you've requested it.
    Mr. Collins. You never--I've never requested information 
from you, Ms. Tavenner. I'm looking at your history.
    Ms. Tavenner. This committee.
    Mr. Collins. So let me ask the question point blank. Will 
you get it in a timely manner, not glacial pace, not biblical; 
within the next few days?
    Ms. Tavenner. I will get you the information as soon as I 
can.
    Mr. Collins. Do I need to subpoena them?
    Ms. Tavenner. You have not needed to subpoena me in the 
past.
    Mr. Collins. We just have to wait forever.
    When were these contracts negotiated?
    Ms. Tavenner. These contracts were negotiated over the 
summer. I have to get you the specific dates.
    Mr. Collins. Okay. Please include that in your information.
    Did every insurer participating in the 2015 ACA exchanges 
receive such a clause in their contract?
    Ms. Tavenner. I believe the contracts were consistent, but 
I'll get you that information.
    Mr. Collins. Okay. Will you provide a copy of all these 
contracts?
    Ms. Tavenner. I will work with you. I will have to talk 
with our counsel. But unless there's a reason not to, yes, we 
will get you contracts.
    Mr. Collins. And without being editorialize here, why would 
there not be a reason to provide these contracts?
    Ms. Tavenner. I don't know that there is. I said I would 
work with you.
    Mr. Collins. Okay. Again, we're having--is it--maybe it's a 
disconnect between here and there. And, honestly, I'm not 
trying to be argumentative at this point.
    But you actually do work for the government. You do work 
for an agency that is under jurisdiction of this committee, 
under this oversight provision of transparency and everything 
else.
    Why would you even have to hesitate on providing contracts 
that are public moneys were spent on to this committee?
    Ms. Tavenner. I don't think I would. I just ask that I 
would be able to ask that question.
    Mr. Collins. To who? You run the department.
    Ms. Tavenner. Counsel. I'm not an attorney.
    Mr. Collins. Well, that's not a bad or good thing. My 
question is, you run the department.
    Ms. Tavenner. I run CMS, yes.
    Mr. Collins. How many attorneys do you have working for you 
besides the ones that came with you?
    Ms. Tavenner. I don't have any attorneys here with me.
    Mr. Collins. Okay. Maybe there's our problem.
    All right. But, again, I'm not sure why we can't answer 
that question.
    Let me reverse back. We know when we've determined that you 
do get briefings on insurers asking for Federal Government to 
pay for them under cost-sharing reduction. CMS asked insurers 
to submit on a monthly basis pre-populated Excel spreadsheets 
that contain this information. Correct?
    Ms. Tavenner. That is correct.
    Mr. Collins. Thank you. The amount the insurers asked the 
Federal Government to pay them under cost-sharing reductions is 
an individual line item on the spreadsheets. Is that correct?
    Ms. Tavenner. I believe that is correct.
    Mr. Collins. Thank you. Wait. I had one question here.
    There is an issue here--and I want to go back to a 
question. It says who made--I want to know who made the 
decision not to request appropriations for cost-sharing 
reductions program for fiscal year 2015.
    Ms. Tavenner. That is not within my purview. I can't answer 
that question.
    Mr. Collins. Do you not have to adjust and spend the money 
out of--that was supposedly appropriated for this program?
    Ms. Tavenner. I do not--that is done through our financial 
department. I'll be happy to get you that----
    Mr. Collins. Can you provide any--so would your financial 
department have participated in a decision not to ask for 
appropriations in 2015?
    Ms. Tavenner. I don't have that. I'll be glad to get you 
that information.
    Mr. Collins. Okay. So, again, you--under your leadership, 
this is a department that is basically going rogue and doing 
their contracts that don't report back to you or budget items.
    Ms. Tavenner. I will be happy to get you that information.
    Mr. Collins. That must hard to say every time. When I know 
you--you understand this. It must be that difficult.
    Who did participate, and will you provide those names?
    Ms. Tavenner. I have told you I will get you that 
information.
    Mr. Collins. Is there anyone outside that we need to ask? 
Was this OMB? Treasury? White House? Anyone else who would have 
determined not to ask for appropriations for this program in 
fiscal year 2015?
    Ms. Tavenner. Once again, I will go back and try to get you 
the information----
    Mr. Collins. So you have no idea when these meetings even 
took place. Would that be a fair statement?
    Ms. Tavenner. I cannot answer your question. I will try to 
get you that information.
    Chairman Issa. Gentleman's time has expired.
    We now go to the gentlelady from Wyoming, Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. And thank you for 
your leadership these past couple of years. Appreciate your 
hard work on this committee.
    Dr. Gruber, did you participate in the scoring aspect of 
the Affordable Care Act?
    Mr. Gruber. I provided economic microsimulation results to 
the administration and Congress to help understand the costs 
and coverage effects of the law, but I did not provide any 
official scoring.
    Mrs. Lummis. You have stated that the ACA was written in a 
way, a tortured way, so CBO would not score it as a tax.
    Now, how did the administration use your information to 
write the ACA in a tortured way so CBO would not score it as a 
tax?
    Mr. Gruber. Once again, I apologize for my inopportune, 
just inappropriate terminology. But I----
    Mrs. Lummis. Well, but they didn't score it as a tax. 
Right?
    Mr. Gruber. The administration--I did not draft 
legislation----
    Mrs. Lummis. How did you do it? How did you get CBO to not 
score it as a tax, knowing that at some point you might have to 
get the U.S. Supreme Court to say it was a tax? How did you do 
it?
    Mr. Gruber. I don't run CBO. I didn't draft the 
legislation.
    Mrs. Lummis. What does CBO stand for?
    Mr. Gruber. Congressional Budget Office.
    Mrs. Lummis. And what is scoring?
    Mr. Gruber. It's the method by which the Congressional 
Budget Office estimates the effects of legislation on things 
like the Federal budget.
    Mrs. Lummis. You have said, in 2012 remarks at Noblis, that 
you wrote part of Obamacare yourself. What parts did you write 
yourself?
    Mr. Gruber. If I said that, that was, once again, an effort 
to seem more important than I was. I drafted----
    Mrs. Lummis. Why would you say you wrote part of Obamacare 
yourself, and you're the numbers guy. They used your modeling. 
And they knew they might have to convince the U.S. Supreme 
Court that it was a tax and convince the Congressional Budget 
Office, for scoring purposes, that it was not a tax. How did 
you do that?
    Mr. Gruber. Ma'am, once again, I did not write any part of 
the Affordable Care Act.
    Mrs. Lummis. Why did you say in 2012 explicitly that you 
wrote part of Obamacare yourself?
    Mr. Gruber. I was speaking glibly----
    Mrs. Lummis. How many nonpoliticians know what CBO is? How 
many nonpoliticians know what scoring is? How many 
nonpoliticians would know that you have to get by CBO scoring 
in order to get the Affordable Care Act to say that it's going 
to lower costs?
    You are a politician. Everything that has led up to your 
testimony today is inconsistent with your testimony today, 
which is to say all of your prior statements were a lie. Is 
that true? Were all of your prior statements a lie? Or were 
they just glib?
    Mr. Gruber. They were not a lie.
    Mrs. Lummis. I want to change subjects and visit with Ms. 
Tavenner about something that you began to discuss with Dr. 
Gosar. And that is, is there a decline in participation? Is 
that what has yielded smaller increases in the costs of 
healthcare?
    Ms. Tavenner. I don't have an answer to that. And I think 
we'd have to wait for someone. It's too early to know.
    Mrs. Lummis. Is there a way to analyze the information to 
get that fact, to determine it?
    Ms. Tavenner. I think if you look at the Medicare Trustee's 
report, I think if you look National Health Expenditure, it 
will show you trends.
    Mrs. Lummis. Okay. I'm hopeful to get those trends.
    I'm going to give you a little story. I'm on Obamacare. My 
husband was on Obamacare with me. And we were told that we were 
enrolled in Obamacare. And then when we filed claims, we were 
told we were not enrolled in Obamacare. And then we got it 
straightened out, and he filed claims and we were told once 
again that we were not on Obamacare.
    Well, come to find out my husband was having chest pains at 
the time that he was told we were not enrolled in Obamacare. 
And come to find out he didn't have all of the tests that he 
was advised by his physician to have.
    So, on October 24th, a week before election, my husband 
went to sleep and never woke up. He had a massive heart attack 
in his sleep at age 65, -a perfectly by all appearances healthy 
plan.
    Come to find out in a conversation with his physician after 
he died, he chose not to have one of the tests, the last test 
his doctor told him to have. This happened to coincide with the 
time that we were told that we were not covered by Obamacare.
    I'm not telling you that my husband died because of 
Obamacare. He died because he had a massive heart attack in his 
sleep. But I am telling you that during the course of time that 
he was having tests by a physician and was told we were not 
covered by Obamacare, that he then decided not to have the last 
test the doctor asked him to have.
    Let me suggest that there may be a decline in participation 
and that it may not be to the benefit of the American people.
    I want to suggest that, regardless of what happened to me 
personally, that there have been so many glitches in the 
passage and implementation of Obamacare that have real-life 
consequences on people's lives. And the so-called glibness that 
has been referenced today have direct consequences for real 
American people.
    So get over your damn glibness.
    I yield back.
    Ms. Tavenner. First of all, I'm sorry.
    Chairman Issa. I thank the gentlelady.
    Ms. Tavenner. Could I answer?
    Chairman Issa. I don't think she had a question for you.
    Mrs. Lummis, Do you have a pending question?
    Mrs. Lummis. Mr. Chairman, I really do yield back.
    Chairman Issa. The gentlelady yields back.
    We go to Dr. DesJarlais of Tennessee.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Mr. Gruber, I wanted to talk to you a little bit in my time 
here today about your understanding of the State and Federal 
exchange premium assistance as we've talked about that today, 
and you've referenced it several times.
    But let me first just make sure I understood what you told 
Mrs. Lummis a second ago about all your comments. I know you've 
been here today. You've been very humble. You've been eating 
crow. You don't like the way you said things. You've been 
walking those back. But she asked if all those all those 
statements were a lie, and you just said they were not lies. Is 
that what you said?
    Mr. Gruber. They were glib and thoughtless and really 
inexcusable.
    Mr. DesJarlais. But, in terms of content, you weren't 
lying. You don't like the way you said it, but what you said 
you had some basis for.
    Mr. Gruber. The comments that I made were just my 
conjecturing outside my area of expertise.
    Mr. DesJarlais. Well, Mr. Gowdy talked about that. And you 
did that an awful lot. I don't think you were necessarily out 
of your area of expertise. In fact, I think you nailed most of 
what you said. Just politically maybe you weren't being a good 
politician, you weren't good in the way you said them.
    But I, just for one, applaud you for coming forth with 
those statements and telling people that, you know, this was a 
difficult law to pass, wasn't it? When you were up here 
advising people, trying to get the healthcare law passed. It 
was a difficult sell, wasn't it?
    Mr. Gruber. It was a very challenging political fight.
    Mr. DesJarlais. One, because the American people were very 
afraid of a government takeover of healthcare. They didn't want 
socialized medicine.
    But, now, some people did want that, they wanted a single-
payer system, didn't they?
    Mr. Gruber. I believe some Americans do support a single-
payer system.
    Mr. DesJarlais. Okay. But, optically, that was tough for a 
lot of people up here to sell to the American people. Because 
people are opposed to the healthcare law, and that's why there 
were not a single Republican can vote; in fact, they really had 
to wrangle a lot Democrats to get their vote. There was all 
kinds of deals that basically put a lot of Democrats out of 
office.
    But, I mean, that's beside the point.
    What I want to get to was your understanding of the State 
and Federal exchanges. Because when they started talking 
Federal exchanges, that sounded to the people a lot like a 
Federal takeover of healthcare. So State-run exchanges were a 
lot more palatable. It was a lot better optically. So that's 
what was pushed. In fact, that's what was written in the law, 
wasn't it? That the States would set up exchanges and they 
would offer premium subsidies.
    Mr. Gruber. I don't have the exact wording of the law in 
front of me. But I believe the law said, as was referenced 
earlier, that the State should set up exchanges and, if not, 
there would be a Federal backstop.
    Mr. DesJarlais. Okay. So you know--realize, then, that a 
Federal backstop was always in play. I mean, the States had the 
option. But, if not, the Feds had to set up an exchange.
    Mr. Gruber. That's the way the law was written.
    Mr. DesJarlais. Okay. So your comment on January 12 of 
2012, you said, if you're a State and you don't set up an 
exchange, that means your citizens don't get their tax credits.
    Mr. Gruber. Once again, that was my trying to be glib and 
trying to summarize a subtle point----
    Mr. DesJarlais. Were you being glib? I mean, you were 
concerned about the Federal exchanges. Why?
    Mr. Gruber. I was concerned about the Federal exchanges 
because it was a very complicated task to get them set up, and 
we weren't sure who would be President when the time came to 
stand them up.
    Mr. DesJarlais. Okay. So who was going to be President. So 
it was political. It was a tough sell, once again. People 
didn't want it, but there was a lot of smoke and mirrors, and 
there was a lack of transparency. And you said that in one of 
your glib statements, even though it was very accurate.
    But, in your opening statement today, you said that the 
point you were trying to make about the possibility of Federal 
Government was whatever reason they might not set up a Federal 
exchange.
    Well, you just said that they had to set up a Federal 
exchange. You just testified to that. Right?
    Mr. Gruber. The law said that there should be Federal 
backstop.
    Mr. DesJarlais. Okay. But it didn't say that the Federal 
exchange would subsidize people in those States. And that's why 
you made the comment in 2012; correct?
    Mr. Gruber. It is a very clear reading of the law that tax 
credits should be available to citizens in all States 
regardless of who runs the exchange.
    Mr. DesJarlais. It's not clear. That's why there's a 
Supreme Court case. It's not clear at all. That's why we're 
going to hear this.
    But you knew in January of 2012 that there was a concern. 
The President knew there was a concern because he assumed the 
States were going to set up exchanges. He put enough incentives 
in there, he thought they would fall in line, and they would 
have that nice optic of not having a Federal takeover of 
healthcare but, rather, State-run exchanges. Well, only 16 did. 
And then there was a problem. So that's why you were concerned 
in 2012. Correct?
    Mr. Gruber. My comments in 2012, as I said, were my effort 
to try to seem like I knew more than I did.
    Mr. DesJarlais. You belittle yourself. You know a lot. You 
were the guy they turned to to do this. I mean, you were the 
one that they were going to to get advice. You ran the models. 
You had all these models for State and Federal exchanges. Did 
you not have a model in the event that this happened, what's 
happening now, 16 States and the rest are Federal, was there 
not a model that showed financially that was unworkable?
    Mr. Gruber. I am an expert within economics and 
microsimulation modeling. In the microsimulation modeling, I 
did, I assumed tax credits would be available in all States.
    Mr. DesJarlais. And so you knew that, but they didn't write 
in that the law. But who did? It wasn't Congress. Four months 
after you made your comment in 2012, apparently the IRS listens 
to you because they did an end around Congress and they rewrote 
and promulgated a rule to say that Federal exchanges also had 
to offer subsidies. And that's why you were concerned in 
January. IRS listened to you. They came through, took an eraser 
to the bill, and tried to change it for Congress because they 
knew we wouldn't change it for them.
    Mr. Gruber. Is there a question?
    Mr. DesJarlais. Well you can comment on that. Am I wrong?
    Mr. Gruber. I can't conjecture on what the--why the IRS did 
what it did----
    Mr. DesJarlais. You conjectured in 2012, you conjectured in 
your opening statement that you always assume that. But you ran 
models, and apparently the legislators didn't listen to those 
models because, in a hurry, they passed this bill to try to 
sell it to the people of the State-run exchanges. But they 
didn't have language saying the Federal exchanges would 
subsidize the taxpayer--subsidize the people.
    Mr. Gruber. As I said, I think a clear reading of the law 
makes it clear the tax subsidy should be available to citizens 
in all States, regardless----
    Mr. DesJarlais. Again, that's why we're in the Supreme 
Court. That's why it's going to the Supreme Court, because it 
wasn't clear.
    Ms. Tavenner, real quickly, if I may.
    Do you know, you're the numbers person, you said there were 
6.7 million people that signed up for the Obamacare. Is that 
right?
    Ms. Tavenner. 6.7 million people as of October 15th had 
paid their premiums.
    Mr. DesJarlais. I don't know, I'm hoping you know this, and 
you may or may not have it with you, may have to get to it me, 
but if you do, please tell me. How many of these people who 
signed up are Federal workers?
    Ms. Tavenner. Are Federal workers?
    Mr. DesJarlais. Yes. People who are already on Federal 
health care, and then they switched over to Obamacare like Mrs. 
Lummis just did.
    Ms. Tavenner. I don't know that number. But I would assume 
the only individuals would be the Members of Congress who were, 
like her husband, in the exchanges----
    Mr. DesJarlais. Well, there's that and there's Federal 
employees all over this country. Two to 4 million Federal 
employees. How many of those signed up for Obamacare?
    Ms. Tavenner. I don't know. I'd be glad to try to find that 
out.
    Mr. DesJarlais. I'd like to know that because I'm just 
wondering, out of the 6.7, how many actually helped the private 
citizens of this country and how many of those are actually 
just Federal workers that shifted over to the healthcare 
exchanges.
    Ms. Tavenner. I mean, that numbers--those numbers may be 
available in the D.C. exchange. I'll see if I can get you that.
    Mr. DesJarlais. Thank you, Ms. Tavenner. Thanks to all the 
witnesses.
    Chairman Issa. Thank the gentleman.
    We now go to the gentleman from South Carolina, Mr. Rice.
    Mr. Rice. Thank you, Mr. Chairman. And thank you for 
allowing me to speak in as a guest today. This has been a truly 
fascinating hearing.
    Professor Gruber, when you spoke in your videos, which I've 
watched with great interest, you said that the administration 
used a lack of transparency to its advantage in getting these--
the Affordable Care Act passed. But I think you spoke with a 
great understatement. It's more and more clear the more we 
speak here today that it's actually the Affordable Care Act was 
passed as a pack of lies on a foundation of deception. And it 
continues here today.
    Going back to what Dr. DesJarlais was just asking about, 
your assessment in 2012 that if a State didn't set up an 
exchange, that its citizens would pay the tax and benefit the 
citizens in other States. And now you say that's incorrect?
    Mr. Gruber. What I said in--as I said, what I said in 
January 2012 was that if a Federal exchange was not established 
and only in that circumstance, then States that did not have--
--
    Mr. Rice. You didn't say that in January of 2012. You're 
saying that today. What you said in January of 2012 was that if 
the States, recognizing their citizens would pay the tax but 
not get the benefit, that that would be a sufficient economic 
incentive for them to set up the--set up the exchange. That's 
what you said in 2012.
    You didn't say anything about a Federal exchange.
    Mr. Gruber. As I've said, I was conjecturing areas beyond 
my expertise, trying to seem smarter than I was. And I just 
shouldn't have done that.
    Mr. Rice. When you say ``conjecture,'' you mean lies? Is 
that what you mean?
    Mr. Gruber. No, I mean conjecture.
    Mr. Rice. So you were telling the truth back then in 2012.
    Ms. Tavenner. I was conjecturing.
    Mr. Rice. All right. You also said in 2012 that the taxes 
under the Affordable Care Act were put on the insurance 
companies and not on individuals, knowing full well that the 
insurance companies would pass them on down to individuals as 
an additional premium, and that was disguised tax. Do you still 
believe that?
    Mr. Gruber. I do believe, as many economists do, that in a 
competitive insurance market, if you levy a tax on an insurer, 
it will be largely passed forward to premiums to their 
consumers.
    Mr. Rice. Okay. It was a way of hiding the tax on the 
individual. That's the way you described it in 2012. Do you 
still believe that?
    Mr. Gruber. Once again, that was me conjecturing about 
political areas that I shouldn't have. What I believe is the 
economics that I just stated to you.
    Mr. Rice. You also said that if the people had known, if 
the taxpayers, the stupid American taxpayers, had recognized 
that we were shifting costs from healthy people to unhealthy 
people, you said that the law wouldn't have passed. Do you 
still believe that?
    Mr. Gruber. That was once again my trying to pretend I'm 
something I'm not, which is a political expert.
    Mr. Rice. Okay. So are you saying that was a lie then or is 
it a lie today?
    Mr. Gruber. It was a conjecture and my trying to be 
something I'm not.
    Mr. Rice. All right. You said that the Affordable Care Act 
was written in a tortured way to avoid the mandates being 
scored by CBO as a tax. Because you knew if it was scored as a 
tax, it wouldn't pass. You still believe that today?
    Mr. Gruber. Once again, that was my trying to act like I 
was a political expert that I'm not.
    Mr. Rice. So what you're saying, then, is you were lying 
then?
    Mr. Gruber. What I'm saying is I was conjecturing in an 
area which I shouldn't have.
    Mr. Rice. You weren't lying, then. Okay. So you still 
believe that, I suppose.
    All right. Do you believe--do you still believe that this 
deception was necessary to get the law passed?
    Mr. Gruber. The statements to which we've been referring 
today were, once again, conjectures by me in an area in which 
I'm not expert.
    Mr. Rice. You served as an adviser to CBO from 2008 until 
when?
    Mr. Gruber. I joined--I don't recall exactly. I believe 
someone said I joined the council of--the advisory council CBO 
in 2007. And I went to a few meetings. And those meetings 
ended--the last meeting was maybe end of 2008 or very early 
2009.
    Mr. Rice. So, at that time, this law was being drafted 
wasn't it?
    Mr. Gruber. No.
    Mr. Rice. Okay. You're not sure about the--you're not sure 
about when you got off of this CBO advisory panel.
    Mr. Gruber. I'm not sure either about when I got off or the 
last meeting I was at.
    Mr. Rice. That would seem to me to be, somebody who is as 
detail oriented as you testified you are, that's pretty 
important. Because CBO is supposed to be a nonpartisan, 
independent advisory group. And if you're being paid by the 
administration to advise them on tortured language to avoid 
these things being scored as a tax, isn't that kind of a 
conflict of interest?
    Mr. Gruber. I am certain--actually, I am pretty sure that I 
did not attend any meetings of a CBO----
    Mr. Rice. I don't care if you attended meetings or not. 
Were you on the panel or weren't you?
    Mr. Gruber. I don't know the official date at which they 
took me off the panel.
    Mr. Rice. Not very detail oriented for somebody who is 
supposed to be detail oriented.
    Do you believe the administration used lack of transparency 
to its advantage in passing the Affordable Care Act as you said 
in 2012?
    Mr. Gruber. What I said in 2012 was just trying to speak 
about an area in which I'm not expert.
    Mr. Rice. Okay. So let me ask you this. Forget about 2012. 
Do you believe today the administration used a lack of 
transparency to its advantage in passing the Affordable Care 
Act?
    Mr. Gruber. I believe the Affordable Care Act was debated 
extensively and was a very transparent process.
    Mr. Rice. So you were lying in 2012.
    Mr. Gruber. In 2012, I was conjecturing about political 
things----
    Mr. Rice. What you said just now is in direct opposition to 
exactly what you said in 2012. So it was a lie today, or it was 
a lie in 2012. Which one's a lie?
    Mr. Gruber. I believe that the Affordable Care Act was 
passed in transparent?
    Mr. Rice. So you were lying in 2012 is what you're saying.
    Mr. Gruber. 2012, I was trying to play amateur politician, 
and I shouldn't have done that.
    Chairman Issa. I thank the gentleman.
    I gather the gentleman's really saying amateur politician 
in which, as a politician, you're allowed to say things that 
just aren't true out on the stump. And then when you're under 
oath. You say the truth, right?
    Mr. Rice. Yes, sir.
    Chairman Issa. I gather.
    I thank the gentleman for your participation.
    Mr. Rice. Thank you very much.
    Chairman Issa. I'm going to try to get this done so we can 
recess. We have a vote on the floor.
    But, Ms. Tavenner, can we get the cost-sharing reduction 
payment figures requested by Mr. Collins in the next 10 days? 
This is fiscal year 2014 plus 2015 payments to insurers. Could 
we be assured we'll have it in the text 10 days?
    Ms. Tavenner. So it has the 2014 payments.
    Chairman Issa. Right. Fiscal year 2014.
    Ms. Tavenner. Yes.
    Chairman Issa. Can we get copies of the revised insurer 
contracts, which include the opt-out clause within the next 10 
days?
    Ms. Tavenner. Yes.
    Chairman Issa. Thank you. Can any--has any insurer 
participating in the 2015 Affordable Care Act exchanges 
expressed any concern at any time to anyone that to your 
knowledge in is executive branch of the Federal Government 
regarding the lack of an appropriation of funds to make cost-
sharing reduction payments to insurers?
    Ms. Tavenner. Not to me. I'm not aware of anyone else. But 
definitely not to me.
    Chairman Issa. But you know of no question from any 
insurers you haven't heard through staff.
    Ms. Tavenner. About cost-sharing reduction, no.
    Chairman Issa. Okay.
    Chairman Issa. Mr. Gruber, I'll be quick. You are familiar 
with the CBO, you sat on the advisory board, and you made this 
comment about tortured scoring. I know the tortured scoring, so 
let's go through it very quickly.
    Isn't it true that the Affordable Care Act received revenue 
in years in which it was paying nothing out, which allowed, in 
the 10-year window, for it to have revenue that on a long-term 
basis could--would not fail to have a deficit? In other words, 
by collecting a tax before they began paying out, that shifting 
in the 10-year window, causes the 10-year window to show a 
balance that disappeared later, but a balance that in the next 
10-year window would not exist? Isn't that true?
    Mr. Gruber. The Affordable Care Act did have revenue-
raising provisions which started before 2014, but it lowered 
the deficit overall in the first decade, and by increasing----
    Chairman Issa. We're not worried about the deficit, but 
it--that's the tortured stuff you were talking about, is that 
because they were able to not score certain things as 
expenditures, make certain assumptions in there and, most 
importantly, collect revenue which was during a period in which 
they were paying nothing out, that gave them a score of revenue 
that, in fact, on an ongoing basis--in other words, if they 
started on the day that the Affordable Care Act began providing 
services and took only the revenue during that period, they 
would have had a deficit. Isn't that true?
    Mr. Gruber. If they started the day the Affordable Care Act 
began and they went for the next decade, they would have showed 
a massive surplus.
    Chairman Issa. You're saying that, in fact--are you sure 
you want to say that as your knowledge, that, in fact, today, 
for example, with the payout and the--the in, you want to say 
that the incremental Medicaid payments and so on that were 
caused as a result of the Affordable Care Act would, in fact, 
have had a surplus, not a deficit, in revenue?
    Mr. Gruber. My recollection of the numbers--and I haven't 
looked at them in a while--my recollection of the numbers was 
that by the end of the decade, that on a year-to-year basis, 
the Affordable Care Act significantly lowered the deficit such 
that if you add up to 10 years after 2014, I believe that if 
you go by CBO's numbers, that that would have been deficit 
reducing.
    Chairman Issa. You are aware that CBO has revised their 
numbers and they now show a deficit in the Affordable Care Act 
and have since really shortly after the parties changed here in 
the House and they redid their numbers.
    Ms. Tavenner, you aware that they show a deficit--that CBO 
has revised their numbers, they no longer stand behind the 
numbers during passage?
    Ms. Tavenner. I'm not aware.
    Chairman Issa. I sure wish you had been aware of it.
    Mr. Cummings.
    Mr. Cummings. You had not heard that? I hadn't heard it 
either.
    Ms. Tavenner. I don't think so.
    Mr. Cummings. But we'll check on that.
    I just--as I close, let me just say this, you know, one of 
the things that I--that I think about and talk about the older 
I get is that we have a limited amount of time to be in these 
offices. And I'm so sorry, Mr. Gruber, that you said what you 
said, you can call it conjecture, whatever, and I'm so sorry 
that the mistake was made, and I do believe it was a mistake, 
but what it does is distracts, it distracts from all of the 
good things that are being done with regard to this law, and 
that--and that is the most painful part of all this, you know. 
You know, I talked to a lady the other day who had to wait for 
the Affordable Care Act to go into effect to get breast cancer 
treatment. I mean, I can just--story after story after story, 
and now we've got to spend all this time dealing with 
something, Mr. Gruber, that you--you know, you were 
conjecturing about.
    I just told my staff, I said we ought to learn from this. 
You've got to watch what you say, you know, watch what you say, 
because it can lead to significant consequences.
    And I was so sorry to hear about Ms. Lummis' husband, and I 
know you wanted to say something. I was just curious, what did 
you want to say, Ms. Tavenner?
    Ms. Tavenner. Just, first of all, I wanted to express my 
sorrow at her loss, and that we would follow up with the D.C. 
exchange to see what had happened.
    Mr. Cummings. Yeah.
    Ms. Tavenner. I know that's cold comfort now, but----
    Mr. Cummings. Yeah. That's a painful story.
    Ms. Tavenner. Yes.
    Mr. Cummings. But--and--and so anyway, I--again, Ms. 
Tavenner, I hope you'll go out there and you'll continue to 
work hard to make this work. No matter what happens in these 
hearings, we've got to protect people's health, we've got to 
try to keep people well and help families stay strong, because 
I think that when we have an unhealthy population, we have an 
unhealthy country.
    And, Mr. Gruber, you know, you call it amateur politics or 
whatever you want to call it, like I said, I think the most 
painful thing--and I always try to keep sight of the big 
picture. You know, my mother has a saying, she says, small--big 
can't get you if small's got you. And I think sometimes we can 
get so caught up in distracting things, that we don't deal with 
the bigger picture, the life and death situations, and so--but 
thank you all much for your testimony.
    Chairman Issa. I'm going to close the hearing.
    Mr. Goldman, thank you for your participation.
    Mr. Goldman. Thank you.
    Chairman Issa. Yeah. Thank you for your participation. I 
suspect that this is an unusual event for you, and you carried 
yourself off well, even though there weren't as many questions. 
Perhaps if you'll post a few videos, you will get an 
opportunity.
    Mr. Gruber, I think you saw here that, on both sides of the 
aisle, at least a number of members don't buy that you were 
saying one thing there that you didn't believe. I think most of 
us believe you believed a lot of what you said. And in the case 
of the tortured accounting that CBO used with 10 years worth of 
revenue and a fraction, only about 6 years worth of payout, it 
was tortured. It is tortured. And the American people in the 
long-run are going to realize there's no free lunch, and paying 
100 percent and then later 90 percent of Medicaid payments as 
the major part of the new insured under Obamacare has a cost, 
it has a cost to the taxpayers, and the taxpayers are who we 
represent from this side of the dais.
    Ms. Tavenner, the only reason you're back here today is 
that you came with figures that are deceptive, needlessly 
deceptive. We can take bad news here. We've overseen a lot of 
agencies, problems at the Department of Transportation, 
problems at the Secret Service and others, and Mr. Cummings and 
I have been able to work without endlessly bringing people back 
when there's open and transparent delivering of information.
    Now, you've made some specific promises of delivering 
information today. I trust that you will keep those. I will 
tell you that no matter who sits in this chair, and I've sat 
here under five chairmen--or four chairmen, and I can tell you, 
Mr. Waxman would have been just as animated as we are here 
today, that, give us the bad news, give us what you have, even 
give us bad information. In the early days of the stimulus 
package, we were told there were congressional districts in 
numbers greater than existed, and we laughed a little bit and 
we had hearings. But, at the end of the day, working with Earl 
Devaney and other people, we accepted that they were giving us 
the best information, and when we saw mistakes, they corrected 
them. You have that opportunity. I won't be in this dais, you 
know, next Congress, but somebody else will, and when they call 
you back, tell us what you don't know early on, not when we ask 
for facts later on, and that will be helpful.
    I've said all along that the problem in this administration 
is that they didn't live up to their promise of being the most 
transparent administration in history. The standard, the bar 
was low. All administrations have a tendency to deliver good 
news in press conferences and bad news at the latest possible 
date.
    So I want to thank my ranking member. He said earlier that 
he--that I made him better. Well, I will tell you, Mr. Cummings 
has worked very hard to make me have to be better in trying to 
get to the truth, and I've learned a great deal.
    And I will just say one thing in closing to my friend. I 
would do things differently with what I now know, but I would 
hope that anyone who sits in this chair would never do less 
than I have done, because it is our watch, it is our time, and 
I think you and I have worked hard to try to make sure this 
committee did as much as it could, and my only regret is that 
we couldn't do more. So I want to thank you.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We stand adjourned.
    [Whereupon, at 1:38 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
               
               
                                [all]
</pre></body></html>
